<html>
<title> - H.R. 1522, ``PUERTO RICO STATEHOOD ADMISSION ACT''; AND H.R. 2070, ``PUERTO RICO SELF-DETERMINATION ACT OF 2021''</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]





 
          H.R. 1522, ``PUERTO RICO STATEHOOD ADMISSION ACT'';

                          AND H.R. 2070,
                          
          ``PUERTO RICO SELF-DETERMINATION ACT OF 2021''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Wednesday, April 14, 2021

                               __________

                            Serial No. 117-3

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
          
                              ______                       


               U.S. GOVERNMENT PUBLISHING OFFICE 
 44-272 PDF             WASHINGTON : 2021 
           
          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                JESUS G. ``CHUY'' GARCIA, IL, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
                  BRUCE WESTERMAN, AR, Ranking Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Garret Graves, LA
Joe Neguse, CO                       Jody B. Hice, GA
Mike Levin, CA                       Aumua Amata Coleman Radewagen, AS
Katie Porter, CA                     Daniel Webster, FL
Teresa Leger Fernandez, NM           Jenniffer Gonzalez-Colon, PR
Nydia M. Velazquez, NY               Russ Fulcher, ID
Diana DeGette, CO                    Pete Stauber, MN
Julia Brownley, CA                   Thomas P. Tiffany, WI
Debbie Dingell, MI                   Jerry L. Carl, AL
A. Donald McEachin, VA               Matthew M. Rosendale, Sr., MT
Darren Soto, FL                      Blake D. Moore, UT
Michael F. Q. San Nicolas, GU        Yvette Herrell, NM
Jesus G. ``Chuy'' Garcia, IL         Lauren Boebert, CO
Ed Case, HI                          Jay Obernolte, CA
Betty McCollum, MN                   Cliff Bentz, OR
Steve Cohen, TN
Paul Tonko, NY
Rashida Tlaib, MI
Doris O. Matsui, CA
Lori Trahan, MA

                     David Watkins, Staff Director
                        Sarah Lim, Chief Counsel
               Vivian Moeglein, Republican Staff Director
                   http://naturalresources.house.gov
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, April 14, 2021........................     1

Statement of Members:

    Gonzalez-Colon, Hon. Jenniffer, a Resident Commissioner in 
      Congress from the Territory of Puerto Rico.................     4
        Prepared statement of....................................     5
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
        Prepared statement of....................................     3
    Velazquez, Hon. Nydia, a Representative in Congress from the 
      State of New York..........................................     9
    Westerman, Hon. Bruce, a Representative in Congress from the 
      State of Arkansas..........................................     6
        Prepared statement of....................................     7

Statement of Witnesses:

    Acevedo-Vila, Hon. Anibal, Former Governor, Popular 
      Democratic Party, San Juan, Puerto Rico....................    49
        Prepared statement of....................................    50
    De Lourdes Santiago, Hon. Maria, Senator, Puerto Rico 
      Independence Party, San Juan, Puerto Rico..................    53
        Prepared statement of....................................    54
    Fuentes Agostini, Jose, Chair, Puerto Rico Statehood Council, 
      Washington, DC.............................................    22
        Prepared statement of....................................    23
    Hernandez Montanez, Hon. Rafael, Speaker, Puerto Rico House 
      of Representatives, San Juan, Puerto Rico..................    46
        Prepared statement of....................................    47
    Natal-Albelo, Hon. Manuel, President, Citizens Victory 
      Movement, San Juan, Puerto Rico............................    57
        Prepared statement of....................................    58
    Pierluisi, Hon. Pedro R., Governor of Puerto Rico, San Juan, 
      Puerto Rico................................................    10
        Prepared statement of....................................    12
    Ponsa-Kraus, Christina D., Professor of Law, Columbia Law 
      School, New York, New York.................................    44
        Prepared statement of....................................    45
    Velez-Garcia, Johanne, Vice President, Puerto Rico Democratic 
      Party, San Juan, Puerto Rico...............................    17
        Prepared statement of....................................    18

Additional Materials Submitted for the Record:

    List of documents submitted for the record retained in the 
      Committee's official files.................................   141

    Submissions for the Record by Resident Commissioner Gonzalez-
      Colon

        Keren Riquelme Cabrera, Puerto Rico Senator at Large, 
          Letter to Chairman Grijalva and Ranking Member 
          Westerman..............................................    98
        Puerto Rico Young Republican Federation--Statement for 
          the Record in Support of H.R. 1522.....................    99
        Pedro R. Pierluisi, Governor of Puerto Rico--Letter to 
          Congressional Leadership Supporting H.R. 1522 & S. 780.   100
        Letter signed by 47 Legal and Constitutional Scholars 
          Supporting H.R. 1522 & S. 780..........................   101
        Letter signed by 51 Organizations Supporting H.R. 1522 & 
          S. 780.................................................   104
        Jose F. Aponte-Hernandez, Former Speaker of the House of 
          Representatives of Puerto Rico and Representative at 
          Large--Statement for the Record on H.R. 1522...........   107
        Civil Rights Coalition for Puerto Rico Statehood, Letter 
          to House and Senate in Support of H.R. 1522 & S. 780...   119
        Puerto Rico Estadidad, Letter to House and Senate with 
          over 100 citizen signatures in Support of H.R. 1522 & 
          S. 780.................................................   122
        Milagros G. Lopez Campos, Municipal Legislator of 
          Carolina, Puerto Rico, Statement for the Record in 
          Support of H.R. 1522...................................   126
        Gregoria Igartua, Domestic and International Legal Advice 
          LLC, Statement for the Record in Support of H.R. 1522..   127
        Ricardo Marrero-Passapera, Candidate for Puerto Rico 
          Congressional Delegation, Letter to Chair Grijalva and 
          Ranking Member Westerman in Support of H.R. 1522.......   133
        Democratic Party of Puerto Rico, Letter to Rep. Joaquin 
          Castro in Support of H.R. 1522.........................   137

    Submissions for the Record by Rep. Soto

        Steny H. Hoyer, Majority Leader of the U.S. House of 
          Representatives, Testimony for the Record..............   139

    Submissions for the Record by Rep. Velazquez

        Status, Our People and Right to Vote, by Victoria Munoz 
          Mendoza and Hector Luis Acevedo, El Nuevo Dia, March 
          25, 2021...............................................   140
                                     



 LEGISLATIVE HEARING ON H.R. 1522, TO PROVIDE FOR THE ADMISSION OF THE 
STATE OF PUERTO RICO INTO THE UNION, ``PUERTO RICO STATEHOOD ADMISSION 
 ACT''; AND H.R. 2070, TO RECOGNIZE THE RIGHT OF THE PEOPLE OF PUERTO 
    RICO TO CALL A STATUS CONVENTION THROUGH WHICH THE PEOPLE WOULD 
EXERCISE THEIR NATURAL RIGHT TO SELF-DETERMINATION, AND TO ESTABLISH A 
  MECHANISM FOR CONGRESSIONAL CONSIDERATION OF SUCH DECISION, AND FOR 
     OTHER PURPOSES, ``PUERTO RICO SELF-DETERMINATION ACT OF 2021''

                              ----------                              


                       Wednesday, April 14, 2021

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 1 p.m., via 
Webex, Hon. Raul M. Grijalva [Chairman of the Committee] 
presiding.
    Present: Representatives Grijalva, Napolitano, Costa, 
Sablan, Huffman, Lowenthal, Gallego, Neguse, Porter, Leger 
Fernandez, Velazquez, DeGette, Brownley, Dingell, McEachin, 
Soto, Garcia, Case, McCollum, Tlaib; Westerman, Young, Lamborn, 
Gosar, Graves, Radewagen, Webster, Gonzalez-Colon, Fulcher, 
Stauber, Tiffany, Moore, Herrell, and Obernolte.
    Also present: Representative Torres.

    The Chairman. Thank you very much. The Committee will come 
to order. The Committee is meeting today to receive testimony 
on two bills to address Puerto Rico's future political status. 
Under Committee Rule 4(f), any oral opening statements of the 
hearing are limited to the Chair and the Ranking Minority 
Member or their designees. This will allow us to hear from our 
witnesses sooner and help Members keep to their schedules.
    However, for today's hearing, we will allow main sponsors 
to make a statement in support of their legislation before we 
turn to the rest of the witnesses. I therefore ask unanimous 
consent that all other Members' opening statements be made part 
of the hearing record if they are submitted to the Clerk by 5 
p.m. today or at the close of the hearing, whichever comes 
first. Hearing no objection, so ordered.
    Without objection, the Chair will also declare a recess 
subject to the call of the Chair. Without objection, so 
ordered.
    As described in the notice, statements, documents or 
motions will be submitted to the repository at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="763e38243512191505361b171f1a581e190305135811190058">[email&#160;protected]</a>
    Without objection, the following Members from New York, 
Representatives Torres and Ocasio-Cortez are authorized to 
question the witnesses of today's hearing after permanent 
members of this Committee have their opportunity first.
    Additionally, please note that as with in-person meetings, 
Members are responsible for their own microphones. And as with 
our in-person meetings, Members may be muted by staff only to 
avoid inadvertent background noise. Finally, Members or 
witnesses experiencing technical problems should inform the 
Committee staff immediately. Now let me recognize myself for 
opening remarks.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    The Chairman. In the hopes of some brevity, let me just 
state that I want to thank my colleagues for taking the time to 
join us at the Full Committee hearing to discuss the 
legislation to resolve Puerto Rico's political status. And 
thank you to our witnesses today for their participation and 
the time commitment they have made to this hearing.
    The U.S.-Puerto Rico political relationship has been the 
subject of past discussions in this Committee. However, recent 
events reinforce our responsibility to re-examine the island's 
territory status.
    Two pieces of legislation have been introduced this 
Congress to resolve Puerto Rico's political status, H.R. 2070, 
Puerto Rico's Self-Determination Act of 2021 by Representative 
Velazquez, and H.R. 1522, Puerto Rico Statehood Admission Act 
by Representative Darren Soto.
    Each piece of legislation proposes a different process to 
end the island's current territory status. Puerto Rico's 
options for non-territory status or statehood, independence and 
free association.
    At the same time, there is existing legislation to address 
this issue. In 2014, Congress appropriated $2.5 million to be 
provided to the Puerto Rico State Elections Commission for 
voter education and conduct a plebiscite by which Puerto Rican 
voters would determine the future political status of Puerto 
Rico. The U.S. Department of Justice is responsible for 
overseeing and administering that plebiscite.
    Despite the different views of our witnesses today, I hope 
we can all agree that Congress has a responsibility to play a 
constructive role in the resolution of Puerto Rico's political 
status. We must work effectively together with the executive 
branch and the island's elected officials through this process, 
while respecting the will of the residents of Puerto Rico.
    This Committee will continue to work with the Biden 
administration on this important matter and expanding access to 
Federal programs for residents of Puerto Rico and other U.S. 
territories. The White House already demonstrated a willingness 
to expand such programs as the Child Tax Credit and the Earned 
Income Tax Credit in these jurisdictions. I will continue 
advocating for equity in Federal assistance under the 
Supplemental Security Income and Medicaid.
    A study released by the Administration recently related to 
the American Jobs Plan spoke to the need for action in Puerto 
Rico. For decades, infrastructure in Puerto Rico has suffered 
from a systemic lack of investment. The need for action is 
clear. Puerto Rico's infrastructure received a `D minus' grade 
in this report on its infrastructure report card. The American 
Jobs Plan would make that historic investment in our nation's 
infrastructure and in the needs that are very pronounced within 
Puerto Rico.
    This `D minus' rating, I think, further presses the effort 
we need to undertake to address the historic need and inequity 
related to Puerto Rico and its residents in terms of the 
support American citizens in Puerto Rico deserve and merit and 
have earned in terms of equity from the Federal Government.
    Now I also want to, as I said, welcome our witnesses, which 
were suggested by the bill sponsors. Thank you for joining us. 
It is my hope that we will receive constructive feedback that 
will direct and inspire the Federal Government to act and 
continue today's discussion, which is a priority for the people 
of Puerto Rico.

    [The prepared statement of Mr. Grijalva follows:]
 Prepared Statement of the Hon. Raul M. Grijalva, Chair, Committee on 
                           Natural Resources
    I want to begin by thanking my colleagues for taking the time to 
join us for this Full Committee hearing to discuss legislation to 
resolve Puerto Rico's political status.
    For more than a century, Puerto Rico has been a U.S. territory 
subject to congressional authority derived from the Territory Clause of 
the U.S. Constitution. The Territory Clause grants Congress ``Power to 
dispose of and make all needful Rules and Regulations respecting the 
Territory or other Property belonging to the United States.''
    The U.S.-Puerto Rico political relationship has been the subject of 
past discussion in this Committee. However, recent events reinforce our 
responsibility to reexamine the island's territory status.
    First, a series of federal cases that affirmed the Commonwealth of 
Puerto Rico's subordinate status. For example, Sanchez Valle in 2016 in 
which the Supreme Court of the United States emphasized that--as a 
territory--the Commonwealth continues to derive its authority to govern 
from the U.S. Constitution, even after Congress approved the 
Commonwealth's own constitution in 1952.
    Second, the Federal Government's enactment of PROMESA, which 
authorizes the President of the United States to appoint members to an 
Oversight Board with extraordinary powers over the decisions of the 
Commonwealth and the island's elected government officials.
    Third, the government of Puerto Rico's decision to conduct a 
statehood yes-or-no plebiscite in November 2020.
    Two pieces of legislation have been introduced this Congress to 
resolve Puerto Rico's political status--H.R. 2070, ``Puerto Rico Self-
Determination Act of 2021'' by Representative Velazquez and H.R. 1522, 
``Puerto Rico Statehood Admission Act'' by Representative Soto. Each 
piece of legislation proposes a different process to end the island's 
current territory status; Puerto Rico's options for a non-territory 
status are statehood, independence, and free association.
    At the same time, there is existing legislation to address this 
issue. In 2014, Congress appropriated $2.5 million to be provided to 
the Puerto Rico State Elections Commission for voter education and to 
conduct a plebiscite by which Puerto Rican voters would determine the 
future political status of Puerto Rico. The U.S. Department of Justice 
is responsible for overseeing and administering the plebiscite.
    Despite the different views of our witnesses today, I hope we can 
all agree that Congress has a responsibility to play a constructive 
role in the resolution of Puerto Rico's political status. We must work 
effectively together with the executive branch and the island's elected 
government officials through this process, while respecting the will of 
the residents of Puerto Rico.
    I am committed to continue working with the Biden administration on 
this important matter and expanding access to Federal programs for 
residents of Puerto Rico and other U.S. Territories. The White House 
has already demonstrated willingness to expand programs such as the 
Child Tax Credit and the Earned Income Tax Credit in these 
jurisdictions, and I will continue advocating for equity in federal 
assistance under the Supplemental Security Income and Medicaid.
    Now, I want to welcome our witnesses, most of which were suggested 
by the bill sponsors. Thank you for joining us. It is my hope that we 
will receive constructive feedback that will inspire the Federal 
Government to act and continue today's discussion, which is a priority 
for the people of Puerto Rico.

                                 ______
                                 

    The Chairman. At this point, let me yield to the Ranking 
Member for comments. The floor is yours.

  STATEMENT OF THE HON. JENNIFFER GONZALEZ-COLON, A RESIDENT 
   COMMISSIONER IN CONGRESS FROM THE TERRITORY OF PUERTO RICO

    Miss Gonzalez-Colon. Thank you, Mr. Chairman. And first I 
would like to offer my deepest condolences on the recent 
passing of Alex Lofgren from your staff. My sympathies are with 
you, your office, and Alex's loved ones.
    First of all, I want to thank you for calling on this 
important hearing that addresses the results of the November 
election in favor of statehood for Puerto Rico. Today, we will 
hear the testimony on two House bills, H.R. 1522, the Puerto 
Rico Statehood Admission Act and H.R. 2070.
    H.R. 1522, introduced by Mr. Darren Soto, Florida, and 
myself, representing the island of Puerto Rico, elected to do 
so in Congress, would end Puerto Rico's territorial status, 
while the other bill is another tactic to delay the 
decolonization process and thus perpetuate the unequal 
treatment of the 3.2 million Americans that live on the island.
    Let me be clear. There is nothing that this other bill, or 
this other legislation, will offer Puerto Rico that has not 
been already discussed in 123 years. It is nothing new.
    Status convention, as proposed by that bill, creates a 
cumbersome process without any kind of timeline to completion 
and which problematically does not recognize that the only two 
non-territorial and constitutional status options are statehood 
and independence. Not only that--the bill shamelessly ignores 
the will of the voters in Puerto Rico, ignores a legitimate 
democratic process, and ignores self-determination despite the 
bill's misleading title.
    Letting the losing minority deny the clear choice of the 
majority in a free and fair vote is not democracy, and the 
United States must not take part in such an egregious act. That 
bill is truly a slap in the face to all Puerto Rican voters.
    On the other hand, H.R. 1522 respects and upholds Puerto 
Rico's vote for statehood with the true and only self-
determination method--and that is the ballot box.
    Puerto Ricans have voted for statehood three times in 
elections that courts upheld: 2012, 2017 and again in 2020. On 
March 24, this year, the certified results of the Puerto Rico 
State Elections Commission on voter participation showcases 
that voter turnout was 73.15 percent. That is a higher voter 
turnout than we have seen here in the United States in decades.
    The bipartisan bill--and I must say thank you to all 
Republicans and Democratic Members who are sponsoring Darren 
Soto's and the people of Puerto Rico's bill, which is H.R. 
1522--would constitute Congress' response to our fellow 
citizens on the island and provide a formal offer of statehood. 
The legislation outlines a clear process to enable the island's 
admission into the Union, should it be ratified by Puerto Rico 
voters in a federally sponsored, yes-or-no referendum. This is 
exact same procedure that was established for Alaska and Hawaii 
prior to their admission as states. Statehood, I know, is going 
to happen. It is the logical next step in our political future 
as Americans.
    Congress has the chance to make clear that when American 
citizens ask for equality and justice, they will get equality 
and justice as American citizens, not that we will welcome a 
proposal to make them be separate but equal like the other 
bills pretend.
    The status quo is unsustainable, and until it is addressed, 
Puerto Rico's economy and social development will continue to 
lag behind the other 50 states, driving many Puerto Ricans to 
leave the island in search of better opportunities. An example 
of that is that, today, as we speak, 44 percent of the island's 
residents live under the poverty line.
    For 140 years, the people of Puerto Rico have been proud 
American citizens, with over 235,000 having honorably served 
our nation in the U.S. Armed Forces, all while being denied 
equal participation in the Federal decision-making process.
    Only statehood provides that equal participation, 
guarantees U.S. citizenship, and represents a permanent and 
constitutional solution for Puerto Rico's status issue. And 
that is the reason I am proud to join Mr. Darren Soto of 
Florida. We together are listening to the voters on the island, 
to the majority, to the will of the people of Puerto Rico. I am 
the one elected to represent them, and I am doing so by filing 
this bill. With that, Mr. Chairman, I yield back.

    [The prepared statement of Miss Gonzalez-Colon follows:]
   Prepared Statement of the Hon. Jenniffer Gonzalez-Colon, Resident 
               Commissioner in Congress from Puerto Rico
    Thank you, Mr. Chairman. I'd like to first offer my deepest 
condolences on the recent passing of Alex Lofgren from your staff. My 
sympathies are with you, your office and Alex's loved ones.
    Mr. Chairman, thank you for calling on this important hearing that 
addresses the results of the November 3 election in favor of statehood 
for Puerto Rico.
    Today, we will hear testimony on two House bills, H.R. 1522, the 
Puerto Rico Statehood Admission Act, and H.R. 2070.
    H.R. 1522, introduced by Mr. Soto and I, would end Puerto Rico's 
centennial territorial status, while the other bill is another tactic 
to delay the decolonization process and thus perpetuate the unequal 
treatment of the 3.2 million Americans on the Island.
    Let me be clear, there is nothing that this other legislation will 
offer to Puerto Rico that has not already been discussed in 123 years.
    A status convention, as proposed by this bill, creates a cumbersome 
process without any kind of timeline to completion, and which 
problematically does not recognize that the only two non-territorial 
and constitutional status options are statehood and independence.
    Not only that--the bill shamelessly ignores the will of voters in 
Puerto Rico, ignores a legitimate democratic process, and ignores self-
determination, despite the bill's misleading title.
    Letting the losing minority deny the clear choice of the majority 
in a free and fair vote isn't democracy, and the United States must not 
take part in such an egregious act!
    That bill is truly a slap in the face to Puerto Rican voters!
    On the other hand, H.R. 1522, respects and upholds Puerto Rico's 
vote for statehood with the true and only self-determination method, 
the ballot box. Puerto Ricans have voted for statehood three times in 
elections that the courts upheld.
    The March 24 certified results of the Puerto Rico State Elections 
Commission on voter participation, showcases that voter turnout was 
73.15%. That is a higher voter turnout than what we have seen here in 
the United States in decades.
    The bipartisan H.R. 1522 would constitute Congress's response to 
our fellow citizens in Puerto Rico and provide a formal offer of 
statehood. The legislation outlines a clear process to enable the 
Island's admission into the Union, should it be ratified by Puerto Rico 
voters in a federally sponsored, yes-or-no referendum. This is the 
exact same procedure established for Alaska and Hawaii prior to their 
admission as States.
    Statehood is going to happen. It is the logical next step in our 
political future as Americans.
    Congress has the chance to make clear that when American citizens 
ask for equality and justice, they will get equality and justice as 
American Citizens. Not that we will welcome a proposal to make them be 
``separate but equal''.
    The status quo is unsustainable and until it is addressed, Puerto 
Rico's economy and social development will continue to lag behind that 
of the 50 states, driving Puerto Ricans to leave the Island in search 
of better opportunities. An example of this is how today, 44% of Island 
residents live under the poverty level.
    For 104 years, the people of Puerto Rico have been proud American 
citizens, with over 235,000 having honorably served our Nation in the 
U.S. Armed Forces. All while being denied equal participation in the 
federal decision-making process.
    Only statehood provides that equal participation, guarantees U.S. 
citizenship, and represents a permanent and constitutional solution to 
Puerto Rico's status issue.
    Thank you, Mr. Chairman and I yield back.

                                 ______
                                 

    The Chairman. The gentlelady yields back. And let me extend 
my appreciation for her comments regarding Mr. Lofgren, and 
your comments will extend to our staff. I appreciate it very 
much.
    The Chair now recognizes the Full Committee Ranking 
Minority Member, Mr. Westerman, for any statement that he may 
make. Mr. Westerman, you are recognized.
    Voice. Mr. Westerman is getting connected, I think, right 
now.
    The Chairman. OK. Mr. Westerman, you are recognized.

  STATEMENT OF THE HON. BRUCE WESTERMAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ARKANSAS

    Mr. Westerman. Thank you, Chairman. Thank you for your 
patience. And I want to also thank the witnesses for being with 
us today. And again, with all the technical issues that we have 
with these virtual hearings, and given that most of us are now 
vaccinated, I sincerely hope that we can return to work in 
person soon.
    At the end of the Spanish-American War in 1898, the United 
States acquired Puerto Rico along with several other islands. 
It wasn't until 1917 that Congress, through the Jones Act, 
extended U.S. citizenship to those residing in Puerto Rico. In 
1950, Puerto Rico gained authority over its internal 
governance. And in 1952, its constitution was ratified by the 
United States.
    After approval of the Puerto Rico Constitution, the island 
formally became known as the Commonwealth of Puerto Rico. At 
the time, this was another major step for Puerto Rico, but it 
did not resolve the relationship ambiguity with the United 
States, as some held that the ``Commonwealth'' provided Puerto 
Rico a status that was beyond territory but less than a state.
    Recent Supreme Court decisions and enactment of PROMESA 
resulted in the legal determination that Puerto Rico is a U.S. 
territory. Puerto Rico has tried to gain consensus from its 
people on how to proceed on the status issue. On November 3, 
2020, Puerto Rico held its sixth non-binding status referendum 
that asked voters in the territory one simple question: Should 
Puerto Rico be immediately admitted as a U.S. state?
    The results of that vote were 52 percent or 655,000 people 
voting in favor of statehood and 47 percent voting against it. 
Today, we have two bills on the agenda. The first, H.R. 1522, 
attempts to build upon the November 2020 election. If enacted, 
the Puerto Rico voters would need to ratify being admitted to 
the Union. If a majority of Puerto Ricans vote no, nothing 
would happen, and the bill would cease to be effective.
    The other bill before us today, H.R. 2070, seeks to 
establish a status convention, which would include Puerto Rican 
elected delegates who would define status options for Puerto 
Ricans to vote on. The status option chosen by voters would 
require ratification by Congress. Oddly, the sponsor is well 
intentioned to help Puerto Ricans, but it is unclear why 
electing delegates to lifetime terms, to define what status 
options are available, is necessary or accomplishes anything.
    Additionally, the delegates would have to put forward 
status options for the people of Puerto Rico to vote on. 
However, the bill does not specify how and if those choices 
will be narrowed before selection or if they need to be voted 
on or unanimous. In fact, the status convention could be 
stymied by the same internal disagreement that is playing out 
between the current Puerto Rican political parties.
    If the elections for the delegates are lopsided from one 
particular party, the other parties may disengage and 
eventually boycott the referendum, as has happened in the past.
    I believe that it is undemocratic that delegates elected 
under this provision could receive a lifetime appointment, 
which could result in an endless cycle of debate.
    Lastly, this bill raises significant concerns as the bill 
sponsor's intent is for the convention to consider statehood, 
independence, free association or ``any option other than the 
current territorial agreement.'' However, there are no other 
options outside of statehood, independence, or free 
association.
    If another option beyond these were selected, Congress 
would be in a position to potentially bring forward a status 
option that isn't attainable under the Constitution.
    While I have reservations about this bill, I look forward 
to hearing from the witnesses and continuing to engage in 
meaningful dialogue so Congress can make informed decisions. 
Thank you, Mr. Chairman, and I yield back.

    [The prepared statement of Mr. Westerman follows:]
    Prepared Statement of the Hon. Bruce Westerman, Ranking Member, 
                     Committee on Natural Resources
    Thank you, Chairman and thank you to the witnesses for being with 
us.
    With the many technical issues this Committee has experienced with 
virtual hearings this year and given that most of us are now 
vaccinated, I sincerely hope we can return to work in person soon.
    At the end of the Spanish American War in 1898, the United States 
acquired Puerto Rico along with several other Islands.
    It wasn't until 1917 that Congress, through the Jones Act, extended 
U.S. citizenship to those residing in Puerto Rico.
    In 1950, Puerto Rico gained authority over its internal governance 
and in 1952 its Constitution was ratified by the United States.
    After approval of the Puerto Rico Constitution, the Island formally 
became known as the ``Commonwealth of Puerto Rico.''
    At the time, this was a another major step for Puerto Rico but it 
did not resolve the relationship ambiguity with the United States, as 
some held that a ``commonwealth'' provided Puerto Rico a status that 
was beyond territory but less than a state.
    Recent Supreme Court decisions and enactment of PROMESA resulted in 
the legal determination that Puerto Rico is a U.S. territory.
    Puerto Rico has tried to gain consensus from its people on how to 
proceed on the status issue.
    On November 3, 2020, Puerto Rico held its sixth nonbinding status 
referendum that asked voters in the territory one simple question: 
``Should Puerto Rico be immediately admitted as a U.S. State?
    The results of the plebiscite were 52.52% (655,505) voting in favor 
of statehood and 47.48% (592,671) voting against it.
    Today we have two bills on the agenda.
    The first, H.R. 1522, attempts to build upon the November 2020 
plebiscite. If enacted, the Puerto Rico voters would need to ratify 
being admitted to the Union. If a majority of Puerto Ricans vote no, 
nothing would happen, and the bill would cease to be effective.
    The other bill before us today, H.R. 2070, seeks to establish a 
Status Convention, which would include Puerto Rican elected 
``delegates'' who would define status options for Puerto Ricans to vote 
on. The status option chosen by voters would require ratification by 
Congress.
    While I believe the sponsor is well intentioned to help Puerto 
Ricans, it is unclear why electing delegates to lifetime terms, to 
define what status options are available, is necessary or accomplishes 
anything.
    Additionally, the ``delegates'' would have to put forward status 
options for the people of Puerto Rico to vote on. However, the bill 
does not specify how and if those choices will be narrowed down before 
selection or if they need to be voted on or unanimous.
    In fact, the Status Convention could be stymied by the same 
internal disagreement that is playing out between the current Puerto 
Rican political parties.
    If the elections for the ``delegates'' are lopsided for one 
particular party, the other parties may disengage and eventually 
boycott the referendum as has happened in the past.
    I believe that it is undemocratic that delegates elected under this 
provision could receive a lifetime appointment, which could result in 
an endless cycle of debate.
    Lastly, this bill raises significant concerns as the bill sponsor's 
intent is for the Convention to consider statehood, independence, free 
association, or ``any option other than the current territorial 
agreement''.
    However, there are no ``other'' options outside of statehood, 
independence, or free association.
    If another option beyond these were selected, Congress would be in 
a position to potentially bring forward a status option that isn't 
obtainable under the Constitution.
    While I have reservations about this bill, I look forward to 
hearing from the witnesses and continuing to engage in meaningful 
dialogue so Congress can make informed decisions.
    Thank you, Chairman. I yield back.

                                 ______
                                 

    The Chairman. The Ranking Member yields, and the Chair now 
recognizes a sponsor of the legislation, Ms. Velazquez. You are 
recognized. The floor is yours.

  STATEMENT OF THE HON. NYDIA VELAZQUEZ, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Velazquez. Thank you, Mr. Chairman, and the Ranking 
Member for holding this very important hearing today. The topic 
at hand, the political status of Puerto Rico, is one of the 
most serious and consequential matters the Committee will 
consider.
    Over 100 years ago, the United States invaded Puerto Rico. 
Despite the fact that Puerto Ricans are U.S. citizens and 
certain advances like the adoption of Puerto Rico's own 
constitution, the reality is that Puerto Rico remains at the 
mercy of the Federal Government. While we may not agree on the 
outcome, there is widespread agreement that the present 
political status should change.
    Let me stress that any such process needs to be fair, 
inclusive, and democratic. That is the true nature of self-
determination. Some have tried to blur self-determination for 
Puerto Rico with an admission process for the island as the 
51st state. This is not only overly simplistic, but it is also 
wrong.
    The conversation should not be about a process. It should 
be about a process that respects the will of the people and not 
how to stack the deck toward a particular status option, much 
less using millions of dollars in public funds to skew the 
outcome. This is not the same conversation as the push for DC 
statehood.
    The history of the District of Columbia and the 
colonization of Puerto Rico are two very different realities, 
and we must consider that in this discussion. So, now Congress 
must take responsibility and enter into a serious dialogue with 
the Puerto Rican people.
    I am very grateful for this hearing and to hear the many 
perspectives of our distinguished witnesses. Much of the 
conversation about Puerto Rico status is understandably focused 
on the outcome, be that statehood, independence, free 
association, or any other political arrangement. But I would 
like to take a second to discuss the importance of a 
transparent and inclusive democratic process. As such, I am 
proud that my bill, the Puerto Rico Self-Determination Act, 
establishes a fair and inclusive process by giving the Puerto 
Rican people the opportunity to make their voices heard in two 
open elections.
    This bill recommends Puerto Rico's legislate the creation 
of an established convention whose delegates will be elected by 
Puerto Rican voters to develop a long-term solution for Puerto 
Rico's status. But most importantly, it will be drafted and 
ratified by and for Puerto Ricans. Unlike the bill being 
offered by my colleagues, the Self-Determination Act does not 
impose one option on the people of Puerto Rico. Instead, it 
allows for a thorough discussion about the implications of each 
of the status options and what transitional plans would look 
like.
    Puerto Ricans have never had the benefit of having any of 
this information up front. Congress should commit itself to 
following through on the self-determination process that Puerto 
Rican people may embark on. I am grateful that the Puerto Rico 
Self-Determination Act is being co-led by Representative 
Ocasio-Cortez and has 17 additional House co-sponsors and 
counting.
    This bill is also being led in the Senate by Senators Bob 
Menendez and Republican Senator Roger Wicker, along with their 
distinguished colleagues, Senators Sanders, Brown, Booker, 
Gillibrand, Warren, and Markey. This is a historic opportunity 
for the people of Puerto Rico, a moment to finally chart their 
own course. I am leading the chart on this bill so that we can 
once and for all address the question of Puerto Rico's 
political status in a manner that truly respects their will and 
aspirations.
    I look forward to today's hearing, and I once again thank 
the Chairman and the Ranking Member. Now is the time to act. 
And this is a step toward meaningful progress. Thank you and I 
yield back.
    The Chairman. The gentlelady yields back and thank you. 
Before I introduce our witnesses, just a commentary on the 
side. The sponsor of the legislation, Mr. Darren Soto--I will 
extend a courtesy when your time comes up in terms of 
questioning the witnesses or making a statement, extend the 
courtesy of some additional time insofar as, as a sponsor, we 
try to keep a balance as to both pieces of legislation, try to 
retain that.
    I didn't recognize you as a sponsor of the legislation. For 
that, I will extend a courtesy when your opportunity comes up. 
And thank you very much for your cooperation in making sure 
that we take the balance of Members speaking to both pieces of 
legislation.
    Before I introduce the witnesses, let me remind the 
witnesses that under our Committee Rules, we must limit their 
oral statements to 5 minutes but that their entire statement 
will appear in the hearing record.
    When you begin, the timer will begin. And it will turn 
orange when you have 1 minute remaining. I recommend that 
Members and witnesses join remotely to using stage view so they 
can pin the timer on their screen.
    After your testimony is complete, please remember to mute 
yourself to avoid any inadvertent background noise. I will also 
allow the entire panel to testify before questioning begins 
from the Members.
    The Chair notes that Senator Maria de Lourdes Santiago is 
participating with the assistance of an interpreter. To ensure 
that Members hear from the witnesses, I will allow some extra 
time for opening statements so that she can hear the 
translation. This practice is under the Chair's recognition, as 
described in Committee Rule 4(a). I would also note that 
Members are encouraged to ask all questions in English to the 
Senator so that we can avoid any complications in terms of the 
translation that will be required.
    With that, let me now turn to our first witness, the Hon. 
Pedro Pierluisi, Governor of Puerto Rico. We appreciate you 
very much, your attendance, Governor. And the floor is yours.

 STATEMENT OF THE HON. PEDRO R. PIERLUISI, GOVERNOR OF PUERTO 
                  RICO, SAN JUAN, PUERTO RICO

    Governor Pierluisi. Thank you, Chairman Grijalva, Ranking 
Member Gonzalez-Colon and members of the Committee.
    For years, Congress has entertained the idea of putting an 
end to the unresolved issue of Puerto Rico's political status, 
but has failed. Some reasons, or excuses if you will, have 
included that Congress should not interfere, that no option had 
a majority, or that Puerto Ricans needed consensus. And many 
Members of Congress have preferred to take no position on the 
future of Puerto Rico's status, hiding behind their support for 
self-determination.
    Things are different now. On November 3 of last year, the 
residents of Puerto Rico voted to resolve their status. The 
process was straightforward, an up-or-down, yes-or-no vote on 
statehood. It was a referendum much like any other territories 
had prior to becoming states. And the majority of the voters in 
Puerto Rico said yes to statehood. More Puerto Ricans voted for 
statehood than for any candidate running in that same election.
    So, today, here we are again to discuss Puerto Rico's 
political future. I contend that we should only be discussing 
how to enable the freely and democratically expressed will of 
the American citizens of Puerto Rico. They deserve an answer to 
their request for statehood.
    That is precisely what the Puerto Rico Statehood Admission 
Act does. As a self-executing legislation, the bill sets out 
the terms and conditions by which Puerto Rico could be admitted 
as a state, and presents a formal offer of statehood to the 
U.S. citizens of Puerto Rico who, in turn, are given the 
opportunity to accept or reject the admission in a final 
referendum.
    If the majority votes again in favor of equality, Puerto 
Rico will begin a transition to statehood. Let me be clear. 
This bill does not force or impose statehood on Puerto Rico. It 
only offers statehood and provides a proven mechanism and a 
legal means for it to happen.
    When statehood is granted, the U.S. citizens of Puerto Rico 
will have equal rights, equal responsibilities, and full 
representation in the U.S. Congress, and will be treated 
equally under all Federal laws, policies, and programs. Puerto 
Rico will also be able to participate in U.S. presidential 
elections to select the leaders that implement the laws that 
they live under.
    Perhaps most importantly, for the very first time, the 
world's greatest democracy will offer equality to the U.S. 
citizens of Puerto Rico, who have been unequal to their fellow 
Americans for well over a century.
    Unfortunately, we are also here today to discuss another 
bill which offers a convoluted process to deal with unknown 
status options or status options that Puerto Rico's voters have 
already rejected.
    Those who did not like the people's choice in the November 
plebiscite, many who for years had dared proponents of 
statehood to carry out an up-or-down vote on statehood, now 
choose to ignore the results, change the process, and change 
the questions--anything to avoid accepting the will of the 
people.
    H.R. 2070, ironically called the Puerto Rico Self-
Determination Act, is the farthest thing from self-
determination. It is the epitome of colonialism. It not only 
ignores the people's vote, but it also aims to tell Puerto 
Ricans what the process to express their will should be. That 
is not self-determination, that is an imposed determination. If 
you claim to favor self-determination, then you must support 
what Puerto Rico's voters freely determined. And that means 
admitting Puerto Rico as a state. You must take a stand on 
their choice.
    In the late 1860s, Members of Congress just like you, 
against great opposition, stood on the right side of history 
and granted all men the right to vote, including African-
Americans. In the early 1920s, Members of Congress just like 
you stood on the right side of history and granted women the 
right to vote. In 1964, Members of Congress just like you stood 
on the right side of history and voted to prohibit 
discrimination and segregation.
    Our nation still has much to do to become a more perfect 
Union and to live up to the democratic ideals that are based on 
equality for all.
    Now, the question I pose to you is: On which side of 
history will you stand? Will the position of this Committee, 
and of this Congress, be that American citizens who want full 
equality should be denied it? Will you tell the thousands of 
soldiers and veterans from Puerto Rico who have fought and died 
for those democratic ideals that they have not earned their 
right to be equal under the U.S. Constitution, that they must 
defend this country in war but cannot enjoy its democracy at 
home? Are you OK with telling their spouses, their children, 
and their widows and widowers that they do not deserve to vote 
for the president that sent them in harm's way?
    This is not about whether you support self-determination. 
This is about whether, as Members of Congress, you are willing 
to stand on the side of equality and respect the results of our 
vote. My people and I will never consent to inequality. 
Inequality is un-American. And we must all stand against it.
    That is why I stand in front of you today to speak for the 
American citizens of Puerto Rico who spoke with their vote. We 
deserve equality as American citizens, and we will not stop 
this fight until we achieve it.
    Thank you very much.

    [The prepared statement of Governor Pierluisi follows:]
 Prepared Statement of the Hon. Pedro R. Pierluisi, Governor of Puerto 
                                  Rico
                            i. introduction
    Chairman Grijalva, Acting Ranking Member Gonzalez-Colon, and 
Members of the Committee: Thank you for today's hearing on one of the 
most important and urgent matters facing the people of Puerto Rico, 
ending our colonial status. This topic is also of extreme importance to 
the United States. America has been a beacon of liberty and a champion 
for self-determination throughout the world for almost three centuries. 
There should be no room in the American family for colonialism, 
especially when on three occasions in the last decade, a clear majority 
of the U.S. citizens in Puerto Rico have exercised their right of self-
determination in favor of becoming a state of this Union.
    For years, Congress has entertained the idea of putting an end to 
the unresolved issue of Puerto Rico's political status but has failed. 
Some reasons, or excuses, if you will, have included that Congress 
should not interfere, that no option had a majority, or that Puerto 
Ricans needed consensus. And many Members of Congress have preferred to 
take no position on the future of Puerto Rico's status and to hide 
behind support for self-determination.
    The governing relationship between Puerto Rico and the United 
States has been the subject of extensive study and debate. What has 
emerged over the past self-determination exercises is an expression of 
the unmistakable desire of the residents of Puerto Rico to become a 
state.
    Things are different now. As you know, on November 3 of last year, 
the residents of Puerto Rico went to the polls and voted to resolve our 
status. The process was clear and straightforward. An up or down, yes 
or no, vote on statehood. It was a referendum much like many other 
territories had prior to becoming states. And the majority of the 
voters in Puerto Rico said yes to statehood. More Puerto Ricans voted 
for statehood than for any candidate running in that same election.
    So, we are here before this Committee again to discuss our 
political future. I contend that we should only be discussing how to 
enable the people's choice, the freely and democratically expressed 
will of the American citizens of Puerto Rico. We should be discussing 
how to best respond to their request for statehood.
    This is not the time for another protracted and convoluted process 
to debate the options. The voters have spoken clearly, and it is time 
for Congress to accept the results.
    After almost 125 years of colonial status as a U.S. territory, the 
American citizens of Puerto Rico favor equality in all respects with 
their fellow Americans in the 50 states and are ready to begin their 
own transition to statehood.
           ii. the right to vote as a fundamental human right
    This urgent issue comes before the Committee at a time when the 
United States is engaged in a great national debate over voting, the 
most important right we have to shape our political destiny. This 
hearing adds to that debate the fact that 21 years into the 21st 
century, in the United States, approximately 3.1 million U.S. 
citizens--the majority of whom are Hispanic and bilingual and, as such, 
ethnic and linguistic minorities within the United States--have no 
domestic legally recognized right to vote for their country's President 
and Vice President or any voting representation in the House or Senate. 
In Puerto Rico's case, this is not about the mechanism of voting but 
the denial of that right altogether.
    The right to vote, to participate in politics, and to shape the 
direction of the democracy we share and to which all Americans have a 
duty of loyalty and a responsibility to support are internationally 
recognized as fundamental human rights. These rights are among the most 
important human rights because, through them, citizens are able to hold 
their governments accountable and help shape government policies.
    These rights constitute an acknowledgment that people are entitled 
to be masters of their fate by participating directly in the decisions 
that fundamentally affect their lives. Securing and protecting these 
rights are the keystone for a system in which all other human rights 
are respected.
    I come before you today to express the will of the people of Puerto 
Rico, to demand that Congress move forward on the statehood admission 
process they support, and to end the era in which Puerto Rico has been 
an exception to America's legacy of supporting self-determination at 
home and overseas.
     iii. puerto rico's history as a territory of the united states
    Puerto Rico has been a territory of the United States since 1898, 
and we have waited longer than any other territory to finally and fully 
resolve our status within the Union. The Treaty of Paris, which 
formally ended the Spanish-American War, provided in its Article IX 
that ``[t]he civil rights and political status of the native 
inhabitants of the territories hereby ceded to the United States 
[including Puerto Rico] shall be determined by the Congress.''
    During the first 2 years after the end of the Hispanic-American 
war, the United States administered Puerto Rico as a military 
protectorate.
    In 1900, the U.S. Congress passed the Foraker Act, which replaced 
the military government with a civilian one, established a Governor and 
an Executive Council, a popularly elected legislature, a judicial 
system, and a non-voting delegate to Congress called ``Resident 
Commissioner,'' who remains to this day.
    In 1917, the United States conferred United States citizenship on 
all Puerto Ricans through the passage of the Jones-Shafroth Act. The 
Jones Act also replaced the Executive Council with a popularly elected 
Senate. The Governor, however, remained a U.S. Presidential 
appointment.
    Despite the unsettled nature of our own status over this period, 
Puerto Ricans have served, fought, and died for the cause of freedom 
and democracy in every military conflict since we became a territory 
and many with great distinction. But, at the national level, our 
Federal Government denies them the legally recognized right to vote for 
their Commander-in-Chief and has yet to give serious consideration to 
the process that will provide us with the right to voting 
representation in Congress and to participate in the future of our 
Nation.
    Although I served in this House for 8 years representing the 
largest single constituency among my colleagues, just as our Resident 
Commissioner Jenniffer Gonzalez does now, I had to stand by as they 
voted for legislation in the House that affected all Americans, 
including the American citizens in Puerto Rico. For many years, the 
reason we were given for the extension of our colonial status, was that 
the will of the people of Puerto Rico as to their status, was unclear. 
That is not the case today by any means.
    The process that begins today in this Committee must be definitive. 
The time for debate and study about what to do has passed. Now, in this 
Congress is time to end the denial of these fundamental political, 
civil, and human rights to the United States citizens living in Puerto 
Rico.
              iv. the puerto rico statehood admission act
    Puerto Ricans are deeply proud to be American citizens and have 
contributed to this Nation in countless ways since 1898. Yet, no 
territory of the United States has waited longer than Puerto Rico to 
bring an end to its colonial status.
    I ask you, both on behalf of your fellow Americans in Puerto Rico, 
and as a clear way to strengthen democracy for all Americans, to 
respond to the will of the people of Puerto Rico by approving 
legislation that will initiate the admission of Puerto Rico as a state.
    The only acceptable response to this clear expression of a desire 
for permanent status as a state of the Union is the enactment of H.R. 
1522, the Puerto Rico Statehood Admission Act, sponsored by Resident 
Commissioner Jenniffer Gonzalez-Colon and Congressman Darren Soto, and 
S. 780, as introduced in the Senate by Senator Martin Heinrich, and 
others.
    Under this legislation, Congress would set out the terms and 
conditions under which Puerto Rico would be admitted as a state and 
presents a formal offer of statehood to the U.S. citizens of Puerto 
Rico who, in turn, would be given the opportunity to accept or reject 
admission in a final referendum before admission is proclaimed.
    The Puerto Rico Statehood Admission Act is self-executing. If the 
majority votes (again) in favor of equality, the territory's days would 
be over, and Puerto Rico would begin a transition to statehood.
    Conversely, if a majority were to reject statehood, then the island 
would remain a territory with the option to pursue sovereignty, through 
nationhood, at any time in the future. Let me be clear--this bill does 
not force or impose statehood on Puerto Rico, it only offers statehood, 
as the majority wants it, and provides a proven mechanism and the legal 
means for it to finally happen.
    When statehood is granted, the U.S. citizens of Puerto Rico will 
have equal rights, equal responsibilities, and full representation in 
the U.S. Congress, which enacts the federal laws that affect their 
daily lives. Puerto Rico would also be able to participate in U.S. 
Presidential elections to select the federal executive that implements 
the laws they live under. Puerto Rico would be treated equally under 
all federal laws, policies, and programs.
    Perhaps most importantly, under this legislation, for the very 
first time, the world's oldest and greatest democracy would offer 
equality to citizens who have been unequal to their fellow Americans 
for well over a century.
    Constitutionally, there are only two status options available: 
statehood and nationhood. The former embodies the equality that Puerto 
Ricans have voted for now in three successive referenda. The latter, 
however, as its supporters try to label it, would be based on a 
relationship outside of the Territorial Clause and the U.S. 
Constitution. Effectively removing Puerto Rico from being a part of the 
United States and the eventual loss of our American citizenship. A 
third option, the current territorial status--unequal, colonial, and 
unworthy of the United States--given that those subject to it have 
petitioned their Government for its rejection in favor of full 
equality.
    When you consider this legislation, I ask you to think about how 
your own constituents would feel if their full rights as Americans were 
still in question after being a part of the United States for well over 
a century and after they voted three times in the past decade for 
statehood.
    How would they feel if the response from Congress was to set aside 
their expressions of self-determination by favoring competing 
legislation that has no real purpose but to delay (rather than to 
respect) the clear determination of your constituents to enjoy the full 
benefits of U.S. citizenship? While we live and work in the greatest 
democracy the world has ever known, there remains some work to be done 
to perfect our democracy, and the appropriate way to respond to the 
expressed and repeated desire of the voters of Puerto Rico is to begin 
the statehood admission process that they have voted for.
    Your support for the Puerto Rico Statehood Admission Act will 
reaffirm the most sacred principles upon which our system of government 
was founded and strengthen our democracy. It will also reaffirm to our 
allies and to those nations under the duress of governments that reject 
democracy that America lives up to the principles that it has fought to 
protect since its foundation.
 v. the puerto rico self-determination act does not confer additional 
   rights nor does it advance a resolution to the puerto rico status 
                                question
    Unfortunately, we are also here today to discuss another bill that 
offers a convoluted process to include unknown options or other routes 
that Puerto Rico's voters have already rejected. Those who did not like 
the people's choice in the November plebiscite, many who for years had 
dared proponents of statehood to carry out an up or down vote on 
statehood, now choose to ignore the results, change the process, and 
change the questions. Anything to avoid accepting the will of the 
people.
    H.R. 2070, ironically called the Puerto Rico Self Determination 
Act, is the farthest thing from self-determination. It is the epitome 
of colonialism. It not only ignores the people's vote, but it also aims 
to tell Puerto Ricans what the process to express our will should be. 
That is not self-determination; that is an imposed determination.
    While I respect those who advocate otherwise here today, I 
emphasize that the Puerto Rican people have made a clear, democratic 
choice for statehood, and there can be no doubt about where the 
American citizens of Puerto Rico stand. First, in 2012, a clear 
majority, over 54% of the voters, rejected Puerto Rico's current 
territorial status, and now a clear majority, almost 53%, have chosen 
statehood for Puerto Rico.
    In some instances in our history, Congress has moved territories 
toward statehood without a clear expression of the popular will of the 
citizens living in those territories, and some territories have been 
forced into statehood against the popular will. But when the popular 
will clearly has been expressed, it is Congress' responsibility to 
respond to that vote and to reject proposals that would perpetuate a 
colonial status in the guise of promoting yet another complicated and 
totally superfluous process of ``self-determination.''
    H.R. 2070 and S. 865, as introduced in the House and Senate by 
Representatives Velazquez, Ocasio-Cortez, and Senator Menendez, 
includes the utilization of a voting method that is unknown and that 
has never been used in Puerto Rico.
    Their proposed legislation is also non-binding, which means that 
even if we go through the complete set of convoluted processes included 
in their bill, Congress may or may not choose to approve the option 
chosen by voters.
    Even worse, their bill does not define any of the possible status 
options to be voted on or say how many could be presented to voters, 
leaving it up to a ``Status Convention.'' Let me be clear: However 
proponents of this alternative approach to label it, anything short of 
statehood is colonial and unequal. Within the Constitution, there is 
statehood, independence, and a territorial status that historically has 
been viewed as temporary. It is highly misleading that the sponsors of 
this legislation continue to hold open the possibility of Congress 
considering ``any option other than the current territorial 
arrangement,'' even though there are no other constitutionally valid 
alternatives to the territory status beyond statehood or nationhood.
    The Puerto Rico Self-Determination Act lacks a clear timeline for 
execution. It would be cruel to have our people, the constituents I 
represent, go through years of endless debates and back and forth 
engagements with Congress, only to be left out in the end with no 
response to their clear intention to move toward equality and 
statehood.
    Proponents of this bill argue that Puerto Rico's case is different 
from the U.S. citizens living in Washington, DC. That we have a 
different culture and a ``unique Caribbean heritage that existed long 
before it was forcibly seized by the United States.''
    By doing so, they seem to adopt the same reasoning used by racist 
and xenophobic Justices of the Supreme Court in the early 20th century 
that decided the infamous Insular Cases. These cases invented the 
concept of the ``unincorporated territory''--a territory of the United 
States not destined for statehood--in which only those constitutional 
protections extended to it by Congress and/or otherwise recognized as 
fundamental by the domestic courts apply in the territory.
    It is precisely this same school of thinking that brought the 
conditions--which can only be changed by Congress--which cemented 
Puerto Rico's second-class U.S. citizenship. That is the historical 
record. You cannot shy away from it. The Court went as far as stating 
that Puerto Rico was ``inhabited by alien races, differing from us in 
religion, customs, laws, and modes of thought, [the result of which] 
the administration of government and justice, according to Anglo-Saxon 
principles, may for a time be impossible.''
    Certainly, the American citizens of Puerto Rico are no less 
citizens of the United States than those living in the District of 
Columbia or, for that matter, than those living anywhere in the United 
States. As such, the U.S. citizens in Puerto Rico do not deserve any 
less protection from this Congress than our brothers and sisters from 
Washington DC.
    In fact, these principles, and the current colonial status, make no 
sense because Puerto Ricans, by virtue of their American citizenship, 
can simply come to the mainland and acquire the rights they are denied 
in Puerto Rico. Why should the rights of any American citizen be 
defined by location?
    Moreover, despite the offensive language in the Insular Cases, we 
must all agree that America is made up and strengthened by the grand 
and vast variety of cultures and customs of its people.
    Just visit the home states of the primary sponsors of the so-called 
``Self-Determination Act,'' and what do you see? People united by their 
love and devotion to the United States, that freely and actively 
celebrate their heritage they and their ancestors brought to this 
Nation, often under great sacrifice and duress. New York is like any 
American state; on any given day, you see people celebrating their 
heritage. The people of Puerto Rico voted for statehood because they 
realize that they have nothing to lose through statehood while gaining 
equality. Those who support any other approach would deny them the 
fundamental rights of our democracy.
    It is highly doubtful that the original framers of the U.S. 
Constitution ever envisioned or would have approved a system where 
territories are held in perpetuity while permanently denying any voting 
participation to their inhabitants. After all, these imperialistic 
views are precisely what the 13 colonies rebelled against.
    The differential treatment in voting rights between citizens of the 
50 states, the District of Columbia, and Puerto Rico lacks any 
objective or reasonable justification. A citizen is a citizen 
regardless of the citizen's place of residence within the territorial 
jurisdiction of his or her state.
vi. support for statehood has never been greater and the time to act is 
                                  now
    If you claim to favor self-determination, then you must support 
what Puerto Rico's voters freely determined, and that means admitting 
Puerto Rico as a state. You must take a stand and support their choice.
    I hear some say that we need to wait until we reach a 
``consensus.'' Those of us who want equality can never consent to 
discrimination and unequal treatment. There can never be consensus for 
second-class citizenship--the majority rules in our democratic system. 
And the majority of the American citizens residing in Puerto Rico want 
equality, which can only be conferred through statehood.
    We had the courage to hold an up or down vote on statehood, and the 
people voted affirmatively. Statehood received more votes than any 
candidate or political party in Puerto Rico (by more than 200,000 
votes, a substantial number). Statehood won in every single senatorial 
district and in 33 of 40 house districts. We must respect this sacred 
mandate and abide by the will of the people.
    We ask Congress to seek that same courage, to provide an answer, 
and to respect the will of the American citizens of Puerto Rico. The 
fight for equality is a matter of civil and human rights. A proposal 
for an entirely new process, which is not binding, with no clear 
options, with delegates elected in perpetuity, with no timelines for 
execution, because some did not like the results, shows a lack of 
respect to the people of Puerto Rico.
    I commend Congresswoman Jenniffer Gonzalez-Colon, Puerto Rico's 
sole representative in Congress, and Congressman Darren Soto, for 
introducing a status bill that actually represents and defends the will 
of the people.
    I urge this Honorable Committee to not turn its back on us and look 
the other way. The source of your power to rule over Puerto Rico stems 
from Article IV, Section 3 of the U.S. Constitution, which reads: 
``Congress shall have power to dispose of and make all needful rules 
and regulations respecting the territory or other property belonging to 
the United States . . .''

        ``Other . . . property'', ladies and gentlemen . . .

    Not long ago, a former state senator from Puerto Rico--who is not a 
statehood advocate--appeared before this Committee and read you that 
same Constitutional clause.
    We demand that you start treating us as equals and stop treating us 
as property. Contrary to what the Insular Cases and its new modern 
progeny in Congress believe, we do not belong to the United States. We 
are an integral and fundamental part of it.

    Inequality is un-American.

    And we must all stand against it.

    That is why I stand in front of you today to speak for the American 
citizens of Puerto Rico who spoke with their vote.

    We deserve equality as American citizens. And we will not stop this 
fight until we achieve it.

    Thank you.
                                 ______
                                 

    The Chairman. Thank you very much, Governor. The Chair now 
recognizes Ms. Johanne Velez-Garcia, Vice President of the 
Puerto Rico Democratic Party. Ms. Velez-Garcia, the time is 
yours.

STATEMENT OF JOHANNE VELEZ-GARCIA, VICE PRESIDENT, PUERTO RICO 
            DEMOCRATIC PARTY, SAN JUAN, PUERTO RICO

    Ms. Velez-Garcia. Thank you, Mr. Chairman, Commissioner, 
and distinguished Members. I have devoted my life to advocacy 
for equality for more than 25 years, primarily women's and 
LGBTQ rights. After going to New York to marry, my wife and I 
joined others in a Federal suit to end Puerto Rico's 
discriminatory same-sex marriage ban. In 2017, I was appointed 
President of the first Governor's Advisory Council on LGBTQ 
Affairs in the territory and first elected Democratic Party 
Vice Chair.
    Puerto Rico's unequal status, denying equality to more than 
3.2 million Americans, is the biggest contradiction to the U.S. 
status as a democracy.
    Testifying in this first panel before you today are four 
American citizens, of which two are your equals and two are 
not. The Governor of Puerto Rico and myself, like our fellow 
Puerto Rican residents in the island, are second-class citizens 
since we do not live in a state, whereas the other two 
panelists who live in the mainland have their full-fledged U.S. 
citizen rights. The shameful colonial status under which the 
residents of the island are not recognized as equals must end.
    H.R. 1522 by Representative Soto would honor the majority 
self-determination choice of Puerto Ricans for equality within 
the nation. It follows free and fair votes in 2012 and 2017 on 
all of the possible options that chose statehood. Because 
boycotts urged by the opponents who knew they would lose 
diminished the number of votes, our elected representatives got 
a simple vote in 2020 on statehood, as had been held in other 
territories.
    The various opponents thought that together they could win 
and stage a big campaign. Virtually as many people voted as 
voted for any local office, a greater percentage than in the 
statehood votes of many territories. And statehood won by an 
unequivocal margin. Now, minority opponents want you to ignore 
the purest possible form of self-determination, a democratic 
choice in a process determined by elected representatives.
    H.R. 2070 tries to pressure the territory into conducting a 
process that our elected government has declined to adopt and 
has no purpose other than a desperate attempt to embarrass the 
United States into accepting a status proposal that successive 
congressional committees and administrations of both national 
parties have said is impossible for constitutional and other 
reasons.
    Accepting the results of an election in 2020 was a national 
issue. Democrats, and I trust most Republicans, accept fair 
votes. The 2016 PROMESA law, which originated in this 
Committee, recognized that, ``Puerto Rico's right to determine 
its future political status,'' among the possible options by 
its own method of choice. All should now respect Puerto Rico's 
self-determination.
    H.R. 2070 invites status proposals that are not possible 
under the Constitution and the basic policies of the United 
States. The primary authors call these ``any other non-
territorial status'' in addition to statehood and the 
nationhood options. Such ``commonwealth status'' proposals are 
the exact reason that the issue of Puerto Rico's status has not 
been resolved and that Puerto Rico remains a colonial 
territory.
    H.R. 2070 would authorize certain Members of Congress to 
tell Puerto Ricans what their culture and language should be. 
It would be outrageous if the entire U.S. Government tried. It 
couldn't constitutionally in a state or practically in a 
nation.
    H.R. 2070 absurdly proposes to force the full Congress to 
vote on changes in a wide range of Federal laws proposed by 
Puerto Rico without consideration by committees of jurisdiction 
or amendment and only minimal debate. This alone should be 
enough to show it for what it is, a ruse to prevent democracy, 
equality, and self-determination for Puerto Ricans. Thank you 
for inviting me to testify for you today.

    [The prepared statement of Ms. Velez-Garcia follows:]
Prepared Statement of Ms. Johanne Velez-Garcia, Vice Chair, Democratic 
                          Party of Puerto Rico
    I am pleased to today to join the Governor of Puerto Rico and so 
many distinguished witnesses today to discuss my views on the two 
pending bills today before the House Natural Resources Committee on 
Puerto Rico's political status.
    For over 25 years now, I have been an advocate for equality. My 
activism has primarily addressed women's and LGBTQ rights. In 2014, 2 
years after getting married in New York City, my wife and I joined five 
other couples in a federal court suit to end the discriminatory 
marriage ban for same-sex couples in Puerto Rico. In 2016, halfway 
through a tough at-large primary, I realized I had become the first 
openly lesbian woman to run for an elected position in Puerto Rico. And 
although I did not prevail in that run, history has its interesting 
turn of events, and in 2017, became the president of the first ever 
Governor's Advisory Council on LGBTQ Affairs in Puerto Rico and Vice 
Chair of the Democratic Party of Puerto Rico. So, you see, the defense 
of equality is activism, advocacy, public policy, legislation, and more 
than anything, a commitment to further the full rights of every person 
in our democracy.
    Testifying in this first panel before you today, are four American 
citizens of which two are your equals, and two are not. The Governor of 
Puerto Rico, and myself, like our fellow Puerto Ricans in the island, 
are second-class citizens since we do not live in a State. Whereas the 
other two panelists who live in the mainland have their full-fledged 
U.S. citizens' rights. The shameful colonial status under which the 
residents of the island are not recognized as equals, must end.
    During the last few months, the need to resolve Puerto Rico's 
unequal and undemocratic status as a territory has gotten increased 
attention with the introduction of Puerto Rico Statehood Admission Act 
and the Puerto Rico Self-Determination Act. Given the many ways that 
Puerto Rico's territory has become unsustainable for both the island 
residents and the Federal Government, all efforts to end the 
dysfunctional territorial status are worth considering.
    The first bill sponsored by Congressman Darren Soto (H.R. 1522) is 
based on a response to several referendums in which Puerto Rican voters 
went to the polls to express their views on the preferred political 
status. This bill is straightforward, and it clearly defines the terms 
for Puerto Rico to become a state. The Soto bill offers the island a 
federal sanctioned Yes or No vote on statehood and if a majority chose 
``YES'' then Puerto Rico becomes a state after a brief transition, 
without the need for further congressional action. If voters chose 
``NO'' then the island remains a territory and can then choose to 
pursue independence or sovereignty with free association at any point 
in the future.
    I think it is important for the members of the Committee to 
understand how we got to this point and real reasons we are discussing 
two bills today. In 2012, 2017 and 2020, Puerto Rico voters supported 
statehood over the other status options. In the 2012 and 2017 
referendums, the supporters of Commonwealth and Independence protested 
the structure of the ballot and opposed how these options were defined. 
These two plebiscites were based on the status options approved by 
various congressional committees and successive Administrations of both 
parties which said were valid Constitutional options. The anti-
statehood parties urged their supporters to boycott the referendum 
since they could not define their preferred options anyway they wanted. 
But as Congressman Soto said after the 2017 plebiscite, choosing to 
boycott a vote on Puerto Rico's political status is a choice in itself.
    In 2020, this was not the case. Due to largely to the complaints of 
the anti-statehood parties of the previous two plebiscites, the 
Governor and Legislature of Puerto Rico decided to offer the voters of 
Puerto Rico a clear and simple choice, ``Statehood Yes or No.'' 
Virtually as many people voted in the plebiscite as voted for any local 
office. Many of the political leaders of Puerto Rico might disagree how 
to define Commonwealth or the current territorial status but generally 
everyone agrees what Statehood for Puerto Rico means. The Statehood Yes 
or No referendum was also based on similar votes that dozens previous 
territories held in petitioning Congress for statehood. The 
participation percentage on this vote was greater than similar votes in 
many territories.
    Unlike the 2012 and 2017 referendums, the anti-statehood parties 
did not boycott the 2020 referendum. They officially registered in 
Puerto Rico to represent the ``No'' option. The Commonwealth and 
Independence parties as well as other anti-statehood parties actively 
campaigned and urged their supporters to vote No. Congresswoman 
Velazquez who is the main sponsor of the other bill which I will soon 
discuss came to Puerto Rico and urged voters to reject statehood.
    Despite a well-run and well-funded campaign by the opposition, 
Statehood won nearly 53% of the vote. The statehood option received a 
greater percentage of the vote than even our distinguished Governor and 
Resident Commissioner who are with us today. For the third consecutive 
time, the voters clearly chose statehood as the preferred status 
option.
    Let us spend a few minutes talking about why I believe statehood 
won again last year. A clear majority of people in Puerto Rico 
understand that the current Commonwealth territorial status has failed 
us. Our economy has been in decline or stagnant for decades. The only 
way we have been able to provide basic services to its people is by 
selling bonds to investors on Wall Street. In 2016, it finally became 
apparent Puerto Rico was borrowing well-beyond its means and Congress 
had to pass a new law creating a federal control board of oversee 
Puerto Rico's finance. The following year, Puerto Rico was devastated 
by Hurricane Maria and the federal response led by the Trump 
Administration left a lot to be desired to say the least. Even before 
the fiscal crisis and Hurricane Maria, the trend was for hundreds of 
thousands of Puerto Ricans to leave the island and move to the mainland 
United States. Obviously, most of the people leaving the island support 
Statehood since they voted for Statehood, as we say in Puerto Rico, 
with their feet. With the all the people moving the mainland United 
States, it is amazing to me that Statehood still won by such a clear 
majority.
    So why did statehood did win again last year. The people of Puerto 
Rico know that the current political status no longer works for them. 
In order for our economy to grow, we need a permanent political status. 
We will never see real economic growth and stability if we have come to 
Congress each year asking for more federal benefits such as help for 
our almost bankrupt Medicaid system. We cannot depend on Congress 
creating tax incentives, which often change, to encourage big U.S. 
corporations to set up a plant on the island and provide a few hundred 
jobs. A majority of Puerto Ricans know that the only hope to rebuild 
our economy is become fully part of the United States through 
statehood. Only through statehood will we have full equality as 
Americans and sending Senators and Congresspersons to Washington will 
have a chance to make sure our people to fully benefit as American 
citizens.
    So how should the Democratic Party and its elected representatives 
respond to the people of Puerto Rico clearly choosing statehood once 
again. All the recent Democratic party platforms have clearly stated it 
is up to Puerto Rico to choose its own political status and once the 
voters choose a preferred status the Congress should respond 
accordingly. President Biden said during the campaign that he prefers 
statehood for Puerto Rico and, if voters choose this option, Congress 
should respond by granting Puerto Rico their preferred status option. 
When he gave John Lewis's eulogy last year, former President Obama said 
only statehood would give Puerto Rico have full equality. Senate 
Majority Leader Schumer said last year, ``if Puerto Rico chooses 
statehood, I would be glad to offer it.''
    How can the Democrats in Congress and on this Committee ignore the 
will of the people of Puerto Rico? All throughout this country, we as 
Democrats, are fighting the efforts of former President Trump and his 
GOP allies to pass new voter suppression bills. I am sure every 
Democrat on this Committee opposes the new Georgia law and other 
efforts in Texas and other states to pass new state laws making it 
harder to vote. Would not ignoring the recent referendum vote in Puerto 
Rico be another form of voter suppression? All Democrats opposed 
President Trump's efforts after the 2020 election when he claimed there 
was widespread voter fraud and he tried to overturn a legitimate 
election. No one is claiming there was voter fraud in the 2020 
referendum vote. Just like Trump did after the November vote, the 
opponents of statehood just cannot accept they lost so they just ask 
you to ignore that Statehood won. There can no purer self-determination 
process than the people voting on questions posed by their elected 
representatives.
    As I see it, the Soto bill is response to the people of Puerto Rico 
choosing its preferred status in fair and legitimate election. As it 
has in the past when other territories petitioned for statehood, 
Congress would establish a formal process to consider statehood for 
Puerto Rico. If Puerto Rico again chooses statehood for the 4th time, 
this bill would set a process in which the President, executive branch 
and Congress would change the relevant U.S. laws and regulations so the 
island would be treated fully and equally as the other 50 states. This 
bill is an appropriate and equitable response the people choosing 
statehood and respecting long held traditions of the Democratic Party.
    I would like to spend the rest of my time today addressing the 
details of the other bill before the Committee today. This legislation 
is sponsored by Congresswoman Nydia Velazquez and known as the Puerto 
Rico Self-Determination Act. This bill creates such an unprecedented 
process that it is so complicated and ambiguous it does not even say 
how many status options should be considered, what their definitions 
will be, or when voters will have a chance to vote on them. Despite its 
title, this bill has little or nothing to deal with true self-
determination. If you carefully read the bill and understand the full 
meaning of many of its key provisions, it is a pro status quo bill, a 
pro territorial option bill and an anti-statehood bill.
    This bill would ignore the free and fair votes of Puerto Ricans, 
upheld by the Federal Court as well as the insular Supreme Court. It 
attempts to pressure the territory into conducting a status process 
that the Government of Puerto Rico has declined to adopt for decades. 
While the bill recognizes the inherent authority of the Puerto Rico 
legislature to call for a status convention, it specifically ignores 
that Puerto Rico has already legislated three laws and carried out 
three plebiscites over the last 10 years. Specifically, it ignores that 
these votes have shown, with increasing clarity, that a majority in 
Puerto Rico rejects the current territory status and favors statehood 
for its future.
    As we did after the 2020 election all across the country, Democrats 
respect democratic election results and should respect Puerto Rico's 
decision on how to exercise its own self-determination.
    The Velazquez bill would include status proposals that are not 
possible which prolong the current territorial status that the voters 
of Puerto Rico have already rejected three consecutive times. This bill 
claims that the status options which should be considered are 
statehood, independence, free association, and ``any other non-
territorial status''. This committee and every Administration has 
always made it clear that other than the current territorial status 
there are only three real options: statehood, independence and free 
association.
    This bill also calls for amending many Federal laws as unilaterally 
drafted by a convention in Puerto Rico without the committees of 
jurisdiction of either House in Congress being able make any changes. 
How can this committee consider this bill which basically grants its 
authority to a convention of elected representatives on the island? 
Will the House Ways and Means Committee allow this Convention to 
rewrite all the tax laws to the island? The bill requires both the 
Senate and House to vote up or down on whatever this Convention decides 
without the right to make any changes. Why would any Congress seriously 
consider any bill which limits its own authority and granting its power 
to a territory decide what status option it prefers without any real 
opportunity to review the decision.
    Another difference in these bills is timeline. The Statehood bill 
sets out a flexible yet structured timeline that would allow voters in 
Puerto Rico to choose in a matter of months and see the results 
implemented in a few months thereafter. On the other hand, the so-call 
``Self-Determination'' bill has no start or end date for the status 
convention. It does not say when Puerto Rican residents will be allowed 
to vote on the options and even if Congress ratifies the final choice 
by voters, it does not indicate how long any transition out of the 
territory status would take. So as one prominent bill supporter said, 
``the Velazquez and Ocasio-Cortez legislation would start a process 
that could take years.''
    To prove to how biased this bill is against statehood it also calls 
for a congressional commission to make recommendations to Puerto Rico 
on its culture, language and other matters as a State or Nation. As we 
all know, the language or culture of a territory or state is not within 
the jurisdiction of the U.S. Government under the Constitution or 
international law. So why did the sponsors of this bill add this 
provision? It was simply included to scare the voters of the island 
that they could lose their identity as Puerto Ricans if they chose 
statehood.
    The main premise of the bill is that the people of Puerto Rico 
should hold a status Convention of elected representatives who would 
serve indefinitely without ever having to run for re-election. If you 
understand anything about Puerto Rico politics and the disagreements of 
over political status, this Convention proposal is just simply 
ridiculous. As we saw during the 2012 and 2017 referendums, the 
political parties will never be able to come to an agreement on how to 
define the current political status. What would a Status Convention 
achieve? The clear answer is absolutely nothing. The Convention concept 
proposed sounds good in theory but is just a way to block statehood and 
protect the same territorial status that the voters have already 
rejected.
    So, you might ask yourself, why cannot the political parties in 
Puerto Rico agree on the real status options. Despite numerous Supreme 
Court cases, some prominent leaders in the Commonwealth party do not 
even believe Puerto Rico is a territory. Some Free Association and 
Independence leaders claim Puerto Rico could become its own nation, but 
every Puerto Rican can keep their U.S. citizenship. Under the U.S. 
Constitution, only Congress under the territorial clause gets to decide 
these fundamental issues. These political fights and disagreements on 
status issues have been going on in Puerto Rico for over 50 years since 
we have our first status referendum in 1967. So, what could possibly be 
achieved by requiring us to hold status convention? Absolutely nothing.
    I urge the members of this Committee to review both bills carefully 
and understand the true meaning of each bill and what process these 
proposed laws would establish. The Soto bill is a true response to the 
most recent referendum in which the voters of Puerto Rico clearly chose 
statehood. This bill respects the jurisdiction of congressional 
committees, the previous bipartisan bills approved by this committee, 
and long traditions of the Democratic Party to support voting rights 
and the will of the majority of voters in a territory or state. The 
Velazquez bill does the complete opposite, and creates an unfair 
process that Congress has never imposed on any territory petitioning 
for statehood.
    While there could still be room for improvement in the Statehood 
Admissions Act, the flaws in the Self Determination bill are numerous 
and self-evident. If Members of Congress are serious about ending 
Puerto Rico's outdated colonial territory status, they must listen to 
what the majority of the islands voters already said, and make the most 
logical and effective choice to support and approve the Puerto Rico 
Statehood Admissions Act.
    The 3.1 million Puerto Ricans living on the island are proud 
Americans. Polls show that over 90% of the people in Puerto Rico 
cherish their U.S. citizenship. Please consider legislation which only 
respects us as full Americans and our right to true self determination. 
I passionately believe that if Congress approves the Soto bill and 
offers Puerto Rico a real path to statehood it would be overwhelmingly 
approved by the voters of Puerto Rico. Thank you for allowing me to 
testify today and offering my own views on the most important issue 
facing the people of Puerto Rico.

                                 ______
                                 

    The Chairman. Thank you very much. The Chair now recognizes 
Mr. Jose Fuentes, Chair of the Puerto Rico Statehood Council. 
The time is yours.

    STATEMENT OF JOSE FUENTES AGOSTINI, CHAIR, PUERTO RICO 
               STATEHOOD COUNCIL, WASHINGTON, DC

    Mr. Fuentes. Thank you, Chairman Grijalva, Ranking Member 
Westerman and distinguished members of this Committee. I am 
honored to appear before you as former Attorney General of 
Puerto Rico and Chairman of the Puerto Rico Statehood Council.
    I speak today in support of the Puerto Rico Statehood 
Admission Act, which proposes a constitutionally sound process 
respecting the will of the majority of voters in Puerto Rico. I 
last testified in Congress on this issue 23 years ago after 
this House passed bipartisan legislation sponsored by 
Congressman Don Young to hold a plebiscite in Puerto Rico 
offering voters the only options available to them under the 
U.S. Constitution. That is statehood, independence with free 
association, or remaining a U.S. territory. Speaker Newt 
Gingrich led House consideration of the bill, which died in the 
Senate, but kicked off over two decades of bipartisan progress 
toward a more complete American democracy and Puerto Rican 
statehood.
    After the U.S. Senate failed to act on the Young bill in 
December 1998, Puerto Rico held a plebiscite presenting all the 
constitutionally viable alternatives. The Puerto Rican 
electorate rejected the current territorial status and all the 
constitutional options. That prompted President Bill Clinton to 
establish the President's Task Force on Puerto Rico status to 
clarify both the status options available for Puerto Rico and 
the process to realize these options.
    President George W. Bush continued this initiative and 
consulted extensively with stakeholders. In December 2005, the 
Task Force published a report outlining a process to resolve 
Puerto Rico's ultimate status. It was the most complete 
analysis of the status issue under any president. Its findings 
remain relevant today, calling for a two-step self-
determination process authorized by Congress.
    First, Puerto Rico's voters would be asked whether they 
wish to remain a territory. If voters elected to remain a 
territory, then they should be asked the same question 
periodically to ensure continued consent of the governed, 
something we clearly do not have today. However, if voters 
opted to change, the report called for another plebiscite to 
choose between the only permanent non-territorial options, 
statehood, independence, or free association.
    These options are the only viable alternatives to territory 
status under the U.S. Constitution, period, full stop. There is 
nothing else. This has been confirmed by the Supreme Court, 
Department of Justice, this Congress, and every White House 
since Ronald Reagan, a staunch supporter of statehood for 
Puerto Rico.
    So, what's the use of a status convention? There is nothing 
new under the U.S. Constitution. In 2010, under the leadership 
of then-Resident Commissioner Pedro Pierluisi, this House again 
passed the bill that implemented the 2005 President Bush Task 
Force report recommendations. The U.S. Senate again failed to 
act, but Republican Governor Luis Fortuno signed legislation 
approving the two-part plebiscite in 2012 with 78 percent 
participation. Fifty-four percent of voters rejected continuing 
under the current territorial relationship, and 61 percent 
voted for statehood. In 2017, Puerto Rico held another 
plebiscite under local law, this time between territory, 
statehood, and independence in its two forms. But when polls 
showed statehood leading, opponents boycotted. So, even though 
statehood received 97 percent support, turnout was not high.
    To remove any remaining doubts, in 2020, Puerto Rico 
legislated a simple statehood yes-or-no vote, just as Alaska 
and Hawaii did 70 years ago. With 73 percent of affected voters 
participating, statehood won by a clear majority of 52\1/2\ 
percent and garnered more votes than any candidate on the 
ballot, clearly cutting across local party lines. Yet, here we 
are today, after 123 years under U.S. rule, six commissions, 
three Presidential Task Force reports, 65 hearings, over 100 
failed bills and 18 definitions of ``commonwealth'' with no 
change.
    H.R. 2070 would cause further delay, disempower voters, and 
put future status in the hands of local political party elites 
by imposing a Federal mandate for a local status convention to 
recycle impossible options when people know what the options 
are, and statehood has won in three separate plebiscites.
    Puerto Rico has self-determined you should pass H.R. 1522 
as soon as possible. Thank you very much.

    [The prepared statement of Mr. Fuentes follows:]
   Prepared Statement of Hon. Jose Fuentes Agostini, Former Attorney 
 General of Puerto Rico & Chairman of the Puerto Rico Statehood Council
    Chairman Grijalva, Ranking Member Westerman, and distinguished 
members of the Committee, I am honored to appear before you today to 
discuss the ``Puerto Rico Statehood Admission Act'' (H.R. 1522) and the 
``Puerto Rico Self-Determination Act of 2021'' (H.R. 2070).
    The last time I testified before Congress on the issue of Puerto 
Rico self-determination--in 1998--I urged Congress to acknowledge 
Puerto Rico's status as a U.S. territory, and I sought congressional 
leadership to confirm constitutional parameters on alternatives for 
Puerto Rico's future status.
    Almost 25 years later, it is now well established that Puerto Rico 
is indeed a U.S. territory, and it is further recognized that this 
colonial relationship is no longer acceptable. The question for 
consideration by the Committee today is what should Congress do next 
and how to get there.
    With respect to the two proposals before the Committee, only H.R. 
1522 represents true self-determination. The bill respects the voices 
of the U.S. citizens of Puerto Rico and recognizes Puerto Rico's 
history of local plebiscite votes. The measure provides a Democratic 
process to resolve the issue of Puerto Rico's status with a clear, up-
or-down ratification vote on an option with 50 precedents: statehood.
    On the other hand, H.R. 2070 seeks to create a federally imposed 
structure that ignores Puerto Rican votes, Puerto Rican history and 
Puerto Rican voices. The bill proposes a new process with no 
accountability and no end date. H.R. 2070 provides no explicit guidance 
on constitutional parameters and creates a new federal commission. The 
proposal is not true self-determination, and it is not a solution to 
the legal, political and moral problem we are discussing today.
                        i. history & background
The ``United States-Puerto Rico Political Status Act'' & the 1998 
        Plebiscite
    In 1998, under the leadership of Speaker Newt Gingrich (R-GA), the 
House of Representatives passed the ``United States-Puerto Rico 
Political Status Act,'' H.R. 856, led by Rep. Don Young (R-AK). That 
bill called for a local referendum in Puerto Rico in which voters could 
choose from among three ballot options: (1) statehood, (2) independence 
or free association, or (3) remain a U.S. territory. The bill passed by 
a bipartisan vote of 209 to 208 but died in the Senate.
    In the face of congressional inaction, later that year, Puerto Rico 
Governor Pedro Rossello (D) proceeded to hold a local plebiscite vote 
in Puerto Rico with five options on the ballot: (1) statehood, (2) 
independence, (3) free association, (4) continued territory status, or 
(5) none of the above.
    Statehood was the clear winner among the four defined options with 
46.5% of the vote, followed by independence (2.5%), free association 
(.1%) and the current territorial status (.06%). Yet just over half of 
all voters (50.3%) chose none of the above.
    Given four constitutionally valid options, a slight majority of 
Puerto Rican voters held out hope for something different which they 
were being told locally was possible.
    What they were looking for was known at the time as ``Enhanced 
Commonwealth,'' an unconstitutional mixture of sovereignty and federal 
entitlements. This make-believe status, which former Rep. Jose Serrano 
(D-NY) called ``a letter to Santa Claus,'' requires the U.S. Congress 
to cede power to Puerto Rico in a permanent agreement and makes 
accessible a package of federal benefits to Puerto Ricans that go well 
beyond the rights and responsibilities of any other U.S. citizen.

    The 1998 ``Enhanced Commonwealth'' platform as ratified by the 
Commonwealth (PDP) Party of Puerto Rico can be found at the conclusion 
of this testimony along with a related explanatory graphic as published 
by the San Juan Star.

    For additional background, please see attached list of 
``Commonwealth'' proposals debated in Puerto Rico from 1952 to 1998 and 
a Congressional Research Service (CRS) history of ``Commonwealth'' 
ballot options from 1967-1998. The CRS footnotes document the changing 
definitions of ``Commonwealth,'' often with constitutional 
implications.
President's Task Force on Puerto Rico's Political Status
    In 2000, in response to the ``none of the above'' vote in the 1998 
plebiscite, President Bill Clinton issued Executive Order 13183, 
establishing the President's Task Force on Puerto Rico's Status. The 
purpose of the Task Force was to ``clarify both the status options 
available to Puerto Rico and the process by which those options can be 
realized.''
    President George W. Bush continued the initiative, consulted 
extensively with stakeholders, and in December 2005 published the first 
President's Task Force on Puerto Rico's Status report, an authoritative 
study containing an analysis of the constitutionally viable status 
options and a proposed process to resolve Puerto Rico's ultimate 
status.
    The report recommended a two-step plebiscite. First, a vote would 
ask Puerto Rico's electorate ``whether they wish to remain a U.S. 
territory.'' If voters chose to remain a territory, then this question 
would be presented periodically to voters to ensure continued ``consent 
of the governed.''
    If voters decided they wanted change, the report called for another 
plebiscite to enable voters to choose between statehood or 
independence.
    In 2007, the Bush administration issued a second report of the 
President's Task Force on Puerto Rico's Status, confirming the previous 
report's findings and reinforcing its recommendations.

    President Obama released the most recent report of the President's 
Task Force on Puerto Rico's Status in 2011. That report was consistent 
with the two previous reports in expressing a ``marginal preference'' 
for a two-plebiscite system. Recognizing the ongoing definitional 
dispute over status options, the report also clarified:

        ``[C]onsistent with the legal conclusions reached by prior Task 
        Force reports, one aspect of some proposals for enhanced 
        Commonwealth remains constitutionally problematic--proposals 
        that would establish a relationship between Puerto Rico and the 
        Federal Government that could not be altered except by mutual 
        consent. This was a focus of past Task Force reports. The Obama 
        administration has taken a fresh look at the issue of such 
        mutual consent provisions, and it has concluded that such 
        provisions would not be enforceable because a future Congress 
        could choose to alter that relationship unilaterally.''

The ``Puerto Rico Democracy Act of 2010'' & the 2012 Plebiscite
    In 2010, the House of Representatives passed the ``Puerto Rico 
Democracy Act,'' H.R. 2499 under the leadership of then Resident 
Commissioner Pedro Pierluisi (D-PR) by a bipartisan vote (223-169). 
Unfortunately, the legislation, which was modeled on the two-part 
structure endorsed by the Bush and Obama Task Force reports, again 
failed to advance in the Senate.
    To continue making progress on the issue, in 2012, Puerto Rico 
Governor Luis Fortuno (R) proceeded to hold a vote on a two-part 
plebiscite based on the Bush Task Force recommendation. The first 
question asked voters whether or not they ``agree to maintain the 
current territorial political condition'' of Puerto Rico. The second 
question instructed voters to select--irrespective of their answer to 
the first question--their preference from among three non-territorial 
status options: (1) statehood, (2) independence, or (3) free 
association.
    The plebiscite results indicated that nearly 54% of voters (53.97%) 
rejected Puerto Rico's territorial status and that among those who 
selected a non-territorial option in the second question, a majority 
(61.16%) preferred statehood over sovereign free association (33.34%) 
and independence (5.49%).
    Support for ending the current territorial status and progress 
toward statehood were clear despite sources of ambiguity in the 
plebiscite that possibly dampened support for statehood. For example, 
free association was simply described as a ``voluntary political 
association, whose specific terms would be agreed between the United 
States and Puerto Rico as sovereign nations.''
    In the three current U.S. free association relationships (Republic 
of the Marshall Islands, Palau and Federated States of Micronesia), 
nationals do not have U.S. citizenship or any representation in 
Congress. The U.S. has sovereignty in free association relationships 
over the other nation's defense and national security, and freely 
associated nations do not qualify for Medicaid or almost all other 
federal programs currently available in Puerto Rico. Given the vague 
``free association'' definition on the ballot, it is unclear whether 
voters fully understood the limits of free association.
PDP Proposes and then Rejects a Status Convention
    As part of the pro-Commonwealth Party (PDP) platform that Governor 
Alejandro Garcia Padilla (D) used to get elected in 2012, his party 
proposed a ``status convention'' as the mechanism that they would use 
to help resolve Puerto Rico's political status. The PDP had also 
included this proposal in their previous general election party 
platform in 2008. However, even though the PDP party controlled the 
Governorship and both chambers of Puerto Rico's legislature during the 
2013-2016 term, once in office the PDP led government did not act 
toward that end. Specifically, in 2013 prominent PDP members of the 
House and Senate proposed legislation to hold a referendum to ask the 
electorate whether or not the legislature should to convene a status 
convention (P.C. 210 & P.S. 694), and another bill to set up the 
convention and elect its delegates (P.C. 1334 & P.S. 693). Ultimately, 
Gov. Garcia Padilla and the top PDP leadership in the legislature did 
not support that effort. Having had the inherent authority as well as 
the legislative majority necessary to enact what H.R. 2070 proposes, 
the Puerto Rican legislature rejected that course of action.
The $2.5 million DOJ Appropriation & the 2017 Plebiscite
    In 2014, under the leadership of Rep. Serrano (D-NY), Congress 
legislated an appropriation of $2.5 million for a plebiscite on 
``options that would resolve Puerto Rico's future political status'' 
premised on the approval of ballot definitions by the U.S. Department 
of Justice (DOJ).
    In response, Gov. Garcia Padilla promised to use the funds to hold 
a ``fair process.'' Yet after repeated unsuccessful attempts to 
convince the DOJ to approve a ballot that included an ``Enhanced 
Commonwealth'' option, in August 2014 Gov. Garcia Padilla withdrew his 
proposal and the PDP attempted to reach an internal consensus on a new 
``Enhanced Commonwealth'' definition. After a year of internal debate, 
they disbanded the effort.
    Having run and won on a platform of resolving the political status 
issue and advancing the statehood cause, in 2017 incoming Governor 
Ricardo Rossello (D) passed legislation and presented a proposal to the 
DOJ for the utilization of the $2.5 million appropriation. Relying on 
the appropriations language that sought to ``resolve'' Puerto Rico's 
future political status, a plebiscite was proposed between statehood, 
independence and free association, leaving off the--unresolved--
territorial status.
    After amending the local plebiscite legislation to incorporate DOJ 
feedback the DOJ declined to review the amended language because of 
``insufficient time.'' The Government of Puerto Rico decided to move 
forward with the plebiscite in June 2017 without using the $2.5 million 
available.
    Weeks and days before the plebiscite public polls showed statehood 
leading by a clear majority, so opponents decided to ``boycott'' the 
election with PDP leaders passing a resolution to tell their followers 
that the plebiscite was not fair because no version of ``Enhanced 
Commonwealth'' was on the ballot. Support for statehood was 
overwhelming at 97%, Independence/Free Association obtained 1.5% and 
current territory status 1.3%. Yet those who were unwilling to even try 
to win at the ballot box then turned around to argue that the statehood 
victory was not legitimate because of low-voter turnout. The victory 
for statehood was certified by the State Elections Commission of Puerto 
Rico, and turnout statistics on ``effective voters'' showed a 
participation rate of 31% (See Voter Turnout Certification Attached) 
consistent with those of previous non-general election electoral events 
on the Island (22.5% in 2005 and 35% in 2012).
The 2020 Plebiscite
    In 2020, recognizing the rejection of the current territory status 
by Puerto Rico's voters, the Government of Puerto Rico legislated a 
simple statehood ``YES'' or ``NO'' vote. DOJ approval was requested, 
and again the DOJ failed to approve the ballot irrespective of clear 
historic and legal precedent for its design and word choice. Instead, 
DOJ insisted that the current territory status be included despite the 
intent of Congress in the 2014 appropriation, which sought a permanent 
solution to ``resolve'' the current territory status.
    Given that Congress has also made clear in federal statute (Pub. L. 
114-187 Sec. 402) that Puerto Rico's right to determine its future 
political status can be exercised with or without the use of a federal 
appropriation that requires DOJ approval, the Government of Puerto Rico 
decided to proceed with the vote. Its purpose was simple, to determine 
definitively whether or not a majority of Island voters support 
statehood. Its precedent was clear: Alaska, Hawaii and multiple other 
territories became states after polling voters on statehood without any 
federal authorization or approval.
    In the case of both Alaska and Hawaii, the results of the non-
federally approved statehood referendums served to demonstrate to 
Congress that voters sought statehood. The locally sponsored votes 
helped educate and compel Congress to enact admission bills which in 
turn contained a final statehood ratification vote. In both cases 
support for statehood grew significantly between the territory's first 
locally sponsored ``non-binding'' statehood vote (58% in 1946 for 
Alaska & 67% in 1940 for Hawaii) and their final ratification vote 
after Congress enacted admission legislation (83% in 1958 for Alaska 
and 94% in 1959 for Hawaii).
    The Puerto Rican government's decision to proceed with the locally 
sponsored statehood ``YES'' or ``NO'' vote last November was consistent 
with this history.
    The plebiscite was held concurrent with the general election, and 
the voter participation rate was initially estimated at 52%. The Puerto 
Rico State Elections Commission later certified that among the 
``effective voters'' in Puerto Rico participation in the plebiscite 
reached 73%. So, any claims of low-voter participation are simply 
inaccurate.
    Additionally, no registered political party in Puerto Rico called 
for a ``boycott'' of this plebiscite. In fact, all political parties 
actively campaigned for either the ``YES'' (New Progressive Party) or 
the ``NO'' (Popular Democratic Party and Puerto Rico Independence 
Party) options, and the Citizens Victory Movement had some of its 
candidates campaigning for ``YES'' and others for ``NO''. No one was 
excluded from the vote.
    Out of 1.2 million ballots cast, statehood won with 52.5% of the 
vote. This percentage represents 655,000 ballots, more votes than were 
received by either the pro-statehood Governor (33.24% with over 427,000 
votes) or pro-statehood Resident Commissioner (41.18% with over 512,000 
votes), both of which who also won the election. The result 
demonstrates that support for statehood in Puerto Rico cuts across all 
party lines and that voters differentiated between the ballots cast on 
the status issue and those for individual candidates running for 
office.
    This vote marks the third time in less than a decade in which the 
U.S. citizens of Puerto Rico rejected the current territory status in 
favor of statehood and shows definitively that an unquestionable 
majority of voters support immediate admission as a state.
               ii. implications of puerto rico statehood
    Under the U.S. Constitution, new states to the union are admitted 
on ``equal footing'' with existing states. The ``equal footing'' 
doctrine makes it clear that when Puerto Rico becomes a state, full 
constitutional rights will apply to its residents, including 
constitutional U.S. citizenship and the Bill of Rights. As a U.S. 
territory, the Bill of Rights does not fully apply in Puerto Rico, and 
a 1917 statute, not the U.S. Constitution, grants U.S. citizenship.
    Statehood is a responsible ballot option because there are no 
variations on its definition. Each of the 50 current states is treated 
equally under federal law. The meaning of ``state'' is well established 
and consistent; there is a sense of certainty in the definition.
    There are, however, three implications of Puerto Rico statehood 
that are subject to much conjecture in Washington and often 
misunderstood: (1) predictions of Puerto Rico's partisanship as a 
state, (2) the economic implications of Puerto Rico statehood, and (3) 
the impact of statehood on Puerto Rican culture. Contrary to assertions 
that Puerto Rico would be a deep blue state with a struggling economy, 
Puerto Rico is poised to be a purple state with a strengthened economy, 
and Puerto Rican culture would thrive as a result.
The Perils of Political Forecasting
    While many in Washington speculate about how Puerto Rico's 
admission would impact the political balance in Congress, the reality 
is that this speculation is not a legitimate basis upon which to deny 
three million U.S. citizens the full voting rights that they are 
demanding at the federal level.
    First, historically past predictions of partisan leanings have 
missed the mark. When Hawaii and Alaska were admitted into the Union, 
the pair was approved on the assumption that Alaska would vote 
Democratic and Hawaii would be Republican.
    Second, instead of assuming what voter preferences on the Island 
will be based on Puerto Rican voter preferences in the states, 
observers should look at actual election results in Puerto Rico. 
Currently, the most popular elected official in Puerto Rico is a 
Republican. As a matter of fact, at the time of the November 2020 
election, all of the top government officials in Puerto Rico--Governor 
Wanda Vazquez, House Speaker Johnny Mendez and Senate President Thomas 
Rivera Schatz--identified as Republican.
    Members of this Committee may also recall former Resident 
Commissioner and Republican Luis Fortuno, who served in Congress from 
2005-2009 before being elected Governor of Puerto Rico from 2009-2013.
    Republicans have a clear and active voter base in Puerto Rico due 
to the Island's large socially conservative population. In fact, last 
year the James Madison Institute reported that Puerto Ricans living in 
states such as Florida continue to vote Republican in meaningful 
numbers for socially conservative candidates and are even more likely 
to vote for Republican candidates who are clear that they favor Puerto 
Rico statehood.
    We cannot know the partisan makeup of a congressional delegation 
for the state of Puerto Rico until the U.S. citizens there are afforded 
full voting rights. What is obvious is that the party that is viewed as 
being responsible for including Puerto Rico fully in the America's 
national democratic process will be remembered by Puerto Rican voters 
for many years to come.
Economic Growth Under Statehood
    While some may argue that Puerto Rico must improve its economy and 
fiscal situation before statehood can be considered, this perspective 
is based on a flawed understanding of the interplay between a 
jurisdiction's political status as a territory and its prospects for 
economic development. Economic underperformance is not uniquely 
attributable to Puerto Rico as a territory; indeed, throughout history 
all U.S. territories have underperformed and been in an arrested 
development compared to after they became states.
Inherent Limitations of Territorial Economics
    Territory status prevents Puerto Rico from being fully integrated 
into the U.S. economy inhibiting investment and generating uncertainty 
because of the fear of a possible change in political status, or 
arbitrary treatment by Congress in federal laws and programs. Puerto 
Rico's lack of representation on the Federal level also severely limits 
its ability to impact Federal legislative and rulemaking processes 
which further hampers its integration into the broader U.S. economy.
    At its core, the current territory status represents an inherent 
limitation on Puerto Rico's economic development because it creates an 
unequal playing field with a distinct disadvantage from which the local 
economy cannot escape. It also creates incentives for deficits and debt 
spending as a way to make up for underinvestment by the Federal 
Government when local elected officials are faced with the public 
demands of a local electorate who see the higher quality of life and 
higher incomes stateside and can easily relocate to obtain better 
economic opportunities.
Ticking Timebomb of Population Loss
    Federal underinvestment under territory status will always hamper 
Puerto Rico's aggregate demand and cause residents to relocate 
stateside making sustainable economic growth difficult if not 
impossible. According to the U.S. Census, the relocation of Puerto 
Ricans stateside has led to a population decline from 3.9 million in 
2000, to less than 3.2 million in 2019. That is absolutely devastating 
for the Island's economy because it diminishes the consumer base, tax 
base and the workforce, and increases per capita debt. This trend makes 
it crystal clear why a gamechanger like the definitive resolution to 
the political status issue is urgently needed, and why further delay by 
Congress could be catastrophic.
History Shows that Statehood Stimulates Economic Growth
    Economic data from the transition of Alaska and Hawaii into 
statehood shows that economic progress is massive as a former territory 
converges into the national economy through statehood. Both states 
averaged growth rates two times greater than the U.S. average after 
admission.
    Following statehood, Hawaii's economy skyrocketed--quadrupling in 
size by 1989. In Alaska, the wages for the average non-agricultural 
worker increased 28% in the 10 years following statehood. The 
University of Alaska Institute of Social and Economic Research found 
that after becoming a state, production of goods and services in Alaska 
increased, employment expanded, gross state product more than doubled, 
and the state's population grew.
    Similarly, economic data in the first decade after statehood also 
showed consistent growth patterns in Montana, Washington, Idaho, 
Wyoming, Utah, Oklahoma, New Mexico and Arizona. These economic results 
were quick and dramatic, and they have been enduring, demonstrating 
that economic growth follows statehood, not the other way around.
    Statehood will provide Puerto Rico the equality, stability, access 
and certainty needed to attract long term investors. It will increase 
interstate commerce by boosting consumer demand. Statehood will also 
help speed up debt restructuring by promoting the economic growth 
needed to support debt repayment and to regain access to capital 
markets for making responsible public investments in infrastructure 
that can generate more growth in the future.
Statehood Would Respect and Strengthen Puerto Rican Culture
    The course of Puerto Rico's history changed in 1898, when the 
United States acquired the Island in the aftermath of the Spanish 
American War. At the time Puerto Rico already had a rich identity and 
cultural history with a mixture of Spanish, African and Taino native 
influences. And while some like to raise concerns about Puerto Rico 
retaining its unique cultural identity as a state, this again is a 
false dichotomy. In the United States, every state has its own culture 
and identity. There is no reason to believe that Puerto Rico would be 
any different.
    The reality is that Puerto Rican culture and identity has already 
been shaped in undeniable ways from its current territorial 
relationship with the United States, and American culture has also been 
shaped by Puerto Rico. There are simply no requirements under statehood 
that would prevent Puerto Rico from maintaining its culture and 
identity.
Preserving American Citizenship & Puerto Rican Identity
    In 1917, the U.S. Congress enacted legislation granting U.S. 
citizenship to the people of Puerto Rico, further including Puerto 
Ricans in the American political family. The overwhelming majority of 
Puerto Ricans treasure their U.S. citizenship. Puerto Rico is already 
included in the United States, travel is seamless and no passports or 
visas are required. Statehood will provide a constitutional guarantee 
of U.S. citizenship for current and future generations born on the 
Island, allowing us to keep a critical connection, access to and 
mobility with the six million Puerto Ricans living stateside.
    The stateside population of Puerto Ricans is itself the greatest 
proof that one can continue to carry and cherish one's culture and 
identity as Puerto Rican while also enjoying the full and equal rights 
of U.S. citizenship under statehood. There is no contradiction in being 
proud to be Puerto Rican and proud to be American at the same time.
Language
    Puerto Rico is predominantly Spanish speaking, but with a large 
bilingual population that also speaks English. The official languages 
in Puerto Rico today are both Spanish and English. Under statehood 
there would be no limitation on the capacity of Puerto Rico to retain 
both Spanish and English as its official languages. As a state that 
right would be reserved to Puerto Rico under the 10th Amendment to the 
Constitution. Examples of states with more than one official language 
include Alaska, Hawaii and New Mexico. And for those concerned that 
Puerto Rico would be alone as a state with a large Spanish speaking 
population, Census data shows there would still be more Spanish 
speakers in California (10 million), Texas (7 million) and Florida (6 
million) than there are in Puerto Rico (3 million). Past public polling 
has also shown that an overwhelming majority of parents (95%) support 
requiring that all public schools in Puerto Rico teach English so that 
students can become fully bilingual. Parents realize that being fully 
bilingual preserves Puerto Rican culture while opening doors to better 
educational and professional opportunities.
Population
    When I testified before Congress in 1998, I referred to the 3.8 
million U.S. citizens of Puerto Rico. Census data today indicates that 
Puerto Rico's population has decreased to under 3.2 million. The people 
of Puerto Rico are voting for statehood with their feet. The heart of 
Puerto Rican culture is Puerto Rico. The best way to strengthen Puerto 
Rican culture is by strengthening Puerto Rico.
    Today, there are more Puerto Ricans living in the states than 
Puerto Ricans who live in Puerto Rico. We have experienced population 
loss and brain drain for years, as the next generation of talented 
Puerto Ricans are leaving home in favor of Florida, Pennsylvania, 
Texas, and countless other states. Puerto Rico's most important 
cultural resource is its people, and under the failed territory status 
people are leaving Puerto Rico.
    If Puerto Rico's relationship with the United States posed an 
existential threat to Puerto Rican culture we would know that by now. 
The damage would be done. After all, Puerto Rico has been a territory 
of the U.S. for 123 years. The so-called ``annexation'' that, 
ironically, appears to be feared most by people who do not call Puerto 
Rico home, occurred in 1898 and was fully enacted in 1917.
    Puerto Rican culture continues to endure despite its long colonial 
history--and its colonial status today. An economically vibrant Puerto 
Rico under statehood would be much more able to retain and further 
develop local talent in arts, music, dance, cuisine, sports and other 
cultural fields than under the deteriorating territory status where top 
talent is often times forced to leave the island to be able to fully 
develop and grow.
          iii. puerto rican participation in the u.s. military
    U.S. citizens from Puerto Rico have served proudly in all branches 
of the U.S. Armed Forces, and historically, Puerto Rico has ranked 
alongside the top states in terms of per capita military service.
    Estimated wartime deployment contributions include: Over 18,000 
during World War I; Over 65,000 during World War II; Over 61,000 during 
the Korean War; Over 48,000 during the Vietnam War; Over 10,000 during 
the Gulf War; and over 25,000 during Operations Enduring Freedom & 
Iraqi Freedom.
    In 2016 Congress awarded the Congressional Gold Medal to the famed 
65th Infantry Regiment, known as the Borinqueneers, which was composed 
mostly of soldiers from Puerto Rico and served as the only Hispanic 
segregated unit in the Korean War. While nine members of the Armed 
Forces from Puerto Rico have received the Medal of Honor, our Nation's 
highest award for military valor.
    Puerto Ricans continue to serve today, with tens of thousands in 
active duty, and reserves, and thousands more in the Puerto Rico 
National Guard. Indeed, more than 90,000 veterans call Puerto Rico 
home.
    Most poignantly, 1,900 U.S. citizens of Puerto Rico have been 
casualties of war paying the ultimate price in defense of America's 
freedom, while lacking full voting rights and equality at the federal 
level. Only the granting of full rights and equality under statehood 
would fully honor the sacrifices of blood, sweat, tears and lives made 
by all the Puerto Ricans who have served and continue to serve in the 
military to this day and by their families.
iv. the fallacy of the puerto rico self-determination act of 2021 (h.r. 
                                 2070)
    The biggest fallacy of the Puerto Rico Self-Determination Act, H.R. 
2070, is that it ignores all of the previous efforts at locally led 
self-determination that Puerto Rico has engaged in over the past 
several decades. It engages in explicit election denial regarding the 
indisputable reality that a majority of voters in Puerto Rico favor 
statehood. It disrespects those voters and all election processes, 
wrapping itself in the language of ``fairness,'' but instead seeking to 
discard their suffrage to start a new process as if their votes had not 
happened and didn't matter. That is not how democracy works, and I 
strongly urge the Members of this Committee to reject this approach.
    The other fallacy is that in the name of ``inclusion'' H.R. 2070 
seeks to re-open a debate about what status are possible that has 
already taken place over decades, and where definitive conclusions have 
already been reached. Presidents and Members of Congress from both 
political parties have examined the status issue for decades, and they 
have come to the same conclusion: clear constitutional parameters are 
in order when presenting status options on a plebiscite. H.R. 2070 
fails to do that.
    Instead, H.R. 2070 re-opens the door to endless debate on an 
undefined number of options when its proponents say that beyond 
statehood, independence and free association, the bill would consider 
``any option other than the current territorial arrangement.'' 
Inevitably this includes proponents of the fantasy ``Enhanced 
Commonwealth'' option--an impossible mix of the best features of 
sovereignty and statehood. In doing so, H.R. 2070 would spoil the 
potential to resolve the island's ultimate status and would hurt self-
determination efforts which ultimately must be a real choice by Puerto 
Rico's voters among the constitutionally valid options.
    The final insult to the majority of voters in Puerto Rico is that 
H.R. 2070 proposes a convoluted convention that the people of Puerto 
Rico have not requested with an ``uninterrupted space of dialogue,'' 
and no timeline or end date. As one prominent bill supporter described 
it recently, ``Velazquez and Ocasio-Cortez's legislation would start a 
process that could take years . . .'' This is simply disrespectful and 
wrong, because justice delayed is justice denied.
    After almost 70 years of Puerto Ricans wrangling to get out of the 
``Commonwealth'' and ``Enhanced Commonwealth'' myths, it is time to say 
enough. Puerto Rico has a legislature and a governor with authority to 
hold a convention. When they have had a chance to do so, they have 
chosen not to. Compelling Puerto Rico to hold a convention against the 
wishes of its governor and legislature is not self-determination, it's 
an example of the same paternalistic colonialism that the authors of 
H.R. 2070 say they are against.
    Instead, the duly elected governor and legislature of Puerto Rico 
have decided to self-determine by holding multiple plebiscite votes, 
and millions of voters have cast their ballots. The U.S. Constitution 
grants Congress the power to ``make all needful rules and regulations'' 
regarding U.S. territories. With that power comes a responsibility. In 
this case, Congress has the responsibility to consider and respect 
Puerto Rico's plebiscite history, and the most logical next step is to 
move forward with the ratification vote set forth in H.R. 1522, the 
Puerto Rico Statehood Admission Act.
                             v. conclusion
    Puerto Rico's territorial status represents the unfinished business 
of American democracy. The resolution of Puerto Rico's ultimate 
political status is not only vitally important to the three million 
U.S. citizens who call the islands home and the nearly six million 
Puerto Ricans stateside, but to all Americans.
    Democracy is the soul of America. In 1980, then-Presidential 
candidate Ronald Reagan wrote in the Wall Street Journal about Puerto 
Rico, ``we cannot expect our foreign policies to be enjoying prestige 
around the world . . . when we are having serious problems with our 
closest neighbors.'' His words still ring true today.
    Congress does not have to take a position on statehood today, but 
the Constitution and fundamental American principles compel Congress to 
at least provide a dignified path forward. I urge the Committee to 
listen to the messages that the majority of the people of Puerto Rico 
have sent in the recent plebiscites and pass H.R. 1522. It is time to 
put an end to the decades of misleading information that will continue 
to spread in Puerto Rico if left unchecked by Congress.
    There is a new window of opportunity before us today. History will 
judge us by what we do or fail to do to correct the historic wrong of 
America's colonial legacy in Puerto Rico. I am deeply hopeful that 2021 
will be the year that Congress provides clear direction to finally 
resolve Puerto Rico's ultimate political status, and unleash our 
enchanted island's full potential for the benefit of Puerto Rico, 
America and the world.

                              ATTACHMENTS

   Explanatory Graphic Related to the 1998 ``Enhanced Commonwealth'' 
            Platform as Published by the San Juan Star, 1998
            

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    1998 ``Enhanced Commonwealth'' Platform as Ratified by the 
                Commonwealth (PDP) Party of Puerto Rico
                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               


Congressional Research Service (CRS) Summary of Results of Puerto 
           Rico Plebiscites held from 1967-1998
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            



Voter Turnout Certification--Plebiscite 2017

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                          

    The Chairman. Thank you, Mr. Fuentes. And now let me 
recognize Dr. Christina D. Ponsa-Kraus, Professor of Law at the 
Columbia Law School. Doctor, the time is yours.

   STATEMENT OF CHRISTINA D. PONSA-KRAUS, PROFESSOR OF LAW, 
            COLUMBIA LAW SCHOOL, NEW YORK, NEW YORK

    Dr. Ponsa-Kraus. Thank you, Mr. Chairman, Ranking Member 
Westerman, and members of the Committee. I am a law professor 
at Columbia University and an expert on Puerto Rico's 
constitutional status. And I am the author of a letter to 
congressional leadership signed by 47 legal and constitutional 
scholars supporting the Admission Act and opposing the Self-
Determination Act. The letter has been introduced into the 
record.
    I am also Puerto Rican myself. I was raised on the island 
from my infancy until I graduated from high school. I am a 
native speaker of Spanish. My parents and extended family live 
in Puerto Rico. I appreciate the Committee's attention to the 
urgent matter of Puerto Rico's future and the invitation to 
speak today.
    Puerto Ricans reject territorial status, which denies them 
a guarantee of local self-government and Federal 
representation. Last November, a majority chose statehood in a 
referendum on the island. The Admission Act responds to that 
vote, and it is crucial to be clear about how. It does not 
automatically admit the island into statehood. It does not 
impose or force or grant statehood to Puerto Rico. Instead, it 
offers statehood to Puerto Rico. But first, Puerto Ricans must 
vote in a second referendum in which they can accept or reject 
the offer. Only if they accept does the Act provide for Puerto 
Rico's admission into statehood. This is a careful and 
constitutionally sound process.
    The contrast with the Self-Determination Act could not be 
more stark. This Act contradicts its own title by completely 
ignoring the referendum in a thinly veiled attempt to delay 
and, therefore, defeat an offer of statehood. It sends Puerto 
Ricans back to the drawing board to have a debate they have 
been having for 70 years, and it requires Congress to ratify 
whatever option they choose, something Congress cannot 
constitutionally bind itself to do.
    The Act requires convention delegates to ``debate and draft 
definitions on self-determination options for Puerto Rico, 
which shall be outside the Territorial Clause.'' If this 
language means Puerto Ricans should debate the pros and cons of 
statehood and independence, it is gratuitous and dilatory. 
Puerto Ricans do not need a congressional invitation to debate 
these options, and they can keep right on debating them even 
after Congress offers statehood.
    If this language means what its principal sponsors have 
said it means, then the problem gets worse. They have explained 
that a convention would consider ``statehood, independence, 
free association, or any option other than the current 
territorial arrangement.'' This gets wrong a basic point of 
constitutional law. There are no other options.
    Statehood is non-territorial. Independence is non-
territorial. Free association has been described as a third 
option. But to be clear, it is a form of independence with a 
treaty or compact of free association between two sovereign 
nations. In short, there are two and only two non-territorial 
options for Puerto Rico, statehood and independence with or 
without free association. By inviting Puerto Ricans to define 
other territorial options, this bill revives a debate Puerto 
Ricans have already had.
    When the island became a Commonwealth in 1952, many Puerto 
Ricans believed it had ceased to be a U.S. territory, become a 
separate sovereign, and entered into a binding compact with the 
United States. If there were a compact, Congress would no 
longer have the power to modify Puerto Rico's government 
unilaterally, and the island would at least no longer be a 
territory. But they were wrong.
    As the Supreme Court recently confirmed, even as a 
Commonwealth, Puerto Rico remains a U.S. territory, and 
Congress retains the power to modify the island's government 
unilaterally as it did, for example, when it created the 
Financial Oversight and Management Board in 2016. The myth of 
non-territorial commonwealth has long prevented Puerto Ricans 
from reckoning with the constitutional reality that the only 
alternatives to being a territory are statehood and 
independence. The last thing Puerto Ricans need is to debate 
options that are no longer debatable.
    The Self-Determination Act invites Puerto Ricans to have a 
debate they have been having for seven decades and for which 
they need no congressional invitation. Yet, it deprives them of 
an offer of statehood which they have never had, they just 
asked for, and only Congress can deliver. Congress should pass 
the Admission Act without delay. Thank you.

    [The prepared statement of Dr. Ponsa-Kraus follows:]
   Prepared Statement of Christina D. Ponsa-Kraus, Law Professor at 
                          Columbia University
    Good afternoon. My name is Christina D. Ponsa-Kraus. I am a law 
professor at Columbia University and an expert on Puerto Rico's 
constitutional status, and I am the author of a letter to Congressional 
leadership signed by 47 legal and constitutional scholars supporting 
the Admission Act and opposing the Self-Determination Act. The letter 
has been introduced into the record.
    I am also Puerto Rican myself. I was raised on the island from my 
infancy until I graduated from high school. I am a native speaker of 
Spanish. My parents and extended family live in Puerto Rico. I 
appreciate the Committee's attention to the urgent matter of Puerto 
Rico's future and the invitation to speak today.
    Puerto Ricans reject territorial status, which denies them a 
guarantee of local self-government and federal representation. Last 
November, a majority chose statehood in a referendum on the island. The 
Admission Act responds to that vote, and it is crucial to be clear 
about how. It does not automatically admit the island into statehood. 
It does not impose or force statehood on Puerto Rico. Instead, it 
offers statehood to Puerto Rico. But first, Puerto Ricans must vote in 
a second referendum, in which they can accept or reject the offer. Only 
if they accept does the Act provide for Puerto Rico's admission into 
statehood. This is a careful and constitutionally sound process.
    The contrast with the Self-Determination Act could not be more 
stark. This Act contradicts its own title by completely ignoring the 
referendum. In a thinly veiled attempt to delay, and therefore defeat, 
an offer of statehood, it sends Puerto Ricans back to the drawing board 
to have a debate they have been having for 70 years. And it requires 
Congress to ratify whatever option they choose--something Congress 
cannot constitutionally bind itself to do.
    The Act requires convention delegates to ``debate and draft 
definitions on self-determination options . . . outside the Territorial 
Clause.'' If this language means Puerto Ricans should debate the pros 
and cons of statehood and independence, it is gratuitous and dilatory. 
Puerto Ricans do not need a congressional invitation to debate these 
options, and they can keep right on debating them even after Congress 
offers statehood.
    If this language means what its principal sponsors have said it 
means, then the problem gets worse. They have explained that a 
convention would consider ``statehood, independence, free association 
or any option other than the current territorial arrangement.'' \1\ 
This gets wrong a basic point of constitutional law: There are no 
``other'' non-territorial options.
---------------------------------------------------------------------------
    \1\ Rep. Nydia Velazquez & Rep. Alexandria Ocasio-Cortez, Puerto 
Rico, Not Congress, Must Determine Its Future. Our Bill Enables It To 
Do So, nbcnews.com, Aug. 25, 2020.
---------------------------------------------------------------------------
    Statehood is non-territorial. Independence is non-territorial. 
``Free association'' has been described as a ``third option,'' but to 
be clear: It is a form of independence, with a treaty or compact of 
free association between two sovereign nations. In short, there are 
two, and only two, non-territorial options for Puerto Rico: statehood, 
and independence with or without free association.
    By inviting Puerto Ricans to define ``other'' non-territorial 
options, this bill revives a debate Puerto Ricans have already had. 
When the island became a ``commonwealth'' in 1952, many Puerto Ricans 
believed it had ceased to be a U.S. territory, become a separate 
sovereign, and entered into a binding compact with the United States. 
If there were a compact, Congress would no longer have the power to 
modify Puerto Rico's government unilaterally, and the island would at 
least no longer be a territory.
    But they were wrong. As the Supreme Court recently confirmed, even 
as a ``Commonwealth,'' Puerto Rico remains a U.S. territory, and 
Congress retains the power to modify the island's government 
unilaterally--as it did, for example, when it created the Financial 
Oversight and Management Board in 2016.
    The myth of non-territorial commonwealth has long prevented Puerto 
Ricans from reckoning with the constitutional reality that the only 
alternatives to being a territory are statehood and independence. The 
last thing Puerto Ricans need is to debate options that are no longer 
debatable.
    The Self-Determination Act invites Puerto Ricans to have a debate 
they have been having for seven decades and for which they need no 
congressional invitation. Yet it deprives them of an offer of 
statehood, which they have never had, they just asked for, and only 
Congress can deliver. Congress should pass the Admission Act without 
delay.

                                 ______
                                 

    The Chairman. Thank you very much. The Chair now recognizes 
the Speaker of the Puerto Rico House of Representatives, the 
Hon. Rafael Hernandez. Sir, time is yours.

   STATEMENT OF THE HON. RAFAEL HERNANDEZ MONTANEZ, SPEAKER, 
  PUERTO RICO HOUSE OF REPRESENTATIVES, SAN JUAN, PUERTO RICO

    Mr. Hernandez. Thank you, Chair Grijalva, Ranking Member 
Westerman, Resident Commissioner Gonzalez-Colon, and 
distinguished members of the Committee. I am the speaker of the 
House of Representatives in Puerto Rico. I stand today 
representing the people of Puerto Rico. I fully endorse H.R. 
2070, introduced by Chairwoman Nydia Velazquez and 
Congresswoman Alexandria Ocasio-Cortez, a Senate companion bill 
introduced by Chairman Bob Menendez. This bicameral and 
bipartisan legislation is long overdue.
    It will empower Puerto Ricans with an inclusive, 
transparent, and democratic process to determine our own 
political future and relationship with the United States. Under 
H.R. 2070, a political status convention would be created and 
delegates would be elected to discuss options with Federal 
representatives in Congress and the Federal Department of 
Justice and, therefore, create an official, legitimate, and 
comprehensive bilateral conversation on status.
    On Election Day 2020, the people of Puerto Rico undeniably 
forged a historically diverse legislature with representation 
of five local political parties. I am both humbled and honored 
to have been elected by multiple sides of the aisle. This 
reality entrusts me with the responsibility of defending a fair 
and inclusive self-determination process. Puerto Rico treasures 
their identity and the benefits of their American citizenship. 
Trade, currency, defense, and common citizenship are assets 
that we enjoy today, and as such, are non-negotiable. A vast 
majority, some 85 percent of Puerto Ricans greatly value their 
citizenship and favor a permanent relationship with the United 
States.
    On March 2, with support for a stable, free association, 
independence, and commonwealth, we approved Concurrent House 
Resolution No. 1 to demand that Congress clearly and 
affirmatively establish their alternative. It is willing to 
consider a solution to the political relationship. It also 
requests that Congress promote a binding, inclusive process 
with all ideological sectors.
    I support H.R. 2070 because voters will be given a 
realistic definition of each viable option, avoiding political 
grandstanding. It is time we build a relationship based on 
dignity and respect. The Puerto Rico Self-Determination Act 
ensures a fair process that provides certainty to our people 
and to their political aspirations.
    International law recognizes four alternatives. It is 
respective for H.R. 2070 to reaffirm that Estado libre asociado 
has the legal and practical viability of developing in a 
political model that our people can freely choose. It is the 
interest of Puerto Rico and the United States to promote this 
process. Previous, non-binding exclusionary electoral events 
managed by partisan extremists have wasted both our time and 
limited resources. Puerto Rico deserves a legitimate and truly 
binding self-determination process. Legitimacy is essential for 
credibility and veracity in the eyes of our people. These 
standards can only be achieved with equal participation.
    Democracies evolve. That is why we legislate. The United 
States has changed throughout its history. Just as it was over 
a hundred years ago that women were given their right to vote, 
I sit today before your Committee to testify in support of 
legislation led by women that will enable our government to 
evolve the relationship within Puerto Rico and the United 
States. I urge this Committee to approve H.R. 2070. I thank you 
for this opportunity.

    [The prepared statement of Mr. Hernandez follows:]
  Prepared Statement of the Hon. Rafael Hernendez Montanez, Speaker, 
                  Puerto Rico House of Representatives
    Chairman Grijalva, Ranking Member Westerman, and distinguished 
Members of the Committee, I am Rafael ``Tatito'' Hernendez Montanez, 
and I am respectfully here as Speaker of the House of Representatives 
in Puerto Rico. I fully endorse H.R. 2070, legislation introduced by 
Chairwoman Nydia Velazquez and Congresswoman Alexandra Ocasio-Cortez, 
which has 73 co-sponsors to date. The Senate companion bill, introduced 
by Chairman Bob Menendez, has 7 co-sponsors.
    This bicameral and bipartisan legislation is overdue. It will 
empower Puerto Ricans with an inclusive, transparent, and democratic 
process to determine our own political future and relationship with the 
United States. Under H.R. 2070, a political status convention would be 
created, and delegates would be elected to discuss options with federal 
officials, and therefore create an official, legitimate, and 
comprehensive bilateral conversation on status. I am thankful for the 
leadership of Chairwoman Velazquez, Congresswoman Ocasio-Cortez, and 
Chairman Menendez, and to all of those who have joined them as co-
sponsors.
    On Election Day 2020, the People of Puerto Rico unequivocally 
forged a historically diverse Legislative Assembly with representation 
from five (5) local political parties. That same day, Pedro Pierluisi-
Urrutia of the New Progressive Party (NPP or ``PNP'' for its Spanish 
acronym) was elected as Governor of Puerto Rico; Jennifer Gonzalez-
Colon of the NPP was reelected as Resident Commissioner; and the people 
chose a Popular Democratic Party (PDP or ``PPD'' for its Spanish 
acronym) majority in both the House and the Senate. However, after an 
in-depth analysis of this issue, other more relevant, pertinent data 
regarding the self-determination mechanisms before us arises.
    The Governor of Puerto Rico was elected with 73% of party-line 
votes, 3% of mixed votes, and 24% of per candidate votes. The 
Legislature, on the other hand, was chosen with 67% of party-line 
votes, 14% of mixed votes, and 19% of per candidate votes. This data 
reveals that a third (1/3) of the Puerto Rican electorate does not 
identify itself with traditional parties. Most importantly, this data 
shows that Puerto Ricans have their own criteria when choosing partisan 
ties with their democratic institutions. This reality may explain why 
electors identify themselves as statehooders, but do not feel 
represented by the NPP; why commonwealth supporters may not see 
themselves as members of the PPD; or the reason why plural pro-
independence voters do not support the Puerto Rican Pro-Independence 
Party (``PIP'').
    I was elected as the Speaker of the Puerto Rico House of 
Representatives with affirmative votes from the complete NPP 
delegation, the Representative from the newly founded Dignity Project 
(``Proyecto Dignidad'') and the complete PDP delegation. Given our 
historical reality, I am both humbled and honored to have been elected 
by multiple sides of the aisle. This reality entrusts me with the 
responsibility of defending a democratically participative and 
inclusive self-determination process. Only through collaborative, 
honest dialogues may we see clear results that guarantee participation 
from all ideological sectors. This congressional hearing's 
inclusiveness honors our diversity.
    Puerto Ricans treasure their identity and the benefits of their 
relationship with U.S. Trade, currency, defense, and common citizenship 
are assets that we enjoy today and, as such, are non-negotiable. A vast 
majority, some 85% of Puerto Ricans greatly value their American 
citizenship and favor a permanent relationship with the United States. 
These aspirations are already guaranteed by our current political 
arrangement, i.e., the Commonwealth of Puerto Rico.
    On March 2, 2021, the House of Representatives approved Concurrent 
House Resolution No. 1 (``R. K. de la C. 1'', or ``RKC1'') seeking to 
demand that the U.S. Congress, clearly and affirmatively, establish the 
alternatives it is willing to consider as a solution to the political 
relationship between Puerto Rico and the United States of America. It 
also requests that, in its expression, Congress promotes a binding, 
inclusive and participatory process with all of our ideological 
sectors.\1\ Its main purpose is to ensure further discussion as to 
statehood, independence, sovereign association, and a new political 
model for the Commonwealth as viable solutions. Steps like today's 
hearing are necessary to achieve concrete results. However, we will 
only succeed if all ideological sectors feel and are indeed 
represented.
---------------------------------------------------------------------------
    \1\ See attached.
---------------------------------------------------------------------------
    We support Congresswomen Velazquez and Ocasio-Cortez' H.R. 2070 
because it convenes and calls upon a status convention, which genuinely 
promotes the participation of all parties while simultaneously 
collaborating with Congress and the Federal Department of Justice in 
analyzing all legal possibilities. For the first time, the electorate 
will be given a realistic definition of each viable option, preventing 
that a democratic exercise becomes a popularity contest, as has 
historically happened.
    Without falling into scare tactics of politicians from all parties 
(NPP, PPD and PIP) on the island, Puerto Ricans identify only two 
alternatives of permanent union: Statehood and the Commonwealth. 
Therefore, if this self-determination process created by Congress does 
not allow for the continuing legal life of the Commonwealth outside of 
the territorial clauses, the process becomes one similar to the 
intention of H.R. 1522 in that we are excluded from the process.
    I affirm that those of us privileged enough to speak here on behalf 
of the People of Puerto Rico aspire to some sort of political 
relationship with the United States. We must build a relationship based 
on dignity and respect, safe from any single party's unilateral 
modification. This effort's result must ensure a fair self-
determination process that provides certainty to the people of Puerto 
Rico as to their political relationship with the United States. 
International law recognizes, according to United Nations Resolution 
2625 (XXV) of October 24, 1970, ``the establishment of a sovereign an 
independent State, the free association or integration with an 
independent State or the emergence into any other political status 
freely determined by a people constitute modes of implementing the 
right of self-determination by that people.'' It is from this 
international perspective, as H.R. 2070 reiterates, that the 
Commonwealth has the legal and practical viability of developing in a 
political model that our people can freely and voluntarily choose.
    Previous, non-binding exclusionary electoral events managed by 
partisan fanaticism have wasted both our time and limited resources. 
Puerto Rico's present and future condition critically deserves a 
legitimate and truly binding self-determination process. Legitimacy is 
essential for credibility and veracity in the eyes of our people. These 
standards can only be achieved with equal participation.
    Democracies evolve. That is why we legislate. The U.S. has changed 
throughout it's history. Just think that it was just over 100 years ago 
that women were given the chance to vote in the United States. And I 
sit here today before your Committee to testify in support of 
legislation, led by women no less, that will someday enable my 
government and yours to evolve and to realize a relationship for Puerto 
Rico and the United States that is more perfect in nature that what 
exists. Let's not close our minds to progress.

    I thank you for this opportunity to testify.

                                 ______
                                 

    The Chairman. Thank you very much, Speaker. And let me now 
recognize the Hon. Anibal Acevedo-Vila, former Governor, former 
colleague of mine on this Committee, the Popular Democratic 
Party Governor. The time is yours.

  STATEMENT OF THE HON. ANIBAL ACEVEDO-VILA, FORMER GOVERNOR, 
        POPULAR DEMOCRATIC PARTY, SAN JUAN, PUERTO RICO

    Mr. Acevedo-Vila. Thank you, Mr. Chairman and Ranking 
Member. I think I know what is the question in the mind of many 
of you today. Should Puerto Rico become a state? Let me be 
clear: I strongly oppose statehood. Like many in Puerto Rico, 
and many Members of Congress, we recognize that statehood is 
not good for Puerto Rico, nor will it be good for the United 
States. Our opposition is based on historical, cultural, 
national identity, and economic realities.
    But let's examine today a more immediate question. Is there 
a mandate to grant statehood to Puerto Rico? The answer is no.
    Yes, the people of Puerto Rico voted with a close margin in 
favor of statehood in November. That was a non-binding 
referendum rejected by the U.S. Department of Justice and by 
four of the five political parties in Puerto Rico.
    On election day, Puerto Ricans elected new anti-statehood 
majorities in the House and the Senate, and most of the mayors 
elected that day are also anti-statehood. The truth: we remain 
deeply divided. Any attempt to move forward a petition to make 
Puerto Rico a state will further divide our people, without 
solving the underlying problem of our colonial relationship.
    In my written statement, I have shared some data from a 
poll conducted by Hart Research in August of last year. When 
all of the options are given to the people of Puerto Rico, 
statehood support goes down to 41 percent, Commonwealth gets 38 
percent, Free Association 8 percent, and independence 6 
percent.
    Making Puerto Rico a state is an irrevocable decision that 
will affect present and future generations. The most important 
information that comes from the Hart Research is the limited 
support a state would have with the younger generation. Within 
the 18- to 34-year-old bracket, the support for statehood goes 
down to 35 percent, the support for free association goes up to 
20 percent, and for independence to 15 percent.
    Contrary to all other status bills introduced within the 
last 30 years, H.R. 2070, the Puerto Rico Self-Determination 
Act, was not drafted nor pushed by any of the local political 
parties in Puerto Rico. That is a good way to start this 
contentious process.
    For the first time, this bill gives the opportunity for 
Congress to talk directly to the people of Puerto Rico. H.R. 
2070 is not a colonial imposition. It doesn't order anything, 
nor precludes any type of outcome. No one is excluded nor 
favored. If our legislator decides to call for a status 
convention, all status options will have a fair opportunity to 
participate and elect delegates.
    Actually, if the statehood in reality are the majority, 
then the majority of the delegates elected to the convention 
will support that option. The most important component of this 
bill is the creation of the Congressional Negotiating 
Commission. This Commission will have to answer and clarify 
many of the legal constitutional language, cultural, and 
economic questions that for more than 100 years our people have 
attempted to answer, but Congress has failed to address.
    Included now, how will the different status alternative be 
affected or impacted by the ongoing process established by 
PROMESA and the restructuring of the debt? Everything will then 
be in the hands of Puerto Rico.
    Under H.R. 2070, the people will freely vote two times, 
initially to elect the members of the convention, and later to 
select the preferred status option. The only limitation is that 
any definition presented to the people for a vote after the 
negotiation with the commission must be outside of the 
Territorial Clause. That will guarantee that we really put 
Puerto Rico on the path for decolonization.
    The first time I testified before this Committee on this 
issue was in 1997. All congressional attempts have failed 
precisely because they have no consensus in Puerto Rico and 
were based on the agenda of the Puerto Rico Statehood Party to 
tilt the process in their favor.
    Before us today you have two paths, one that will repeat 
the same mistakes of the last 30 years, or you can finally try 
a different approach, inclusive and unbiased toward any 
alternative.
    The Puerto Rico Self-Determination Act is a creative and 
fair process to avoid the mistakes of the past. The path toward 
decolonization is not going to be easy, but it has to start 
now. I urge this Committee to approve H.R. 2070.

    [The prepared statement of Mr. Acevedo-Vila follows:]
Prepared Statement of Governor Anibal Acevedo-Vila, Former Governor of 
                      the Popular Democratic Party
    I am grateful to Chairman Raul Grijalva and the House Natural 
Resources Committee for holding this important hearing and for this 
opportunity to testify. I come to you in my personal capacity as a 
former Member of the House of Representative and this Committee and as 
former Governor of Puerto Rico. I have also directly or indirectly 
participated in every political status process that has been held over 
the last 30 years regarding the relationship between Puerto Rico and 
the United States. Recently I began working collectively with a group 
of puertorriquenos, from diverse backgrounds and political views, and 
help to establish a new non-partisan political advocacy group, Frente 
Puertorriquenista,\1\ to advocate and educate the public regarding the 
urgent need for the U.S. Congress to enact and adopt a fair and 
inclusive process of self-determination to decolonize Puerto Rico, and 
to defend the national and cultural identity of the Island. One of the 
core positions of the Frente Puertorriquenista is to support H.R. 2070, 
The Puerto Rico Self-Determination Act, introduced by Chairwoman Nydia 
Velazquez and Congresswoman Alexandria Ocasio-Cortez.
---------------------------------------------------------------------------
    \1\ A new group to address political status, El Nuevo Dia, March 
30, 2021, https://www.elnuevodia.com/english/news/story/a-new-group-to-
address-political-status/. See attachment 1.
---------------------------------------------------------------------------
    I want to start with what I believe is the question at the 
forefront in the minds of the Members of this Committee and more 
broadly in the House and Senate--should Puerto Rico enter the Union as 
the 51st or 52nd state? Let me be clear--I strongly oppose statehood 
for Puerto Rico, a position shared by the members of the Frente. Like 
many of you, we recognize that statehood is not a good option for 
Puerto Rico, nor would it be good for the United States. Our opposition 
to statehood is based on historical, cultural, national identity and 
economic realities. But this is not the reason I'm here today. Let's 
examine a more appropriate question today: Is there a mandate to grant 
statehood to Puerto Rico?

    The answer is NO.

    Yes, the people of Puerto Rico voted 52.5% to 47.5% in favor of 
statehood in a non-binding referendum held on Election Day 2020. But 
that was a referendum rejected by the U.S. Department of Justice, and 
by 4 of the 5 political parties in Puerto Rico, because all the other 
options for the future political relationship between Puerto Rico and 
the U.S. were excluded from the ballot. The referendum's result has to 
be analyzed within the following context:

  1.  The pro-statehood candidate for Governor won with only 33% of the 
            votes, while the other 67% voted for a candidate for 
            Governor who did not promote making Puerto Rico the 51st 
            state.

  2.  On Election Day, Puerto Ricans elected new anti-statehood 
            majorities in both the Puerto Rico House of Representatives 
            and the Senate. A majority of mayors elected in Puerto Rico 
            also oppose statehood.

  3.  The referendum was held even after the U.S. Department of Justice 
            refused to sanction the referendum and formally rejected 
            using federal funding to conduct the vote. DOJ ruled that 
            the statehood party-designed plebiscite did not comply with 
            the Constitution, federal law, or standing public policy. 
            The DOJ, in 2017, rejected another statehood party designed 
            referendum for similar reasons.

  4.  Only the pro-statehood movement was actively campaigning and 
            spending money for a yes vote. That means it was basically 
            a one-sided campaign with only statehood on the ballot, 
            therefore excluding pro-independence, pro-Commonwealth, and 
            pro-free association voters from the ballot.

    Any objective look at Puerto Rican reality and the facts on the 
ground lead to one conclusion: Puerto Ricans remain deeply divided on 
the statehood question. And any attempt to move forward with a petition 
to make Puerto Rico the 51st or 52nd state will further divide our 
people without solving the underlying problem of our colonial 
relationship with the U.S.
    This division raises another important question that needs to be 
answered: Do Puerto Ricans support other options or is statehood the 
only option?

    I am here to tell you that Puerto Ricans certainly do support other 
options--and statehood is not the only option for Puerto Rico, or for 
the United States.
    I'm sharing with the Committee the results of a poll conducted 
during the period of July 20 to August 9, 2020 by the prestigious D.C. 
based firm Hart Research.\2\ Their results were extremely accurate 
regarding the final outcome in November, and included very relevant 
questions related to the statehood referendum.
---------------------------------------------------------------------------
    \2\ See attachment 2.
---------------------------------------------------------------------------
    The Hart Research poll had statehood wining by a close margin, 48% 
to 45%, in early August. This was nearly the exact result in November. 
Interestingly, 54% of those polled thought the referendum was not a 
serious proposal, even though they were willing to participate.
    The most interesting data from the Hart poll was when the real 
political status questions were asked. In Puerto Rico, the issue about 
our relationship with the USA, the ``status'' issue as we call it, is 
not only regarding ``statehood'' (it is really annexation.) There is 
complete agreement there are other options, like a new non-colonial, 
non-territorial Estado Libre Asociado, some form of Free Association 
with the USA, and Independence. One of the complaints of the local 
political parties was that those of us who believe in those other 
options were not afforded (some might say silenced from) real 
participation in the referendum.
    The Hart Research poll did ask that question. When all the options 
are given, annexation (``statehood'') support goes down to 41%, 
Commonwealth gets 38%, Free Association 8% and Independence 6% (with 7% 
undecided).
    Beyond the fact that the support for statehood in that poll goes 
from 48% when it is a yes or no question, to 41% when the other options 
are included, it is more interesting that the options of a relationship 
with the USA other than statehood are the majority (Commonwealth + Free 
Association = 46%).
    Making Puerto Rico the 51st state is an irrevocable decision that 
will affect future generations, well beyond that 52% of individuals 
that actually voted for that option. Perhaps the most important piece 
of information that comes from the Hart Research poll is the limited 
support that statehood has with the younger generation. Within the 18-
34-year-old bracket, the support for statehood goes down to 35% and the 
support for Free Association goes up to 20% and for independence to 
15%.
    So why did statehood eventually get 52% in the November referendum? 
The Hart Research poll also gives us some explanation. When only given 
the yes or no to statehood option, 15% of those who vote yes, really 
support one of the other options not given to them (especially 
Commonwealth) in the question that included all the options. Having 
been deprived of their alternative, they voted for statehood. It is 
clear that it is only the lack of options and not that they really want 
statehood.
    The answer to the two previous questions is obvious: there is no 
mandate from the People of Puerto Rico to make the island the 51st 
state and we do request a fair and inclusive process of self-
determination that will finally bring decolonization. And there is 
where H.R. 2070 comes to play.
    I, as well as the Frente Puertorriquenista support H.R. 2070 
because it's a serious, fair and inclusive process.
    Contrary to all the other status bills introduced in Congress 
during the last 30 years, H.R. 2070 was not drafted nor pushed by any 
of the local political parties in Puerto Rico. That's a good way to 
start this contentious process. This new approach could also facilitate 
an eventual consensus here in Congress as well as in Puerto Rico. For 
the first time, this bill gives the opportunity for Congress to talk 
directly to the People of Puerto Rico, without the need to use local 
political parties as intermediaries. The political diversity of those 
from Puerto Rico testifying today in support of H.R. 2070 is a clear 
showing of its potential for consensus.
    H.R. 2070 is not a colonial imposition by Congress on Puerto 
Ricans. It doesn't order anything, nor precludes any type of outcome. 
No one is excluded, nor favored. If enacted, the start of the process 
will be completely in the hands of the elected officials in the Island. 
It doesn't even have status definitions so as to avoid a process that 
could be challenged as biased and in favor or in opposition to any of 
the status options from the very beginning.
    If the Legislative Assembly in Puerto Rico decides to call for a 
Status Convention, all status options will have a fair opportunity to 
participate and to elect delegates to the convention. Actually, if 
statehood is really the favorite option of the people, the majority of 
delegates elected will support that option.
    The most important and creative component of this bill is the 
creation of a Negotiating Commission. If Puerto Rico calls for a Status 
Convention, a bipartisan commission, with Members of the House and the 
Senate and with representation from the executive branch will be 
created with the specific duty to have dialogue and negotiations with 
the delegates of the different status alternatives. The Negotiating 
Commission will have to answer and clarify many of the legal, 
constitutional, language, cultural and economic questions that for more 
than a hundred years our people have attempted to answer, but Congress 
has failed to address. Is Congress willing to accept as a state a 
nation with Spanish as the official and only language in the state 
courts, legislature and public schools? What effect will federal income 
taxation have on the economy and the budget of the government of the 
``State of Puerto Rico? Can the state of Puerto Rico keep the triple 
tax exemption that the current bonds (and that are being renegotiated 
right now) enjoy? Under what constitutional underpinnings can a non-
territorial Estado Libre Asociado be established? What agreements 
regarding U.S. citizenship can be established under free association? 
What transition agreement toward independence is Congress willing to 
offer? How will all the status alternatives be affected or impacted by 
the undergoing process established by PROMESA and the restructuring of 
the debt? H.R. 2070 has for the first time established a process that 
could finally give the people of both our countries the necessary 
answers we deserve.
    After the negotiating process, the members of the Status Convention 
will deliberate and present to the people the different options for a 
vote. This will be the first time that we will vote on status options 
with clear information of what Congress is willing to offer and what 
are the consequences of the different options. Everything will then be 
in the hands of Puerto Rico. Under H.R. 2070 the people will freely 
vote two times, initially to elect the members to the Status 
Convention, and later to select their preferred status option. The only 
limitation imposed by H.R. 2070 is that any definition put forward by 
the Negotiating Commission and presented to the people for a vote must 
be outside of the territorial clause of the U.S. Constitution. That 
will guarantee that we will really put Puerto Rico on the path for 
decolonization.
    The first time I testified before this Committee on this issue of 
the status of Puerto Rico was in 1997. I have lost count how many times 
I have walked the halls of Congress over the last 30 years to discuss 
different bills on this important issue. All prior attempts have failed 
precisely because they had no consensus in Puerto Rico and were based 
on the agenda of the Puerto Rico statehood party to tilt the process in 
their favor. During that same period, the statehood party has called 
for plebiscites in Puerto Rico, without any federal support, in five 
occasions (1993, 1998, 2012, 2017 and 2020). Those local initiatives 
have failed for the same reason.
    Puerto Ricans deserve that this time be different. The U.S. 
Congress and the Biden Administration have a moral, legal and political 
responsibility to enact H.R. 2070. Before us today are two paths. One 
that will repeat the same mistakes of the last 30 years. Or we can 
finally try a different approach. One that is inclusive, and unbiased 
toward any alternative. The Puerto Rico Self Determination Act of 2021 
is a creative, inclusive and fair process that avoids the mistakes of 
the past and offers a new way forward. The path toward decolonization 
is not going to be easy. But it has to start now. I urge this Committee 
to approve H.R. 2070.

                                 ______
                                 

    The Chairman. Thank you, sir. Let me now introduce the 
Honorable Maria de Lourdes Santiago, Senator of the Puerto Rico 
Independence Party. Senator, the time is yours.

   STATEMENT OF THE HON. MARIA DE LOURDES SANTIAGO, SENATOR, 
     PUERTO RICO INDEPENDENCE PARTY, SAN JUAN, PUERTO RICO

[The following statement and answers were delivered through an 
interpreter.]

    The Chairman. Gracias. Over to the interpreter.
    Ms. Santiago. Mr. Chairman and members of the Committee, at 
the outset, it is important to put this hearing in its right 
context. We are here today because of the refusal by the United 
States to exercise its responsibility toward Puerto Rico, the 
territory it claimed 123 years ago as a war booty.
    The continuance of the U.S. colonial domination of our 
nation, notwithstanding the many occasions and diverse methods 
by which we have demanded an end to colonialism, contravenes 
both legal and historical mandates, provoking a situation that 
is oppressive for us and shameful for the United States. 
Regarding the status problem, Puerto Rico has been the victim 
and the United States the perpetrator.
    The only serious initiative undertaken by Congress to 
promote the exercise of the right to self-determination by the 
Puerto Rican people was the consideration between 1898 and 1991 
of the Johnston Bill. Though it was defeated, there was three 
important outcomes that deserve careful examination by this 
Committee: the impossibility, recently ratified by the three 
government branches of the U.S. Government, to upgrade the 
existing colonial status to a truly bilateral relation amongst 
equals; the need to elaborate a transition plan for 
independence; and, finally, the resistance to make an offer of 
statehood to a Caribbean and Latin American nation in which the 
vast majority of the population, even those who favor 
annexation, do not think of themselves as Americans. And many 
of those that promote statehood wield as the main reason for 
their political aspiration their ambition to perpetuate the 
financial dependence on Federal funds.
    Of the two bills before this Committee, only H.R. 2070 
provides the means to avoid a similar dead-end as the Johnston 
Bill. In contrast with H.R. 1522, H.R. 2070 contains the 
elements that make it a potentially effective instrument to 
promote decolonization by enabling the Congressional Bilateral 
Negotiating Committee included in the bill to answer the 
essential question as to what Congress is really willing to 
offer Puerto Rico.
    Contrary to the case of Washington, DC, Puerto Rico is 
financially bankrupt as a result of the failure of the colonial 
relationship. Neither is there an overwhelming support for 
statehood in Puerto Rico. On the contrary, we are deeply 
divided as to our future relation with the United States. More 
importantly, the national identity of the inhabitants of 
Washington, DC, is unmistakably American, and in this critical 
respect, indistinguishable from the residents of other states. 
That is not the case of Puerto Rico. Our nationality was forged 
and established before the U.S. invasion. And even after 123 
years of colonialism, most of the population does not have a 
working knowledge of the English language. Ours is not the 
struggle for full individual civil rights. It is one for the 
collective right to self-determination of a colonized nation.
    Furthermore, we are all aware that the leadership of both 
parties in the U.S. Senate have anticipated that H.R. 1522 is 
destinated to failure, which translates as another path to 
congressional inaction and to the continuation of the 
colonialism.
    Finally, we must emphasize that for H.R. 2070 to be 
successful, it is critically important that Congress be 
unyielding in its requirement that the status options be 
outside the Territorial Clause.
    The Puerto Rican Independence Party welcomes H.R. 2070 and 
looks forward to proposing modifications to the bill in order 
to improve its efficacy. The enactment of H.R. 2070 would 
represent a much-needed return to the principles that once 
guided the nation that first raised the flag for freedom and 
independence in America.

    [The prepared statement of Ms. Santiago follows:]
  Prepared Statement of Maria de Lourdes Santiago, Vice President and 
                Senator, Puerto Rican Independence Party
    Mr. Chairman and members of the Committee: We are here today 
because the United States has never exercised its responsibility toward 
Puerto Rico, the territory it acquired by conquest in 1898. Puerto 
Rico's status problem cannot be attributed to Puerto Rico. Puerto Rico 
has been the victim and the United States has been the perpetrator. 
Such an egregious breach of fiduciary duty throughout the 20th century 
and until today by a nation that thinks of itself as a beacon of 
democracy can only be described as stunning and shameful.
    It was the United States who demanded Puerto Rico as a war booty at 
the conclusion of the Spanish American War, and it has been--since 
then--the United States who has maintained Puerto Rico as a colony, 
subject to the plenary powers of Congress under the Territorial Clause.
    During the last 123 years the people of Puerto Rico--on innumerable 
occasions and by different methods--have requested that the United 
States put an end to the colonial regime in Puerto Rico. Yet, never 
once has the United States provided the people of Puerto Rico--a 
distinct Caribbean and Latin American nation--the opportunity to enter 
into a process that would permit the exercise of the right to self-
determination and independence as required by international law in 
order to put an end to colonial rule. This responsibility is incumbent 
upon the United States not only through the International Covenant on 
Civil and Political Rights which was ratified by the U.S. Senate in 
1992 and is part of the ``supreme law of the land'', but also by virtue 
of the United Nations General Assembly Resolution 1514 of 1960.
    The only serious congressional initiative in the direction of self-
determination was that undertaken from 1989 to 1991 (as the fall of the 
Berlin Wall put an end to the cold war) by Senator Bennet Johnston (S. 
712). It attempted to negotiate with the Puerto Rican leaders 
definitions and transition measures for different status alternatives 
such that a final vote by Puerto Ricans would take place between 
alternatives that had the prior approval by the Congress.
    After 2 years of intense work by various Senate committees and by 
the political parties in Puerto Rico (including the PIP), the bill was 
defeated in Senator Johnston's own Committee on Energy and Natural 
Resources.
    What happened in that failed attempt bears careful examination. For 
the Puerto Rican Independence Party the results were bittersweet. On 
the one hand there were three positive outcomes, all of which we had 
predicted and which amply justified our strong participation in that 
legislative process; on the other hand it turned out the bill was 
destined to fail.
    The first important outcome was that it became absolutely clear, 
especially to those who had hoped differently, that the existing 
colonial status of unincorporated territory (titled ``Commonwealth'') 
could not be upgraded to a truly bilateral relation amongst equals 
because Congress could not effectively abdicate any of its powers over 
Puerto Rico under the Territorial Clause unless it disposed of the 
territory, in which case Puerto Rico would be a separate sovereign.
    This conclusion was subsequently formally ratified in this century 
by the Congress, the White House under different administrations, and 
the Supreme Court.
    The second important outcome was the elaboration of an economic 
transition plan for the independence alternative that put to rest old 
mythologies which equated national liberation and Puerto Rican 
sovereign status to a form of collective suicide and as a recipe for 
isolation from the U.S. market and from the millions of Puerto Ricans 
who resided in the United States.
    The third decisive outcome of the Johnston process was that it 
quickly and clearly emerged that resistance to statehood (particularly 
in a bill that, at least initially, purported to be self-executing) 
would lead to the defeat of the bill, as it did. In the end the worry 
by most Republicans and many Democrats was that the inclusion of 
statehood in any plebiscite sponsored by the Congress would be 
interpreted as a commitment to granting statehood if it should win such 
a vote.
    These three outcomes are pertinent today. The problem with the 
Johnston initiative however was that its defeat only served to place 
the issue of Puerto Rico's status in the back-burner for 30 years thus 
assuring that the existing colonial relationship--ever more 
dysfunctional--continued by default.
    At this moment, if we are to avoid a similar outcome, it is 
indispensable for Congress to speak out openly in a clear and strong 
voice as to its true parameters concerning the future of its relation 
to Puerto Rico.
    Of the two bills before this Committee, H.R. 2070 is the only one 
that has the potential of promoting a process that will lead to 
decolonization. H.R. 1522, on the contrary, will lead us back to 
another dead end. H.R. 1522 will either not be brought to a final vote, 
at least in the Senate, and if it were, the leadership of both parties 
in the Senate have already anticipated their opposition. H.R. 1522 is 
therefore another path to congressional inaction and to the 
continuation of colonialism.
    The possibility of statehood is a pipe dream concocted by a toxic 
combination of colonialism induced dependency and insecurity in Puerto 
Rico (a tropical form of the Stockholm Syndrome), with the well-
intentioned but superficial sympathy of some U.S. liberals who believe 
that not to support statehood would be to think of Puerto Ricans as 
``non-deserving''. Thinking that to become a state of the U.S. is an 
exalted and privileged condition to which everyone should aspire, they 
don't want to be singled out as excluding Puerto Rico. What they forget 
or ignore is that Puerto Rico's problem is a colonial problem, not one 
of the equality denied to a minority under the laws and Constitution of 
the United States. While Puerto Ricans who live in the United States, 
being a minority, struggle for full individual civil rights, the 
problem of Puerto Rico is one of national liberation where the 
collective right to self-determination and independence of a colonial 
people is an inalienable and universally recognized human right.
    The comparison with Washington DC is illustrative of why the case 
for statehood for Puerto Rico cannot prevail, and why it is objectively 
contrary to the interests of the United States.
    DC is financially viable as a state, being a net contributor to the 
U.S. Treasury, and support for statehood is overwhelming. More 
importantly and this is crucial--the inhabitants of Washington DC are 
citizens whose cultural and national identity is American, who have no 
conflict of loyalties with the United States and are indistinguishable 
from the residents of the different states in this critical respect. 
There are no reasons of substance to exclude them from full 
participation at this period in history other than circumstantial and 
cynical considerations of partisan advantage.
    Puerto Rico, on the contrary, is financially bankrupt as a result 
of the failure of the colonial relationship, and deeply divided and 
wary of political integration. Those of us who believe in 
independence--and those to come--will continue our struggle under any 
circumstance and never renounce our inalienable right to independence. 
The immense majority of the population--including most who favor 
statehood--though U.S. citizens, do not think of themselves as 
Americans and allude principally to considerations of economic 
convenience as reasons to prefer statehood. More than two-thirds of the 
population (for complex reasons including historical resistance to 
foreign imposition) does not have even working knowledge of the English 
language.
    Puerto Rico, as a Caribbean and Latin American nation distinct from 
the United States, is a non-compatible donor to the organism of U.S. 
federalism: the opposite of Washington DC. The challenge before 
Congress in the case of Puerto Rico is to face up to these truths at 
the same time that it insists that colonialism in Puerto Rico must be 
terminated.
    H.R. 2070, in principle, and in contrast with H.R. 1522, contains 
the elements that make it a potentially effective instrument to promote 
decolonization by enabling the congressional leadership (through the 
Congressional Bilateral Negotiating Commission included in the bill) to 
answer the essential question of what Congress is really willing to 
offer Puerto Rico. Other than independence--which is an inalienable 
right and can never be off the table, even if Puerto Rico were a 
state--both statehood and a sovereign free association require the 
consent of Congress. Congress therefore has a right to grant or not to 
grant either statehood or a Treaty of Free Association, and to define 
their terms and conditions.
    Since the U.S., although it recognizes cultural diversity, is not 
and does not wish to be a multi-national federation, the Bilateral 
Negotiation Committee proposed by H.R. 2070 will inevitably lay out the 
truth--either directly or by imposing impossible conditions--regarding 
the possibility of statehood. Moreover, why would the U.S. admit a 
state that will become the problem Quebec represents for Canada, 
Scotland for the UK, or Catalonia for Spain? If marriage is not 
possible, the suitor, no matter how deluded, has a right to know as 
soon as possible.
    Furthermore, it is critical and indispensable that for H.R. 2070 to 
be successful Congress be unyielding in its requirement that the status 
options be outside the Territorial Clause. It must also, of course, 
chart out the alternatives of independence and sovereign free 
association in terms that do justice to Puerto Rico and that protect 
the legitimate interests of both countries by duly taking account of 
the consequences and entanglements of 123 years of enforced 
colonialism.
    In light of the above, the PIP welcomes H.R. 2070 and looks forward 
to working with the proponents and the Committee to make such 
modifications in the bill (including its Findings) that improve its 
efficacy and clarity as well as its opportunities for congressional 
approval.
    When Senator Johnston in 1989 brought up the question of self-
determination for Puerto Rico one can say--looking back--that the 
matter was important to the U.S. but it certainly was not urgent.
    Today, the reality is otherwise. This time Congress cannot afford 
to fail. Puerto Rico is constitutionally a failed colonial state; it is 
literally bankrupt, has 50% of the population under the poverty level, 
the lowest labor participation rate in the world, 15 years of 
continuous economic contraction, a rapidly diminishing population, and 
a growing sense of collective desperation.
    It is incumbent upon Congress to exercise its responsibility to put 
an end to colonialism and at last to promote and make possible the 
exercise of the right of self-determination of the Puerto Rican nation 
to which Puerto Rico is entitled. That is the historical debt owed by 
the United States to the People of Puerto Rico.
    It would also be a much needed return to first principles by the 
nation that first raised the flag of the struggle for freedom and 
independence in America.

                                 ______
                                 

    The Chairman. Thank you very much. Much appreciated. And 
let me now turn to our last witness. Let me recognize the 
Honorable Manuel Natal, President of the Citizens Victory 
Movement. Mr. Natal, the time is yours.

STATEMENT OF THE HON. MANUEL NATAL-ALBELO, PRESIDENT, CITIZENS 
            VICTORY MOVEMENT, SAN JUAN, PUERTO RICO

    Mr. Natal-Albelo. Thank you, Chairman Grijalva and members 
of the Committee. My name is Manuel Natal-Albelo. I am a former 
member of Puerto Rico's House of Representatives, and as of 
last Sunday, I serve as General Coordinator of Movimiento 
Victoria Ciudadana, a recently created, people-powered, 
community-oriented, progressive political party in Puerto Rico.
    I must stress from the outset that Puerto Rico has been a 
colony of the United States since 1898 and legally defined as 
an unincorporated territory, a possession but not part of the 
United States, under the plenary powers of Congress. Although 
Congress has reorganized the territorial government over the 
years, the colonial nature of the relationship has remain 
unchanged.
    Since 1898, Congress has never--let me repeat that again--
never consulted the Puerto Rican people in a binding plebiscite 
or referendum on whether to retain the present status, become 
independent, or a state of the Union. Having retained its 
plenary powers, Congress should assume its responsibility for a 
territory it claims as a possession, yet it has avoided doing 
so for 123 years.
    Today, we have an opportunity to change that. This 
Committee, and eventually Congress, is presented with a unique 
choice between two paths. The first path is one that we have 
traveled many times before. Plebiscites or referenda 
promulgated unilaterally and without consensus by a political 
party on the island, devoid of informed public deliberation, 
and usually designed to be slanted toward the outcome favored 
by the ruling party, the final results of which have lacked 
democratic legitimacy, whether the prevailing options receives 
97 percent of the votes or 0 percent of the votes. That path of 
exclusion and subordination is currently represented by H.R. 
1522.
    The second path is one that, although it has been 
historically promoted by diverse and well-respected groups in 
Puerto Rico, it has never been supported by Congress or by any 
previous administration in Puerto Rico. A binding self-
determination process, in which all non-colonial, non-
territorial options can compete on a level playing field, and 
in which the people of Puerto Rico get to cast an informed 
vote, and Congress must act upon the will of the majority. That 
path of inclusion and empowerment is currently represented by 
H.R. 2070.
    We choose the latter and urge Congress to do the same. We, 
a political movement that promotes real change in all aspects 
of our lives as Puerto Ricans, including ending the colonial 
relationship. We, the only political movement in Puerto Rico 
that has elected officials from all three non-colonial, non-
territorial options. That is statehood, independence, and some 
form of free association.
    How have we managed to achieve what the two-party system in 
Puerto Rico has not in more than 70 years? By focusing on 
finding common ground and not on how we can cancel each other's 
efforts on the status question.
    In this particular case, we have focused on building a fair 
and inclusive process, rather than trying to predetermine the 
outcome. This is why we propose and support the Constitutional 
Status Convention, Asamblea Constitucional de Status, as the 
best means for decolonizing Puerto Rico.
    Puerto Ricans, yes, are U.S. citizens. But we are also a 
nation, a people with our own identity and culture under U.S. 
colonial rule since 1898. Sometimes these facts generate 
confusion.
    Should Puerto Rico aspire to become a state of the Union? 
Should they become independent? Should they become a sovereign 
freely associated state with the United States? A democratic 
response from the U.S. Congress should be that it is for them, 
not us, to decide. The first step in that process shall be done 
by ourselves, los puertorriquenos y las puertorriquenas, in a 
true, binding exercise of self-determination.
    We are ready to do our part. It is your moral 
responsibility to fulfill yours. Thank you very much.

    [The prepared statement of Mr. Natal-Albelo follows:]
    Prepared Statement of Manuel Natal-Albelo, General Coordinator, 
                       Citizens Victory Movement
    My name is Manuel Natal-Albelo, a former member of Puerto Rico's 
House of Representatives and as of last Sunday, the General Coordinator 
of Movimiento Victoria Ciudadana (Citizens Victory Movement), a 
recently created, progressive, people-powered, and community-centered 
political party in Puerto Rico. I was invited by the Committee to 
testify before the Full Committee Legislative Hearing on H.R. 1522, 
``Puerto Rico Statehood Admission Act'' and H.R. 2070, ``Puerto Rico 
Self-Determination Act of 2021''.
    I must stress from the outset that Puerto Rico has been a colony of 
the United States since 1898 and legally defined as an unincorporated 
territory, a possession but not part of the United States, under the 
plenary powers of Congress. Although Congress has reorganized the 
territorial government over the years leading up to the creation of the 
present Commonwealth status in 1952, the colonial nature of the 
relationship has remained unchanged. Since 1898, Congress has never 
consulted the Puerto Rican people in a binding plebiscite or referendum 
on whether to retain the present status, become independent, or a state 
of the Union. Having retained its plenary powers, Congress should 
assume its responsibility for a territory it claims as a possession. 
Yet, it has avoided doing so for 123 years.
    Today we have an opportunity to change that. This Committee, and 
eventually, Congress, is presented with a unique choice between two 
paths. The first path is one that we have traveled many times before: 
plebiscites or referenda promulgated unilaterally and without consensus 
by a political party on the island, devoid of informed public 
deliberation, and usually designed to be slanted toward the outcome 
favored by the ruling party, the final results of which have lacked 
democratic legitimacy, whether the ``prevailing'' option receives 97% 
of the votes or 0%. That path of exclusion and subordination is 
currently represented by H.R. 1522, the ``Puerto Rico Statehood 
Admission Act''. The second path is one that, although it has been 
historically promoted by diverse and well-respected groups in Puerto 
Rico, has never been supported by Congress, or by any previous 
administration in Puerto Rico: a binding self-determination process, in 
which all non-colonial non-territorial options can compete on a level 
playing field, and in which the People of Puerto Rico get to cast an 
informed vote and Congress must act upon the will of the majority. That 
path of inclusion and empowerment is currently represented by H.R. 
2070, the ``Puerto Rico Self-Determination Act of 2021''.

    We chose the latter and urge Congress to the same. We, a political 
movement that promotes real change in all aspects of our lives as 
Puerto Ricans, including ending the colonial relationship with the 
United States. We, the only political movement in Puerto Rico that has 
elected officials from all three non-colonial non-territorial options. 
That is: statehood, independence, and some form of free association. 
How have we managed to achieve what the two-party system in Puerto Rico 
had not in more than 70 years? By focusing on finding common ground and 
not on how we can cancel each other's efforts on the status question. 
In this particular case, we have focused on building a fair and 
inclusive process, rather than trying to predetermine the result. This 
is why we propose the Constitutional Status Convention (Asamblea 
Constitucional de Status in Spanish) as the best means for decolonizing 
Puerto Rico. Our proposal provides for the following course of action:

  1.  The Legislature of Puerto Rico will call a Status Convention 
            (SC).

  2.  The People of Puerto Rico will elect delegates to the convention, 
            representatives of all three non-colonial non-territorial 
            options (statehood, independence, and some form of free 
            association).

  3.  The delegates will draft definitions on self-determination 
            options for Puerto Rico, which shall be outside the 
            Territorial Clause of the United States Constitution, and 
            will draft transition plans for each self-determination 
            option.

  4.  These self-determination options and the transition plans will be 
            negotiated with Congress, and the results of this process 
            will be binding upon Congress.

  5.  The People of Puerto Rico will vote for all the self-
            determination options drafted by the Convention and adopted 
            by Congress in a referendum. The winning option will be 
            enacted. If in the first referendum no option obtains more 
            than 50% of the vote, a second-round will be held between 
            the two options that obtained the most votes in the first 
            round.\1\
---------------------------------------------------------------------------
    \1\ We note that H.R. 2070 promotes the use of ranked-choice voting 
for the final referendum, and we recognize that it is another 
legitimate electoral mechanism for reaching a majority mandate on a 
self-determination option.

    As proponents of the Constitutional Status Convention as a means of 
exercising our right of self-determination, we reject the argument made 
by some that this mechanism places the solution of the status question 
in the hands of a minority or a few people or in ``small rooms'' and 
not in the hands of the people. With this process, the People of Puerto 
Rico elect the delegates to the Status Convention, and the people, 
through a referendum, also determine which self-determination option 
they prefer. Nobody decides for the people. The delegates to the 
Convention have the task of elaborating the options to be presented to 
the people in a referendum. This is the task performed in the past by 
the legislators who drafted the legislation for the five previous 
status plebiscites conducted in 1967, 1993, 1998, 2012, and 2017. In 
our case, we propose that this task be carried out by a special body, 
the Constitutional Status Convention, elected for that specific 
purpose, in negotiation with Congress, and the people will vote at the 
end of the drafting and negotiation process.
    Thus, we oppose H.R. 1522, ``Puerto Rico Statehood Admission Act''. 
Puerto Rico's colonial condition requires a fair and inclusive self-
determination process in line with international law that considers all 
non-colonial, non-territorial options, and not merely an admission 
bill. On the other hand, we are optimistic about the proposals included 
in H.R. 2070, ``Puerto Rico Self-Determination Act of 2021''. It is 
high time for Congress to recognize the right of self-determination for 
the People of Puerto Rico and act expeditiously to put an end to the 
existing colonial relationship.
    Puerto Ricans are U.S. citizens as well as a nation, a people with 
their own identity and culture, under U.S. colonial rule since 1898. 
Sometimes these facts generate confusion regarding Puerto Rico's 
relation with the United States. Should Puerto Ricans aspire to become 
a state of the Union? Should they become independent? Should they 
become a sovereign freely associated state with the United States? A 
democratic response from the U.S. Congress should be: that is for them, 
not us, to decide. The first step in that process shall be done by 
ourselves, las puertorriquenas y los puertorriquenos, in a true, 
binding exercise of self-determination.

                                 ______
                                 

    The Chairman. Thank you very much, and let me thank the 
witnesses for their testimony, and we will go to questions now. 
Under Committee Rule 3(d), it imposes a 5-minute limit on the 
questions by Members, with the noted exception that I made 
regarding the sponsor of the legislation, Mr. Soto, who didn't 
have an opportunity at the beginning to speak to his 
legislation.
    The Chair reminds Members that under the Chair's right of 
recognition, as described in Committee Rule 3, will provide 
some reasonable additional time for any Member that has a 
question for Senator Maria de Lourdes to account for the 
interpreter.
    The Chair will now recognize Members for any questions they 
may wish. And on the Majority side, that process is going to be 
by seniority. On the Minority side, it is the names that were 
submitted to us by the Minority, in that sequence.
    I will forego at this point my initial questioning and 
recognize Mr. Costa. I will alternate back and forth for his 5 
minutes. Mr. Costa, the time is yours. Mr. Costa?
    Let me now recognize, in order of seniority, the next 
Member, Vice Chair of Consumer Affairs as well, Mr. Sablan. 
Sir, the time is yours.
    Mr. Sablan. Chairman Grijalva, thank you very much, and I 
want to thank all of the witnesses for their testimony. I have 
learned enough over the years that I will stay out of Puerto 
Rico's political status issues. I will stay away from this 
until when I have no choice but to cast the vote in Committee.
    I yield back. Thank you.
    The Chairman. Let me now recognize the Ranking Member of 
the Full Committee, Mr. Westerman. The floor is yours. Mr. 
Westerman, you are recognized.
    We will go back to Mr. Westerman when he connects with us.
    Let me now recognize the gentleman, Mr. Hice, for your 
time. Sir, you are recognized.
    [No response.]
    As recommended by the Minority, let me now recognize Miss 
Gonzalez-Colon for her 5 minutes. Miss Gonzalez, you are 
recognized.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman. First of all, 
I want to say thank you again to all the witnesses that are 
here with us today, and I want to say thank you to the Governor 
of Puerto Rico for traveling to DC.
    My first question is going to be for him. Many people are 
saying that the statehood votes in November of last year were 
not enough or the percentage was not big enough to establish 
the vote for the decision of the people of the island. And I 
just want to point out that 52 percent of the vote was for 
statehood, which is an absolute majority, and just 47 percent 
against. It is almost 5 percent difference.
    And if we compare that to the result of the general 
election in the United States where President Biden got elected 
by 51 percent versus 46 percent, I think it is less than 4.4 
percent, which means that for some people elections in the 
United States were a landslide or bigger margin, but those 
margins are not good enough for the people of Puerto Rico to 
establish their vote for statehood.
    I think that is something that the Governor of Puerto Rico 
is the only one elected to pursue the will of the island. And I 
want just to say on the record the status of statehood got more 
votes than any elected official, the Governor, myself, mayors, 
and state legislators. So, that is something that even between 
party lines on the island statehood got more votes than anyone 
else.
    Governor, do you think the percentage to support statehood 
and the mandate that you have--the request of the state, of the 
Governor of Puerto Rico to Congress for statehood was made as 
an official petition last year. Do you support that?
    Governor Pierluisi. Yes. Thank you, Resident Commissioner. 
As in any democracy, in Puerto Rico the majority rules. That is 
how democracies work across the world. To put this in context, 
I publicly have been calling for an up-or-down vote on 
statehood for years. And the reason was that I realized that 
the plebiscites we had been conducting, providing multiple 
options for the public, for the people of Puerto Rico, were not 
working, and let me explain why.
    Always you had a sector, a faction of Puerto Rico 
complaining that the options were not inclusive, that we had 
left out one option or another, that the options were not well 
defined. It is the never-ending story. That beauty or wisdom of 
an up-or-down vote, in this case for statehood, but it could 
have been for the current territorial status, it could have 
been for independence, it could have been for free association, 
the beauty or wisdom of this vote is that it is all-inclusive. 
All those who support statehood could say yes, and all those 
who oppose statehood, for whatever reasons--they support 
another option or they are not yet ready for Puerto Rico to 
become a state--could say no, and that is precisely what 
happened here.
    Puerto Rico had no offer from Congress. There was no 
Federal legislation providing for this plebiscite. But in 
accordance with the principle of self-determination, Puerto 
Rico always has the right to conduct a plebiscite or a 
referendum like we did. And there was no boycott this time 
around, and we got an absolute majority against all odds. Even 
the Justice Department under the Trump administration objected 
to this vote. And even then the people requested statehood, so 
the least that Congress should be doing is responding to this 
vote, answering to this vote.
    And your bill, Resident Commissioner, Congressman Soto's 
bill, is the right approach. Again, it does what Hawaii and 
Alaska did; it basically tells us, tells the people of Puerto 
Rico, this is statehood. These are the terms and conditions: 
Hold a referendum; if you ratify it, the President will 
proclaim it, and it provides for a year-period for a 
transition.
    So, I fully support your bill. It is democratic. It is fair 
because, again, all those for statehood will have a chance to 
support it, and all those against, for whatever reason, will be 
able to say no.
    Miss Gonzalez-Colon. Thank you, Governor.
    I yield back.
    The Chairman. Thank you very much. Let me recognize 
Chairman Huffman for your 5 minutes of questions, comments. 
Sir, you are recognized.
    Mr. Huffman. Mr. Chairman, I simply want to say hello to 
our dear friend and former colleague, Governor Pierluisi. It is 
great to see you again. Pedro, we miss you at the Natural 
Resources Committee, and I want to thank everyone for this 
great discussion. It has certainly helped me prepare for what I 
hope will be an important and helpful vote in the weeks and 
months ahead.
    Governor Pierluisi. Thank you.
    Mr. Huffman. I yield back.
    The Chairman. Mr. Young.
    Mr. Young. Mr. Chairman, I thought Mr. Huffman had 
something to say. I am up?
    The Chairman. You are up, sir. Thank you.
    Mr. Young. Thank you, Mr. Chairman. And thank you, 
Governor, and all of the witnesses. This is an issue I have 
been involved in for many, many years. We had the Young bill 
that did pass the House one time by one vote. I am proud of 
that. And, of course, I believe in statehood. I believe in 
Jenniffer's bill. I think it is time--as far as the plebiscite, 
we have three of them. Each time I believe we have actually 
been victorious in the sense of being a state. It is long 
overdue.
    You know, we talk about this all the time, but I am part of 
that. Puerto Rico was supposed to be a state after Alaska, even 
before Alaska. And because of circumstances, the delegates who 
were in Congress at that time, we came by and then, of course, 
instead of Puerto Rico becoming a state, Hawaii became a state. 
Anybody there from Hawaii, I apologize, but it was the wrong 
pecking order.
    Now, I think Puerto Rico has a decision to make. They have 
said before, and I think we ought to keep going. I like 
Jenniffer's bill. I don't expect anybody else has another bill, 
but let's not take and plow fields that have been plowed 
before. The people have spoken. Let's have the vote. Let's 
become a state, the 51st state.
    And although I have some opposition on my side about they 
will all be Democrats, they said the same thing about Alaska, 
and now we are all Republicans. So, everybody has the right to 
decide what they are going to be, but don't rethink what they 
are going to be because it doesn't work out that way. Hawaii 
was supposed to be Republican.
    So, Mr. Chairman, and Jenniffer, and all of the people 
involved, you have a person here who is going to work very hard 
with you to try to achieve the goals of what this bill really 
tries to do.
    Governor, very frankly, do you think that H.R. 2070 ignores 
the will of the voters of Puerto Rico?
    Governor Pierluisi. Of course not. Congressman Young, are 
you referring to H.R. 1522 or H.R. 2070?
    Mr. Young. H.R. 2070.
    Governor Pierluisi. The problem with H.R. 2070 is the 
following: it clearly ignores the vote that just happened. And 
when I hear people talking about that that wasn't a fair vote, 
that it wasn't inclusive, what are they talking about?
    By definition, by design, it couldn't be fairer. It 
couldn't be more inclusive, because a yes-or-no vote allows 
everybody to express themselves. And that is what happened in 
Puerto Rico. All of those now opposing H.R. 2070, or at least 
most of them, campaigned against statehood before the 
plebiscite in Puerto Rico.
    They had to turn it back, and they can now continue 
lobbying Congress against it. But they shouldn't be stopping 
this process from happening because Congress should be 
responding. Congress should be allowing this process to go 
forward, not start a whole new process, providing for the 
election of delegates, a bipartisan or joint commission that is 
going to engage in a dialogue with these delegates to talk 
about options that nobody knows what we are talking about, 
including non-territorial options other than statehood and 
independence, which is clearly unconstitutional.
    That definitely is a never-ending story. It has no 
deadlines on it, and actually it has constitutional problems 
because it is only Congress that can offer any status to Puerto 
Rico or bind itself to offer any status. Congress has never 
appointed a commission that all of a sudden speaks for Congress 
and binds Congress in terms of particular status options for 
Puerto Rico.
    One option, one undeniable option, is statehood. I agree 
that independence is an option. I say it with respect. I agree 
that Puerto Rico could try to negotiate or have a compact or a 
pact of free association, such as the one that Palau and the 
Marshall Islands have. Those are options, I agree, but those 
options have never gotten majority support in Puerto Rico.
    And if anybody wants to hold an up-or-down vote on them, I 
welcome them to do it, because they will end up getting a very 
small vote on them. Statehood has the majority support in 
Puerto Rico, and it only will grow if Congress offers it to the 
people of Puerto Rico and subjects it to a vote once again by 
the people of Puerto Rico.
    Mr. Young. Thank you, Governor, and you spoke very well 
about it. It was what I was going to say, but you said it so 
well. Thank you for your support and for testifying before the 
Congress.
    Mr. Chairman, if I have any time left, I will yield it to 
the Congresslady, Miss Colon. And with that I yield back.
    The Chairman. Unfortunately, Mr. Young, you have no time 
left. But I am sure she appreciates the gesture, and thank you.
    Let me now turn to and recognize Chairman Lowenthal for any 
questions or comments that he might have.
    Sir.
    Dr. Lowenthal. Thank you, Chairman Grijalva. And before I 
actually get into this debate, I just wanted to send to you and 
to the family and your staff member, Mr. Lofgren's family, my 
sincerest condolences. I know this is a difficult time 
suddenly, the loss, and I just send my best wishes and my 
sadness for what you are going through.
    The Chairman. Thank you, sir.
    Dr. Lowenthal. I am here to listen. I don't really have too 
many questions. I am trying to understand and I think it has 
been an excellent hearing providing the alternatives.
    The only questions that I have may be for Governor 
Pierluisi. And I think also it is good to see you back on the 
Natural Resources Committee as one of the old timers. Glad to 
see you, as Jared also mentioned.
    Governor Pierluisi. Thank you.
    Dr. Lowenthal. I just want to know, from your point of 
view, you have made your case I think because the will of 
Puerto Ricans is that the majority have voted for statehood 
now, and that is what they want. What are the consequences if 
we wait longer to resolve the status? If the Congress does not 
act, do you have any idea what is going to happen? What are 
some of the consequences of not acting?
    Governor Pierluisi. Yes, I will tell you. I live through 
them right now as Governor. And I know Resident Commissioner 
Jenniffer Gonzalez suffers through them every day in her tenure 
in Congress.
    I tell you, Jenniffer Gonzalez is doing a remarkable job as 
a Resident Commissioner. She is only one, and she doesn't have 
a vote on the Floor. I know what she has to go through when she 
is seeking support for Puerto Rico, for the Medicaid Program, 
for the SSI Program, for our nutrition assistance.
    She needs to go and talk to all of you and use her 
persuasion, her personality, to convince you to go along with 
her, because she cannot vote on your bills. She cannot 
negotiate, like get this done in Congress every day, on our 
behalf. And she is only one in the House. Because of the size 
of our population, we would have two Senators and four 
Representatives at bat for us, for Puerto Rico. And I know that 
would make a difference.
    We suffered a huge hurricane. We went through a huge 
hurricane back in 2017. We went through incredible earthquakes 
early in 2020. And now we are facing the pandemic. And we went 
through all of that, and unfortunately, when the time came to 
assist Puerto Rico, using existing disaster management programs 
of the Federal Government, we were facing all kinds of 
requirements that states do not face, because it is so easy to 
treat Puerto Rico differently.
    Actually, the Supreme Court has said that Congress can 
treat us differently, that the Federal Government can treat us 
differently. Our request is always treat me the same. We are 
American citizens. Give me the same treatment in all Federal 
programs, and give me representation in the Congress that 
approves the laws that affect me on a daily basis. Allow me to 
vote for the President. Allow me to vote for the Commander in 
Chief.
    Our men and women are wearing the military uniform, are 
losing their lives on behalf of this nation, yet when they come 
home they have no say in our democracy. That is the quandary. 
That is the fight, and definitely we want to put an end to it.
    And I say this again with respect, I say it with respect 
because the situation of Puerto Rico is not the same as the 
other territories. Because of our size, because of everything 
that we have been dealing with in the past, and because of the 
vote that just happened, we need to address this issue and do 
it for the benefit of all, for the benefit of the nation at 
large, and for the benefit of Puerto Rico. And let's do it 
fairly. Let's hold it for a vote once again. We just held a 
vote. Let's have another one once Congress offers equality--
statehood--to the American citizens of Puerto Rico.
    Thank you.
    Dr. Lowenthal. Thank you. And I yield back, Mr. Chair.
    The Chairman. Thank you, Mr. Lowenthal. And thank you for 
your kind comments. I appreciate it very much.
    Let me now recognize the gentleman from Arizona, Mr. 
Gallego--no, excuse me. Let me recognize the Ranking Member of 
the Full Committee, Mr. Westerman, for your comments.
    Sir.
    Mr. Westerman. Thank you, Chairman Grijalva, and also a big 
thank you to all of the witnesses. This is a very informative 
hearing that we are having today, and it seems to me it is 
obvious we have two proposed processes to move forward. And it 
is great to be able to put those two processes side by side and 
to debate the merits of each one.
    Dr. Ponsa-Kraus, according to Representative Velazquez's 
summary of H.R. 2070 on our website, where she talks about the 
status convention, there has been a lot of talk about how there 
are three options to consider: statehood, independence, or free 
association. But the status convention offers a fourth option, 
or actually I would say a Pandora's Box of options. And you say 
in your testimony that there are only three options, and no 
room for other options. Will you explain that again?
    Dr. Ponsa-Kraus. Yes, of course. Thank you for the 
opportunity to explain it. My emphasis, and the emphasis you 
have heard from other speakers, on the fact that there are 
only--I said two options, but you are right that there is one 
that is described as a third--it is statehood and independence, 
with or without free association. So, let's call them three: 
statehood, independence, and free association.
    Free association is a form of independence. And the reason 
it is so critical to emphasize that is because the people of 
Puerto Rico were led to believe that there was another 
alternative. It was non-territorial, and that turned out not to 
be true. And what is so urgent is for the people of Puerto Rico 
not to be led along, not to be misled, not to be offered 
options that they can't have. That doesn't respect them or the 
process of self-determination.
    So, to say you can't have this is not to disrespect them. 
To say you can't have this is to respect them. So, that option 
that they were offered repeatedly that was not constitutionally 
possible was non-territorial commonwealth.
    And let me just try to explain, what are the stakes of this 
debate? I think one statistic, one figure that has been lost in 
all of this--I don't think I have heard this--is that Puerto 
Ricans have had an overwhelming consensus, and I am talking on 
the order of 90 percent, for decades, since the mid-20th 
century.
    Those same 70 years we have had a consensus that people 
want to remain U.S. citizens and have a guarantee of 
citizenship for themselves and their posterity, and they want 
some form of union with the United States, which is absolutely 
consistent with being Puerto Rican.
    Mr. Westerman. Do you believe that----
    Dr. Ponsa-Kraus. We want these two things. And if you want 
a union with the United States and citizenship for yourself and 
your posterity, well, then, statehood is your only option 
because the other options don't guarantee you either of those 
things. So, that is what this debate is all about. How do we 
maintain citizenship for ourselves and our posterity and a 
union with the United States? If there were other ways to do 
it, that would be OK.
    And I, too, want to say what the Governor said. I respect 
the option of independence. I respect the option of free 
association. But I also respect the expression of the Puerto 
Rican people's desire for a union with the United States of 
some form and guaranteed citizenship for themselves and their 
posterity. And if that is what they want, then it respects them 
at the very least to offer statehood, which is all the 
Admission Act does. It offers them statehood.
    Mr. Westerman. Thank you. And Section 6 of H.R. 2070 binds 
Congress to pass the joint resolution in the future. I know you 
are a constitutional lawyer. Can Congress bind itself to pass a 
joint resolution in the future?
    Dr. Ponsa-Kraus. No, it cannot. That is yet another promise 
that shouldn't be made to Puerto Ricans because Congress can't 
bind itself to pass a joint resolution in the future. So, H.R. 
2070 says Congress shall enact a joint resolution ratifying the 
people's choice in a referendum following the Constitutional 
Convention.
    That sounds, once again, like you are giving them what they 
want. You are hearing them out, and then you are giving them 
what they want, and you are promising to do it. But Congress 
shouldn't make promises to the Puerto Rican people that it 
can't keep.
    Mr. Westerman. Well, what would happen if the bill passed, 
the Convention puts forward options, the people vote, and then 
send an option to Congress; would Congress have to act?
    Dr. Ponsa-Kraus. Congress would not have to act. So, if the 
people choose a constitutional non-territorial option, Congress 
should act, but Congress wouldn't have to act and that ought to 
be clear as well.
    Mr. Westerman. Do you think this bill would be or is 
misleading to the Puerto Rican people?
    Dr. Ponsa-Kraus. It is. It invites them to debate options 
that they can't have, along with the ones they can. It invites 
them to debate options that they can't have, that they have 
already debated, that we know are unconstitutional. And then it 
invites them to send that choice to Congress and promises 
Congress will act when Congress can't promise to do that. The 
Puerto Rican people have been led along long enough.
    Mr. Westerman. Thank you, Dr. Ponsa-Kraus. I am out of 
time, so I yield back.
    The Chairman. Thank you, Mr. Westerman. I am going to now 
recognize the gentleman from Arizona, Mr. Gallego, for your 
time.
    Sir.
    Mr. Gallego. Thank you, Mr. Chairman. It weighs on my mind 
knowing right now that President Biden is talking about our 
movement out of Afghanistan, and of course, reminds me that 
there have been a total of 77 Puerto Ricans from down in Puerto 
Rico that have died both in Iraq and Afghanistan as well more 
than 1,700 injured.
    So, this is actually very important to me. I've never 
understood why the Puerto Ricans I served with were treated as 
second-class citizens and that their citizenship could be 
decided by their zip codes. And I am very happy to see that we 
are at least having a debate about where and how we should 
proceed with the statehood question of Puerto Rico.
    I do find it odd that some Democrats are arguing that this 
last election, that Puerto Rico had a referendum is somehow 
illegitimate after we just had a huge January 6 fight with our 
colleagues across the aisle who are trying to call that 
election illegitimate. I think that is something that I don't 
know how we can reconcile. The referendum that was put forward 
was put forward by duly elected members of the Statehouse of 
Puerto Rico, that's a language, it was supported. I don't 
understand where somehow there's a mandate that has to be hit 
by a number that is above, I guess, that 52 percent is not 
acceptable somehow in normal American mainland politics. If you 
get fifty plus one, that's a mandate. Heck, sometimes we've had 
presidents that have not even hit 50 percent of the population 
and they have the popular vote and they have won. Yet, we have 
considered that a mandate.
    And now, the other argument I'm hearing that also does not 
make sense, there are multiple parties that were elected last 
cycle to the Statehouse and State Senate. I understand that, 
but I also know Puerto Rican politics is not just about 
statehood and about statehood questions. There are a lot of 
other reasons why people vote for different members of the 
Statehouse and State Senate over there, and it is not just 
statehood.
    And lastly, just as an Arizonan, the 48th state that did 
get accepted into Congress, if we were living by the standard 
right now, I'm actually fighting in Arizona to preserve 
Proposition, I think, 108, which is a tax increase the majority 
of Arizonans voted for, but the Arizona legislature actually is 
controlled by Republicans, and their argument is, well, the 
Arizona legislature is a better reflection of what truly 
Arizonans want instead of the referendum that we passed.
    So, it would be extremely hypocritical of me to somehow use 
those two standards. Number 1, the fact that we had a free and 
legitimate election last time and it should not have been 
questioned by our colleagues across the aisle. And Number 2, 
that the Arizona State Legislature should be listening to the 
will of the voters and then somehow turn and not support this.
    So, that's my general statement. I'd also like to talk to 
Professor. And I apologize, my screen is going a little blank 
in terms of names here. Professor, what is your name? I 
apologize.
    Dr. Ponsa-Kraus. Ponsa-Kraus.
    Mr. Gallego. Thank you, Professor. So, the argument here is 
that we need to restart it, right? We need to restart this by 
pulling delegates together and then putting a constitutional 
convention together. What states actually did that in the past?
    Dr. Ponsa-Kraus. Well, no states did anything like this in 
the past.
    Mr. Gallego. OK.
    Dr. Ponsa-Kraus. Yes.
    Mr. Gallego. Thank you for answering that question.
    Dr. Ponsa-Kraus. I mean, if you're referring to the process 
provided for in H.R. 2070?
    Mr. Gallego. Yes.
    Dr. Ponsa-Kraus. Yes. No territory did anything like this 
because no territory had this range of options and confusion 
and this long a debate about an option that turns out not even 
to have been constitutional. We spent 70 years arguing about 
it. There's no precedent for this.
    Mr. Gallego. Yes, OK. And even if it was even remotely 
possible that this could work out, it doesn't have a time 
period. It doesn't sound like there is a definitive time period 
that this has to be decided. So, let's say they go through 
these elections, they elect their delegates. It sounds like the 
delegates get elected by popular vote I'm assuming. But when 
does a decision have to be made? Let's say they get the popular 
vote, delegates get selected. Is there a time period? Like, is 
there a year, 2 years? What are we talking about? Could this go 
indefinitely?
    Dr. Ponsa-Kraus. H.R. 2070 does not contain any time limit 
either for the terms of the delegates or for the convention to 
produce a result. In fact, I can't tell you how my heart sank 
when I read the requirement that certain reports be submitted 
every 12 months. I thought, really, 123 years isn't enough?
    Mr. Gallego. Yes. And then even how they come to a 
decision, is that defined? I mean, is it like, let's say for 
some reason the statehooders receive the majority of the votes 
and delegate votes. Can they just quickly call a convention 
together and say, OK, we're good, let's do this?
    Dr. Ponsa-Kraus. The bill doesn't explain exactly how the 
convention itself would go about the process of debating.
    Mr. Gallego. Right.
    Dr. Ponsa-Kraus. And I certainly am a believer in all 
voices being heard, but I believe that all voices were heard in 
the referendum as well.
    Mr. Gallego. Right. And lastly, so again, just to be clear, 
has the U.S. Government ever dictated to a territory exactly 
what they need to discuss in order for them to come back and 
talk to us about joining the Union?
    Dr. Ponsa-Kraus. Well, what the U.S. Government has never 
done is sent people off--first of all, ignore a referendum in 
which a majority voted for statehood and say actually, no, we 
don't like the process you came up with; we want you to do 
something else and then call that self-determination. I mean, I 
can't put those two things together. How do you just ignore a 
vote on the island provided for by its own elected 
representatives and say no, actually, do this other thing 
because we respect self-determination.
    Mr. Gallego. Right. Self-determination to me means the 
local state representatives and senators decide to put a 
language on. When people voted for these state reps and state 
senators, they knew what they represented and then they got on 
there and it was the most popular thing that was voted on. So, 
I think if anything, this reeks of a sort of paternalism from 
us stateside Members of Congress. Why am I going to over-ride 
the local elected officials that are closest to democracy after 
they have clearly spoken? So, with that, I am fully in support 
of Representative Soto's bill, and I yield back my time.
    The Chairman. Thank you. The gentleman yields. Mr. Lamborn, 
you are recognized, sir.
    Mr. Lamborn. Thank you, Mr. Chairman. And this has been a 
very good discussion. I want to say hello to my former 
colleague and the governor of Puerto Rico, Governor Pierluisi. 
It was good to visit with you recently when I was in Puerto 
Rico. I visited with you and Delegate Jenniffer Gonzalez-Colon. 
And one thing about Jenniffer that I want to say, she's not 
expecting me to say this, but I was astounded by the affection 
and the effectiveness that she brings to the table as the 
delegate from Puerto Rico.
    I was in the Statehouse, the capital of the territory and I 
saw a row of oil portraits, former speakers of the general 
assembly there, and Jenniffer's picture was the last in the 
row, and I was very impressed with it. In fact, I took a 
picture, you can see it here on my phone. That's the oil 
portrait of the former speaker of the Puerto Rico legislature.
    I'm going to yield the rest of my time to my friend and 
colleague, Jennifer Gonzalez-Colon.
    The Chairman. Ms. Colon, you are recognized. The gentlelady 
is recognized.
    Mr. Sablan. Jenniffer, you are on mute.
    The Chairman. Thank you, Mr. Lamborn.
    Miss Gonzalez-Colon. Thank you. First of all, I want to say 
thank you, Mr. Lamborn. I mean, I'm humbled by your words and I 
really appreciate your willingness always to work with our 
Governor and everything you've been doing in the Committee. My 
gratitude to you for visiting the island and visiting certain 
places that are the jurisdiction of this Committee, like the 
national parks in terms of how they were recovering. Thank you, 
Mr. Lamborn.
    And I want to say thank you as well to Mr. Don Young, Mr. 
Lowenthal, and Mr. Gallego, who just made brilliant questions. 
And I will take it where you leave it. This question is to 
Professor Ponsa-Kraus. First of all, thank you for your 
willingness to be a witness here and to answer direct 
questions. My line of questions will now be yes or no, in terms 
of saving time, so if you can just tell me yes or no, I would 
really appreciate that.
    Will the Admission Act that Darren Soto and I submitted in 
this Congress impose statehood for Puerto Rico, would voters of 
the island always have the last say on that?
    Dr. Ponsa-Kraus. No, it will not impose, and yes, they will 
have the last say.
    Miss Gonzalez-Colon. Thank you for that. Some argue that 
the result of November of last year was an invalid or 
illegitimate mandate for statehood because the vote wasn't 
federally sponsored or sanctioned by Congress or the Department 
of Justice. Others claims that an absolute majority of 53 
percent isn't enough as Congressman Gallego just established. 
First question, are these constitutionally sound arguments, yes 
or no?
    Dr. Ponsa-Kraus. No.
    Miss Gonzalez-Colon. Does the U.S. Constitution require a 
specific level of majority support for statehood in order to 
admit a territory as a state?
    Dr. Ponsa-Kraus. No.
    Miss Gonzalez-Colon. Is it required to have a federally 
sponsored referendum as a prerequisite for Congress to act?
    Dr. Ponsa-Kraus. No.
    Miss Gonzalez-Colon. Did we have that requirement before 
for Alaska and Hawaii?
    Dr. Ponsa-Kraus. No.
    Miss Gonzalez-Colon. Was any other state required when they 
were a territory to have an absolute majority or a specific 
percentage to be admitted to the Union?
    Dr. Ponsa-Kraus. No.
    Miss Gonzalez-Colon. Should Puerto Rico require that?
    Dr. Ponsa-Kraus. No.
    Miss Gonzalez-Colon. Does our bill, the Puerto Rico 
Statehood Admission Act, address the concerns by authorizing a 
self-executing process that it will have ratified by voters. Do 
you think that is a self-executing bill? Yes or no.
    Dr. Ponsa-Kraus. The Admission Act? Yes.
    Miss Gonzalez-Colon. Do you think that H.R. 2070 is a self-
executing bill?
    Dr. Ponsa-Kraus. No.
    Miss Gonzalez-Colon. Do you think that it is a binding 
bill?
    Dr. Ponsa-Kraus. No.
    Miss Gonzalez-Colon. Do you think the Department of Justice 
declining to fund a campaign would disqualify or take out any 
legitimacy of the voters result in November of last year?
    Dr. Ponsa-Kraus. No.
    Miss Gonzalez-Colon. Thank you, Professor Kraus. With that, 
I yield back.
    The Chairman. The gentlelady yields.
    Mr. Lamborn. I yield back.
    The Chairman. Thank you, sir. Mr. Lamborn yields. Let me 
recognize the sponsor of the legislation, Ms. Velazquez. You 
are recognized. You need to turn off your mic, Jenniffer.
    Ms. Velazquez. Thank you, Mr. Chairman. First, I would like 
to address the issue of the binding nature of my bill. Section 
7, Joint Resolution outlines a serious and structured process 
for both chambers of Congress to act upon the results of the 
referendum that my bill proposes. And let me just say this to 
my colleagues in this Committee. This is not an election for 
president. It is not an election of a Member of Congress. This 
is an election about decolonization--123 years of imperialism 
by the United States. How do we morally put an end to 
colonization? How do we empower the people of Puerto Rico to 
finally decide what is the choice made by the people of Puerto 
Rico. Governor Pierluisi talked about how the percentage of 
votes are binding of Nydia Velazquez in my own district. This 
is not about that type of election. This is the most 
consequential act that will be taken by the people of Puerto 
Rico and the U.S. Congress.
    And let it be known to this Committee that the November 
2020 plebiscite was legislated, designed, and pushed by only 
one party in Puerto Rico, and that is the pro-statehood party 
that Governor Pierluisi represents. So, if we are honest and 
serious about providing a path for the people of Puerto Rico 
for all political sectors to be able to decide their own 
future, why are you so afraid? My bill doesn't preclude or 
exclude statehood. And if you are so assured that the outcome 
is going to be statehood, why then oppose a process that is 
inclusive, that is transparent, and that is democratic.
    I would like to address my first question to Governor 
Acevedo-Vila. Could you please explain to the members of the 
Committee the steps that have historically taken place in 
Puerto Rico to design and implement the previous plebiscites? 
Could you explain to us the context on how the 2020 plebiscite 
came into existence, and if any voices from the opposition were 
taken into consideration?
    Mr. Acevedo-Vila. Well, the short answer, Congresswoman, 
and thank you for the question, is no. Nobody was considered 
from the other political parties in Puerto Rico. It was 
approved without any votes of the other political parties in 
the House and in the Senate. And, actually, the whole design 
was precisely to be a one-sided campaign because it was 
together with the elections. The other parties, they were not 
in power. They had the control of the whole apparatus of the 
government. The other parties had to spend all the money that 
they raised for their own campaigns for elected officials, and 
if you compare the numbers, this was one-sided. And I would 
love Members who are favoring the statehood bill to see some of 
the ads that were put out there basically scaring people. 
Saying if you vote no, you're going to lose your U.S. 
citizenship. If you vote no, you won't get the tuition 
assistance program.
    Ms. Velazquez. Thank you.
    Mr. Acevedo-Vila. This was totally one-sided.
    Ms. Velazquez. Time is running out, and I have many 
questions to ask. Thank you, Mr. Acevedo. Mr. Natal, you 
recently sued the Puerto Rico State Election Commission for 
issues arising in your bid to become mayor of San Juan. Mr. 
Natal, can you provide the members of this Committee with some 
example of how the electoral reform law affected the election 
results and if such reforms created a lack of transparency, 
voter disenfranchisement, and other electoral deterrents?
    Mr. Natal-Albelo. Thank you for your question, 
Congresswoman Velazquez, and I'll go right to it. Not only did 
the New Progressive Party unilaterally legislate this 
referendum one sided, but they also changed the electoral laws 
in Puerto Rico 136 days before the election. So, they decided 
to change the rules of the game 136 days before the actual 
election was supposed to be taking place. And particularly when 
it comes to the plebiscite.
    I'll give you just one example. In the case of the five 
precincts of San Juan, when it comes to the plebiscite, in an 
Act certified by four of the five parties from the electoral 
commission, it was found that there were close to 1,800 votes 
or 1,800 ballots in excess of actual voters for the plebiscite 
only in terms of the election in San Juan. That's just one 
example of the many irregularities that happened and I'll clear 
one more thing, Congresswoman Velazquez.
    The actual percentage of what the statehood received when 
you take into account invalid votes and blank votes was 
actually 50.8 percent, not the 52 that's been said here before.
    Ms. Velazquez. And I would like to remind the members of 
the Committee also that the Department of Justice rejected the 
2017 and 2020 referendum citing the Obama Task Force before had 
stated that excluding options won't call into question the 
legitimacy of any referendum. I yield back.
    The Chairman. The gentlelady yields and the time is over. 
If anybody has a question about that, it is exactly the same 
for Members that were pro the other piece of legislation that 
went over a minute and 37 seconds and a minute and 26 seconds. 
So, there was no effort to give to Ms. Velazquez any additional 
time. We've only been consistent with what other people 
received. Let me now turn to Ms. Radewagen. The gentlelady, the 
time is yours.
    Ms. Radewagen. Thank you, Chairman Grijalva and Ranking 
Member Westerman, for holding this hearing. Welcome to the 
panel and thank you. As a fellow Member representing a U.S. 
territory, I want to align myself with the statements made 
today by Resident Commissioner Gonzalez-Colon. Above all else, 
today's hearing is about respecting the will of the Puerto 
Rican people. With that, I yield my time to the Resident 
Commissioner.
    Miss Gonzalez-Colon. Thank you, Amata, for yielding. I 
really appreciate all of your support and your co-sponsorship 
of this bill today. And I would love to continue my line of 
questions to Professor Ponsa if she is available. And I would 
love to maintain yes or no answers so we can get hold of the 
time. Not without saying, my first question will be: Is a blank 
vote count for electing somebody to any position?
    Dr. Ponsa-Kraus. No.
    Miss Gonzalez-Colon. I assumed that. In your view, H.R. 
2070, the Puerto Rico Self-Determination Act, do you believe 
that it is problematic that this bill does not define or 
recognize that the only non-territorial status options 
available to Puerto Rico are statehood or independence?
    Dr. Ponsa-Kraus. Yes.
    Miss Gonzalez-Colon. In your view, will the Self-
Determination Act open up the door for convention delegates to 
come up with unconstitutional options?
    Dr. Ponsa-Kraus. Yes.
    Miss Gonzalez-Colon. Do you think that including 
unconstitutional provisions in the transition plans they have 
to develop may be opposed by Congress?
    Dr. Ponsa-Kraus. I apologize. I couldn't really follow 
whether that----
    Miss Gonzalez-Colon. If that constitutional convention use 
creates a new definition of the status that is not non-
territorial, Congress and the Department of Justice can just 
say no to that?
    Dr. Ponsa-Kraus. That's right, yes.
    Miss Gonzalez-Colon. Are there any constitutional concerns 
with the Puerto Rico Statehood Admission Act?
    Dr. Ponsa-Kraus. No.
    Miss Gonzalez-Colon. In your testimony, you argued that the 
Self-Determination Act is, and I quote, ``a thinly veiled 
attempt to delay and defeat an offer for statehood.'' Can you 
elaborate on why you think that?
    Dr. Ponsa-Kraus. Absolutely. The Self-Determination Act 
ignores the referendum in November and displaces it with a 
process altogether different from the process that Puerto Rico 
came up with. I've heard people say Puerto Rico's Statehood 
Party designed the referendum. Puerto Rico's elected 
legislatures designed the referendum. The Self-Determination 
Act recognizes the inherent right of Puerto Rico to exercise 
self-determination, well, this is it. Puerto Rico's elected 
legislatures designed the referendum. They are the ones who put 
this process in place.
    Miss Gonzalez-Colon. Professor, you believe the Self-
Determination Act engaged in election denial?
    Dr. Ponsa-Kraus. Yes.
    Miss Gonzalez-Colon. Do you think that ignoring and 
rejecting Puerto Rico's recent vote on statehood, not just in 
2020--but in the 2017 and 2012 referendums, are those actions 
undemocratic?
    Dr. Ponsa-Kraus. Yes.
    Miss Gonzalez-Colon. In your opinion, were the November 
2020 results on statehood and the yes-or-no referendum a 
legitimate self-determination process?
    Dr. Ponsa-Kraus. Yes.
    Miss Gonzalez-Colon. Do you think that as a professor of 
constitutional law in American legal history, how do you 
respond to arguments that the Self-Determination Act has stated 
that the convention authorized by the bill will consider a 
statehood independence of free association, which is 
independence, and any other non-territorial options; how do you 
believe that is consistent with U.S. law?
    Dr. Ponsa-Kraus. To the extent that it invites Puerto 
Ricans to debate options that are not constitutional, it is not 
consistent with U.S. law. To the extent that it invites Puerto 
Ricans to debate options at all instead of responding to the 
plebiscite, to the referendum in November, it is unnecessary 
and it is dilatory. Puerto Ricans can continue debating their 
options even if Congress offers statehood, and in response to 
the referendum, Congress should offer statehood.
    Miss Gonzalez-Colon. Thank you, Professor. I yield back.
    The Chairman. The gentlelady yields. Ms. Radewagen yields 
back. Let me recognize Mr. McEachin.
    Sir, you are recognized.
    Mr. McEachin. Thank you, Mr. Chairman.
    I am not going to go into a long series of questions, but I 
am just going to state for the record my support for Mr. Soto's 
bill, and I look forward to the day that I can be part of the 
delegation welcoming the people of Puerto Rico into the Union.
    With that, I yield the balance of my time to Mr. Soto.
    Mr. Soto. Thank you, Representative McEachin.
    And first I want to thank you, Chairman, for hosting this 
hearing dedicated to Puerto Rico's political status.
    After the election in November, we deserve a real debate on 
this, and we are getting it today finally, and I want to thank 
Ranking Member Westerman as well for that opportunity.
    I was more than happy to have Resident Commissioner 
Jenniffer Gonzalez-Colon begin speaking on behalf of our bill 
together because my motivation is to lift up voices from Puerto 
Rico not from the states' side. That has been the problem all 
along.
    Yesterday, we celebrated National Borinqueneers Day, heroes 
who fought for this country since 1899, for many years in 
segregated units, and to date, Puerto Ricans enlist in the 
Armed Services at double the rate of those on the mainland.
    Yet, none of them can vote for Commander-in-Chief, have 
Senators or voting Representatives in Congress. That is a 
national shame.
    My family's native island of Puerto Rico has been through 
so much hardship over the last few years, and over a decade-
long economic recession, deadly hurricanes Maria and Irma, 
terrible budget cuts from the PROMESA Fiscal Board, 
earthquakes, and now COVID-19.
    It is clear now that two Senators and four Representatives 
would have greatly helped during these crises and that the 
territorial status is failing 3.2 million Americans there.
    We see this every day in central Florida, as thousands of 
Puerto Ricans feel they have to leave the island to come to our 
region because they no longer think they can be prosperous on 
the island.
    This is an injustice, and this is the main motivation why I 
am here to help lift up voices on the island.
    Amidst the chaos, the Puerto Rico legislature decided to do 
something about it. They passed legislation to hold a vote on 
the future political status of the island. Unlike past 
elections, the ballot language was simple. There was a 
statehood yes-or-no question voted on during a high turnout 
2020 general election, and the people voted by a majority of 
52.52 percent for statehood.
    This was higher than the gubernatorial candidate, our 
Resident Commissioner, or even any party--all of whom won by 
pluralities we opposed to a simple majority. The fact is the 
statehood vote crossed many party lines to get to the majority. 
The numbers just evidence that.
    And this is why I filed the Puerto Rico Statehood Admission 
Act, along with Commissioner Jenniffer Gonzalez-Colon and many 
others, because in democracy, when the people vote, action is 
supposed to occur afterwards.
    Governments change. Leaders change. And political statuses 
change. That is the essence of our Republic. We vote, and a 
majority rules.
    Our bill would still set up one last binding election: 
statehood, yes or no. And if a majority votes yes, they would 
be admitted to the Union after a brief transition period, and 
if they vote no, then it would be no.
    There are other factions that I am more than happy to bring 
to light. A minority of Puerto Ricans on the island are pushing 
for a concept called enhanced commonwealth status. This is, of 
course, not a thing.
    Dr. Ponsa-Kraus mentioned it at length today, and I am not 
going to belabor it other than to say it is a fictional status 
where Puerto Rico would get most of the benefits of statehood 
without any of the burdens.
    Feel free to review our Constitution or the letter from the 
professor, as well as other top constitutional law experts, 
which has already been submitted for the record, but if not, 
Mr. Chairman, I would like to submit it.
    The Constitution is clear. Puerto Rico could choose 
statehood, territory, or independence. Free association does 
not need to be on the ballot. It would be a decision if Puerto 
Rico decided to be independent, whether they want to be a free 
association like Palau or whether they would want to be 
independent without a relationship.
    So, the choices have been clear for a long time, which 
brings me to the other bill. Why would we have a constitutional 
convention when the three options are already clear? Perhaps to 
create lofty demands to the United States that will never 
happen, but it will, in fact, cause critical delay during a 
limited window of opportunity for Puerto Rico to finally 
resolve its second-class citizenship.
    Other problems with the convention bill, it creates a new 
legislative body when Puerto Rico already has a legislature, 
and it also purports to allow for meaningful debate to 
decolonize Puerto Rico.
    But the Puerto Rican legislature has been debating this for 
100 years. My time has expired.
    The Chairman. Thank you. You are subject to be recognized 
for your own time right after our Republican colleague has his 
5 minutes.
    We will recognize Mr. Obernolte for his time. Sir, you are 
recognized.
    Mr. Obernolte. Thank you very much, Mr. Chairman.
    And thank you to all of our witnesses. It has been a 
fascinating hearing on a very important topic.
    My question is directed toward Congresswoman Velazquez. I 
had a couple questions about H.R. 2070.
    The bill requires that whatever the results of the 
referendum are, that Congress ratify the results, including, I 
assume, results of a vote for independence.
    However, we have heard testimony from some of the witnesses 
here that requiring a future Congress to ratify the results of 
a referendum would be illegal.
    Do you disagree with that?
    Ms. Velazquez. Well, first and foremost, I am not one of 
the witnesses, but if you repeat your question, I would be more 
than happy to answer. I was not paying attention.
    Mr. Obernolte. Oh, I am sorry. My question was about your 
bill, H.R. 2070.
    Ms. Velazquez. Yes.
    Mr. Obernolte. The bill requires that Congress ratify the 
results of the referendum in Puerto Rico. However, there has 
been testimony here today at the hearing that requiring a 
future Congress to ratify the results of the referendum would 
be illegal.
    Do you disagree with that?
    Ms. Velazquez. Yes, I disagree. Congress will create a 
commission. I seriously believe that under Section 7, Joint 
Resolution, that outlines the serious and structured process 
for both chambers of Congress to act upon the results of the 
referendum that might be a proposal.
    Mr. Obernolte. OK. So, presumably even if the results of 
the referendum is a vote for independence, there would be, I am 
sure, hundreds and hundreds if not thousands of issues that 
would have to be determined, both financial and legal status.
    So, how could we require a future Congress to just blindly 
ratify that result?
    Ms. Velazquez. Again, Section 7 will provide and will 
outline a process for the commission that is going to be 
appointed by leaders of the House and the Senate to come into 
negotiation.
    This is a process of decolonization, and clearly, there is 
language in the bill that will provide a process for that to be 
achieved.
    Mr. Obernolte. OK. I understand. Thank you.
    And then lastly, if I could ask about another section of 
the bill that establishes the Puerto Rico Status Convention 
Public Matching Fund and appropriates $5.5 million to establish 
a four-to-one match for not just paying for the election, but 
paying for the campaigns of Puerto Ricans that wish to become 
delegates.
    I personally have a problem with that. How is it fair to 
use U.S. tax dollars collected from U.S. taxpayers to fund the 
election campaigns of candidates in Puerto Rico, particularly 
on a four-to-one ratio?
    Ms. Velazquez. So, sir, this is decolonization, and we have 
a moral obligation to provide whatever it takes for the people 
of Puerto Rico to be well informed as to what their vote or 
their choosing means for themselves and their families.
    And, by the way, we do that every day. We do it in New York 
and other states, where we provide matching funds, because we 
want to make sure that not only the wealthiest 1 percent, 
whether they are here or in Puerto Rico, have the opportunity 
to be engaged and participate democratically.
    But you should address the same question to the Governor of 
Puerto Rico. Right now they are asking for millions of dollars 
to have shadow Representatives and Senators so that they could 
come to Congress and lobby for statehood. And this is money 
from taxpayers. This is money that we have sent to Puerto Rico 
for the rebuilding of Puerto Rico.
    Do you support that?
    Mr. Obernolte. Certainly, and I also support the funding of 
the referendum in Puerto Rico, but I cannot support the funding 
of campaigns in Puerto Rico.
    Ms. Velazquez. You will support that the government will 
use public funds to hold this special election at a time when 
Puerto Rico continues to face a financial crisis and a 
bankruptcy process.
    And, by the way, today, unanimously, the PROMESA Board 
voted against it because it is wrong.
    Mr. Obernolte. Well, to be clear, Congresswoman, I think 
that we have an obligation to hold elections, but I want to 
thank you very much for your candid answers to the questions.
    And, Mr. Chairman, I will yield the balance of my time----
    The Chairman. There is no balance.
    Mr. Obernolte. My condolences to you for the loss of your 
staffer. That unfortunate death occurred in my district. If I 
can be of any assistance to you, just let me know.
    The Chairman. I know, and let me thank your staff for their 
inquiries and their response to law enforcement. It was very 
kind of them, and we are all very appreciative of that. Thank 
you, sir.
    Let me now return to the sponsor of the legislation, Mr. 
Soto. The time is yours.
    Mr. Soto. Thank you, Chair Grijalva.
    We talked a lot about my bill already. Just a few concerns 
about the competing bill.
    First, we have heard at length that there are three 
choices: statehood, territory, or independence. Association is 
a type of independence, we would not need that on the ballot. 
If Puerto Ricans picked independence, they could decide whether 
or not they want to be free association or not.
    The second concern is it is a critical delay of an issue 
that has been debated for over 100 years during a limited 
window of opportunity to finally resolve the second-class 
citizenship of Puerto Rico.
    And a third, it creates a new legislative body on top of 
the Puerto Rico legislature, which is already elected and, 
trust me, debates this every day.
    It also purports to allow meaningful debate to decolonize 
Puerto Rico, but that is untrue because colonization is about 
ignoring elections. That is colonization, ignoring three 
elections in favor of statehood.
    Lastly, it has to be stated that a lot of these issues are 
pushed by a minority of Puerto Ricans who live on the mainland 
who support independence, Puerto Ricans who live in states and 
use their clout in Congress to prevent our brothers and sisters 
on the island from finally resolving their political status.
    I have never been opposed to independence. If I thought 
there was a good chance, that would be another great option, 
but we know independence polls in the single digits routinely 
on the island.
    Puerto Ricans value their American citizenship. We have 
heard that over and over today. Being part of the United States 
lifts up their quality of life. They pledge allegiance to the 
flag, and they serve in the U.S. military in staggering 
numbers.
    So, what do you do if you cannot win an election? You 
delay. Justice delayed is justice denied.
    And I want to also quote our Majority Leader. Steny Hoyer 
just signed onto our bill this week, and, Mr. Chairman, if I 
may move to submit his written testimony for the record, he 
says, and I quote, ``The people of Puerto Rico have told us 
time and time again through multiple plebiscites in recent 
years that they chose statehood. I think that we in Congress 
would be wise to listen to what the people of Puerto Rico are 
telling us.''
    We also have constitutional experts from the Congress 
supporting it, like Jamie Raskin, because he understands that 
there are really only three options, and we have already had a 
vote.
    We have fellow Puerto Ricans like Richie Torres and 
Jenniffer Gonzalez-Colon supporting our bill. We have 
progressives, centrists, and conservatives supporting our bill, 
including over 60 House sponsors, many from the Hispanic 
Caucus, many from the territories, as well as Senators 
Heinrich, Padilla, Wyden, and Schatz, because it represents the 
enforcement and recognition of democracy.
    Ultimately, should our bill pass, Puerto Ricans will have 
one last election to vote to become a state or not. If they 
truly want to remain a territory or become independent, they 
could vote no, and if they want to become a state, they will 
vote yes.
    I ask the Congress to let our people vote. Let the will of 
the majority prevail, and let democracy be done in these United 
States of America and not let this be about personalities or 
alliances. This should be about the vote.
    I wanted to talk to some of the witnesses that we have 
invited today.
    Ms. Velez-Garcia, are there a lot of progressives who 
support the plebiscite and statehood on the island?
    Ms. Velez-Garcia. Yes, actually. Supporting equality across 
the board without being selective is at the heart of being a 
progressive, and as you know, within the Democratic Party, the 
progressive movement has gained gigantic steps.
    I understand that there are progressives within the rank 
and file of the Democratic Party that do not support statehood 
certainly, and you know, we are a big house, and we are 
respectful of everyone's opinion.
    But as you said yourself, there is no better exercise on 
democracy than the casting of the ballot, and we have----
    Mr. Soto. Thank you so much. My time is limited.
    Ms. Velez-Garcia. Yes. Sorry.
    Mr. Soto. Mr. Fuentes, are there many conservatives on the 
island who support statehood as well?
    Mr. Fuentes. As you know, the Republican Party is adamant 
[audio malfunction] Puerto Rico is at the highest level of home 
ownership in the country, at the highest level second only to 
Nevada in military participation. We have more churches per 
square mile than anywhere in the country.
    So, yes, the answer to your question is an absolute yes.
    The Chairman. Thank you.
    Mr. Soto. I see my time has expired.
    The Chairman. Thank you very much, Mr. Soto. The gentleman 
yields back.
    Mr. Tiffany, you are recognized for 5 minutes.
    Mr. Tiffany. Thank you, Mr. Chairman.
    Once again, as with each of our meetings here in House 
Natural Resources, we have had glitches in technology. I am 
asking the Chairman to bring us into committee rooms. It is 
time to do that so that there is clear communication in what is 
supposed to be the greatest deliberative body created in the 
history of mankind.
    I am going to yield my time to Miss Gonzalez.
    I just hear lots of noise from people here, some 
politicians in America, about this, and I wanted to hear from 
the person who is closest to the people, and that is Miss 
Gonzalez.
    And I know she has spoken about this issue earlier today, 
but I would like to hear her thoughts on where she sees this 
going.
    I yield to Miss Gonzalez.
    Miss Gonzalez-Colon. First of all, I want to say thank you, 
Mr. Tiffany, for yielding and for your respect and deference to 
the people elected from the island to manage this issue.
    And as you just said, the issues of Puerto Rico have been 
discussed for more than 100 years. We have been discussing 
statehood, independence, a kind of a free association which you 
need to become an independent nation in order to get that kind 
of transition like the Marshall Islands or the Micronesia 
Islands, that is not what the people of Puerto Rico want.
    Even in the past, when there have been several votes on 
this, people of the island cherish American citizenship, and 
that is the reason in the last three plebiscites, statehood has 
won those plebiscites as the will of the people of the island.
    So, I want to say thank you for yielding.
    Another reason, after the results of November of last year, 
we drafted this bill in a different way. We put the same 
process Alaska and Hawaii did in order to become a state, what 
those territories did in order to become a state, and that was 
a yes-or-no legislation on the island, and that was the way 
state houses and state senates legislated this during the last 
year.
    And with that vote, a yes-or-no vote, we are answering to 
that request and that request of statehood and equality, with 
that stated bill.
    And with that stated bill, I want to say thank you to 
Congressman Darren Soto and to many others, Democrats and 
Republicans, that are supporting this bill in the House, 
including the Minority Leader, Mr. Hoyer, you just included his 
testimony for this hearing, and I want to say thank you for 
sponsoring the state of Puerto Rico as well.
    I will make a question to Mr. Jose Fuentes of the Puerto 
Rico Statehood Council.
    I know that Governor Pierluisi a few minutes ago said that 
people who campaigned against statehood are now trying to 
discredit or trying to stop the results of last November.
    My question to you is: All those people that campaigned and 
voted against the statehood bill in the yes-or-no questions in 
November, do they have the right to overcome that majority and 
meet a minority that were defeated in many ways, now try to 
impose those alternatives?
    Mr. Fuentes. No, they do not. But what we have to 
understand is that this is a process that started with a young 
bill. There have been five different referendums, three of them 
in the last 10 years. All three have been won by statehood.
    So, this is not something that happened at the last minute 
like they are trying to portray, but it is the same process 
that has been followed by 32 territories that became states, 
most recently Alaska and Hawaii.
    What we are seeing here is the progression of the Northwest 
Ordinance established by our forefathers.
    Now, the beauty of this last vote is that if you believed 
that Puerto Rico should be returned to Spain or if you believed 
that Puerto Rico should be part of the moon, you had a place to 
vote. You voted no.
    So, it is all against one, and that is the final vote that 
statehood had to win before Congress pushes this over the line, 
before more people leave the island.
    Eight hundred thousand Puerto Ricans have left the island 
in the last 20 years.
    Miss Gonzalez-Colon. Mr. Fuentes, my time is getting short.
    A few minutes ago when the witnesses were saying in their 
testimony, some of them said that the Negotiation Committee 
will inevitably lay out a rejection of statehood either 
directly or by imposing impossible conditions.
    How do you respond to that argument?
    Mr. Fuentes. Well, the opposite is also the same, right? If 
we have another vote like your bill calls for----
    The Chairman. You need to wrap up your answer, sir.
    Mr. Fuentes [continuing]. Then if the people do not like 
them, they will vote against them, and then that will be the 
end of the statehood movement.
    The Chairman. Let me now turn to Mr. Garcia. Sir, the time 
is yours.
    Mr. Garcia. Thank you, Mr. Chairman and Ranking Member, for 
this hearing.
    It is 2021, and Puerto Rico is still a colony, the oldest 
in the world. From the annexation of the island to a century of 
limited citizenship, the imposition of PROMESA and our failures 
in disaster response, we know that Puerto Rico's relationship 
with the United States is rooted in the history of racism, 
exploitation, and oppression.
    While many may disagree about the future of Puerto Rico's 
status, we must recognize that the decision should come from 
those who will be impacted most, the people of Puerto Rico.
    We have an opportunity to rectify Puerto Rico's long-
standing colonial status, which has resulted in its people 
being treated as second-class citizens, but it must be done 
correctly and with transparency.
    I would like to explore some topics that have not gotten a 
whole lot of attention in this hearing yet. So, I would like to 
ask Governor Pierluisi--regarding the Fiscal Oversight Board, 
or ``La Junta,'' the proposed cutting pension, University of 
Puerto Rico's budget, additional austerity measures to make 
room for Wall Street bank holders, I know that you have opposed 
some of these measures.
    With respect to the present conversation about the status 
of Puerto Rico, given the final word is left, of course, to the 
Junta, my first question to you is: How does Puerto Rico's $70 
billion debt restructuring work under statehood?
    If you would be brief, I have some more questions I would 
like to ask you, sir.
    Governor Pierluisi. Well, I will be brief. That process is 
ongoing, and the bill, H.R. 1522, provides that basically all 
laws, all regulations in place remain in effect unless they are 
inconsistent with the legislation itself.
    My expectation is that the restructuring of the 
commonwealth's debt will be done and over with at the latest by 
the middle of next year, and it could be earlier.
    Mr. Garcia. But does not the final plan, Governor, of 
adjustment saddle Puerto Rico with billions in yearly debt 
service for 40 years?
    Governor Pierluisi. Well, actually that is debt that Puerto 
Rico incurred, and as the legislation provides, whatever bonds 
or obligations Puerto Rico has, Puerto Rico keeps because that 
is the way it should be.
    We are restructuring it, and under PROMESA, and we will be 
achieving incredible savings in terms of the payments that we 
will be making for the next 30 years.
    You are talking about a very significant reduction in the 
debt service that Puerto Rico will be paying as a territory 
until it becomes a state, and then as a state thereafter.
    Mr. Garcia. And if Puerto Rico were admitted as a state 
under the Puerto Rico Statehood Admission Act, how would 
taxation of Puerto Rico residents and companies operating in 
the island change?
    Governor Pierluisi. The bill provides that Puerto Rico 
would become a state on an equal footing with the other states. 
There is only one statehood. You cannot change it. That is why 
statehood is so straightforward.
    We aspire to have the same rights and responsibilities. 
Obviously, you can transition Puerto Rico into the Federal 
income tax system. That would not be inconsistent with the tax 
uniformity clause of the U.S. Constitution, and that Congress 
can address within the time frame that the bill provides for.
    Because the way this works is that once the people of 
Puerto Rico vote for statehood in the final referendum, and I 
anticipate it will be an overwhelming vote, then the President 
has about a year to proclaim statehood.
    And within that time frame, within that year, Congress will 
be addressing all the different ways in which we need to 
conform existing laws, programs, regulations so that Puerto 
Rico becomes a state and a viable state.
    Mr. Garcia. Thank you, sir.
    Do I have time for another question, Chairman?
    The Chairman. Yes, a quick one.
    Mr. Garcia. Thank you.
    Senator Lourdes Santiago, in your view, does the Puerto 
Rico Statehood Admission Act explicitly outline a transition 
plan?
    And why is it so important for the residents of Puerto Rico 
to be included and made aware of this process?
    Ms. Santiago. The Independence Party opposes the H.R. 1522 
bill. It gives us an opportunity that is completely exclusive 
of the other status of options.
    For example, here we have been saying that Puerto Ricans 
have been discussing this issue of the Puerto Rican status for 
decades.
    But this conversation is where a very critical speaker has 
been missing and that is the U.S. Congress. Puerto Rico is not 
a colony of any party of Puerto Rico. It belongs to the United 
States.
    That is why one of the greatest values to H.R. 2070 is that 
it obligates us to have the conversation that the Congress has 
not been willing to have.
    The Chairman. You need to wrap up now. Time is over.
    Mr. Garcia. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Garcia.
    Let me now recognize Mr. Moore for his time.
    Sir.
    Mr. Moore. Thank you, Chairman and Ranking Member.
    And those of you who are here today, thank you for being 
here. Sincerely, this is an important issue.
    Regardless of disagreements on how to move forward, I think 
we all share an appreciation for our fellow Americans in Puerto 
Rico and hope to be able to continue these conversations and do 
something productive.
    My first question will be for Governor Pierluisi.
    Again, can you just highlight very, very briefly the 
biggest challenges that you face due to Puerto Rico's status as 
a territory rather than a state?
    Governor Pierluisi. Let's start with programs such as 
Medicaid. The 50 states have a Medicaid Program providing for 
the health services needed by their medically indigent 
population or low-income, moderate-income population.
    Puerto Rico does not have a permanent financing for this 
program. In the last couple of years, because of the disasters 
we faced, Congress increased the amount of funding that we get 
for purposes of our local Medicaid Program.
    But you cannot budget for your health system on a year-to-
year basis or on a 2-year cycle. You need a permanent program, 
fair for the American citizens in Puerto Rico.
    We are seriously underfunded as we speak. We do not cover 
100 percent of the population falling below the poverty level 
in Puerto Rico in our Medicaid Program, and we are far from 
being able to do so. That is just one example.
    The Nutrition Assistance Program, SNAP, does not apply in 
Puerto Rico the same way. We are $1 billion short of Nutrition 
Assistance System in the middle of the disaster. As it happened 
elsewhere in the nation, we got additional assistance, but it 
falls short, again.
    And we do not have a permanent treatment from the part of 
the Federal Government with SSI, which is intended to assist 
people that are disabled, elderly, or low income. It does not 
apply at all in Puerto Rico.
    Those are just examples. On top of it, I tell you that the 
way Federal disaster programs work in the mainland is different 
than in Puerto Rico.
    We are always facing different requirements, and 
unfortunately, the Supreme Court has said that because we are a 
territory, we can be treated differently.
    And again, it makes no sense as a matter of Federal policy 
because this is like geographic discrimination. Puerto Ricans 
are not immigrants. Puerto Ricans are American citizens. They 
hop on a plane if they do not get the health services that they 
are seeking. They hop on a plane if they do not have Nutrition 
Assistance as in the states.
    And I should add to this that the political uncertainty 
caused by this status that we have discourages investment into 
Puerto Rico. Once Puerto Rico settles its political status once 
and for all, I am sure and I have no doubt our economy will 
prosper. We will attract more investment.
    That happened in Alaska. That happened in Hawaii. That 
happened in New Mexico. That happened in Arizona. That is why 
all of those territories aspired to become states, so their 
quality of life and the economic level of their territories 
would improve.
    So, that is the vision. It is an empowering vision.
    And lastly, let me just say this, and again, with all due 
respect. A yes-or-no vote cannot be fairer. A yes-or-no vote 
cannot be more inclusive. We had it. We had it on statehood, 
and all that we are doing now is telling Congress to say yes or 
no on statehood for Puerto Rico.
    It is the right thing to do. It is the courageous thing to 
do, and I welcome the debate, and I welcome all, including 
Puerto Ricans who want to oppose statehood, but let Congress 
address this issue. It is your responsibility, morally and 
legally.
    Mr. Moore. Thank you.
    To close, if you could also just comment, with the Puerto 
Rico Self-Determination Act, to what extent were you or other 
key stakeholders brought into this for your input when it was 
drafted?
    Governor Pierluisi. Meaning which legislation? I am sorry.
    Mr. Moore. The Puerto Rico Self-Determination Act.
    Governor Pierluisi. The Self-Determination Act, no. This 
bill, as far as I know, was drafted by its original co-
sponsors, and I am talking about the Resident Commissioner and 
Darren Soto.
    If you are talking about the other one, H.R. 2070----
    The Chairman. The time is up, Mr. Moore.
    Governor Pierluisi. If it is H.R. 2070, I have no idea who 
drafted that bill. I had no role in it.
    The Chairman. Time is up, sir.
    Governor Pierluisi. It ignores the vote that we just had.
    Mr. Moore. Thank you.
    I yield back.
    The Chairman. Thank you.
    Mr. Case, you are recognized, sir.
    Mr. Case. Thank you, Mr. Chair.
    Like Mr. Lowenthal, I came to this hearing to really listen 
as carefully as I could. It is a critical decision not just for 
Puerto Rico but for our country.
    I also came with a sense of personal history and 
responsibility having been born in the territory of Hawaii, of 
course, Hawaii being the last state that was given a chance by 
the United States to become a state, after a very, very long 
struggle, by the way, similar to what you have all described 
today.
    My great-grandfather, as a matter of fact, was a delegate 
for statehood to this Congress probably 100 years ago. So, I 
understand it, and I think I certainly believe that this time 
has come.
    Also, just from a perspective of free association, I want 
to emphasize since I work directly with the countries of the 
Pacific that are in free association with our country, I just 
want to drive a point home one more time that free association 
is an association, a treaty between two independent countries, 
so functionally it is independent.
    So, I do not understand, in all honesty, the discussion 
having to do with free association. Our treaties are there. 
Treaties can be abrogated, and countries go about their way. 
So, just to make that point.
    I want to say very directly something from my heart. I am 
strongly inclined to Mr. Soto's and Miss Gonzalez-Colon's 
proposal, but it does trouble me, in all honesty, that the 
indication from the voters of Puerto Rico thus far has not been 
at the same level of overwhelming agreement with statehood, as, 
for example, Hawaii, which in 1941 was at 66 percent. The final 
plebiscite was 93 percent in 1959.
    In the case of Alaska, in 1946 it was 60 percent, and by 
1958, it had grown to 83 percent.
    So, I just want to be honest. I do ask myself the policy 
question. Is the vote today enough to move forward with the 
process?
    Again, I think it is, but I just leave that with all of the 
folks, and I don't have a question. It is just an observation.
    I wish it was higher because then it would be an easier 
decision.
    With that, I want to defer the remainder of my time to Ms. 
Velazquez because I want her to have the opportunity to ask 
further questions.
    Ms. Velazquez. Thank you to the gentleman for yielding.
    Senator Santiago, as a proponent of independence for Puerto 
Rico, could you please explain to this Committee the importance 
for Puerto Ricans to understand the implications of statehood 
or any other options, what it would mean for the island?
    Ms. Santiago. First of all, the only option that represents 
an inalienable right is independence. The libre association 
option, would have to be ratified by a treaty like statehood 
and requires affirmative action by the Congress of the United 
States.
    I think that the great confusion that we see here today is 
because there is a great number of U.S. people allied mostly 
with the liberal part. They are afraid of speaking up because 
of fear of racism, of being considered racist. They are afraid 
of speaking up against the United States becoming a multi-
national country, which is the fundamental question behind the 
statehood proposal.
    Thank you.
    Mr. Case. Thank you. I yield back.
    The Chairman. The gentleman yields back.
    Ms. Tlaib, you are recognized for 5 minutes.
    Ms. Tlaib. Thank you, Chairman.
    I really want to focus today, as many of my colleagues 
touched base on, how we in Congress can fulfill our 
responsibility to the people of Puerto Rico by providing a 
free, open, and informed process for resolving their political 
status.
    I know here in Michigan, especially in communities of 
color, we do not take self-government for granted. For years, 
the state imposed unelected emergency financial managers on a 
number of majority Black cities across the state of Michigan.
    We all felt the pain of our unaccountable actions to slash 
city services and benefits to residents and in many cases 
resulted in the poisoning of Flint children with contaminated 
water.
    My residents in Detroit still have our municipal bankruptcy 
fresh in our minds, the largest in the history of our country, 
especially for the pensioners, who saw their benefits slashed 
by someone they did not vote for or could not remove.
    And it was not the people of Detroit who incurred the debt, 
but it was the people of Detroit who suffered for it.
    So, I understand the pain that Puerto Ricans feel as the 
unelected, unaccountable Financial Oversight and Management 
Board has slashed budgets and services by taking away Puerto 
Ricans basic rights of government.
    Senator Santiago, can you describe for the Committee what 
it is like living under both American colonial rule and by an 
unelected Financial Management Board and why the status quo 
cannot continue?
    I know you talked about some of it, but talk about really 
the human impacts of all of that.
    Ms. Santiago. The colonial regime that is in place in 
Puerto Rico violates the human rights of all Puerto Ricans, and 
with the arrival of the fiscal control Junta board, which has 
veto power over us, elected officials.
    There is no other way to call this other than a 
dictatorship, as Puerto Ricans claim our collective rights to 
free determination, and I think it is important to establish a 
distinction with other examples that other Congressmen have 
mentioned.
    We are not here talking about whether to approve a tax or 
not, or whether we are going to have any elected official in 
their position for a certain number of years, we are talking 
about the fundamental rights of a colonized nation, and we have 
as part of that right to claim the opportunity to discuss all 
of the possible options.
    In the case of H.R. 1522, it ignores the deep differences, 
profound differences that we have in Puerto Rico. Besides, it 
also allows Congress to avoid their responsibility to tell the 
Puerto Ricans what it is that they are willing to offer Puerto 
Ricans.
    I am convinced, and this has definitely been my experience 
up until today, that the United States, when it comes to the 
moment of truth, they are not willing to offer statehood to a 
Caribbean and Latin American nation.
    Ms. Tlaib. Thank you so much, Senator. And thank you, Ms. 
Gomez, for translating.
    I have a very short time, and I just really want my 
colleagues to truly understand the responsibility that we all 
have to provide the most democratic, participatory, and more 
informed path forward to Puerto Ricans.
    And I hope my colleagues will be guided by the goal as we 
continue to consider the two different bills in front of us 
right now, and again, really appreciate this really thoughtful 
conversation that we do always have to be based on the truth 
about the impact of those Puerto Ricans and their families that 
are impacted by our actions.
    Thank you so much, Chairman. I yield.
    The Chairman. Thank you very much.
    Now let me recognize the Chair of the Oversight 
Subcommittee, Ms. Porter. The time is yours.
    Ms. Porter. Thank you very much, Mr. Chair.
    I would like to yield my time to Ms. Velazquez.
    The Chairman. The gentlelady yields.
    Ms. Velazquez, you are recognized.
    Ms. Velazquez. Let me thank the gentlelady for yielding.
    Governor Vila, as a law professor yourself, could you 
explain how the academic argument that independence or 
statehood are the only true self-determination options 
available under U.S. law is inaccurate?
    And can you please explain to the members of this Committee 
the current territorial arrangements allow Micronesia and the 
Marshall Islands to have?
    Mr. Acevedo-Vila. I will quickly answer, and there was a 
response from all constitutional law professors from Puerto 
Rico answering specifically that argument and saying that 
precisely that is why the bill you have proposed--and this is 
my position--the best alternative because you have questions, 
yes, about how free association will work in a relationship 
with a territory that we are U.S. citizens now.
    The cases of Micronesia and those other places, they were 
never, never U.S. citizens. So, that is something that the 
negotiating commission will have to answer. The same thing with 
any other non-territorial alternative.
    That is the beauty of your bill. I hear people and Members 
asking questions to law professors. Those are the questions 
that the Congress has to answer in terms of different 
alternatives and different possibilities so the people of 
Puerto Rico, they will vote based on that information.
    We have never had the opportunity to vote with the 
information of what are the conditions for the different status 
alternatives, even statehood.
    There are a lot of things that need to be clarified by 
Congress before people vote.
    Ms. Velazquez. Yes, thank you.
    In the past, proponents of statehood have sold a bill to 
the people of Puerto Rico saying that they will maintain 
participation in the U.S. Olympics or Miss Universe, and that 
that will not change if Puerto Rico becomes a state, things 
that might not have incredible implications or economic 
consequences for the people of Puerto Rico.
    But it shows to you and it shows us that this is not any 
election. This is a most important process in our relationship 
of the United States keeping a colony for 123 years; that it is 
our responsibility to provide a process for the people to 
determine their own political future.
    So, a lot of education needs to happen. People need to 
know: What does it mean supporting or voting for statehood. 
What does it mean? What are the implications?
    Mr. Acevedo-Vila. Quickly, if I have a second, I heard 
Governor Pierluisi answering the question about taxes, and that 
was very illuminating.
    He said that after we vote for statehood, and on 
Congressman Darren Soto's bill, Puerto Rico will become the 
51st state. Then after a vote, they will explain to us what are 
the economic consequences and fiscal consequences of our vote.
    No. Those are the things that people need to know before we 
vote, and that is something that only Congress can answer.
    Ms. Velazquez. And that is something that my bill does.
    Mr. Acevedo-Vila. Yes.
    Ms. Velazquez. It includes a transition plan.
    Mr. Natal, in any of the plebiscites that have been held in 
recent history, including transition plans for the options put 
forward, have Puerto Ricans ever received public, non-biased 
education about the consequences of each of the options?
    Mr. Natal-Albelo. Unfortunately, they have not, and they 
have not because the plebiscites that have been legislated 
locally in Puerto Rico have the same default problem, that they 
have been legislated one-sided by the ruling party, usually 
trying to design the consultation in a way that it is slanted 
toward the outcome that is preferred by the party in power.
    And that is why it is so important that with your bill the 
legislative assembly in Puerto Rico would be able to call for a 
status convention. There are different models that have been 
suggested.
    The Puerto Rico's Lawyer Association has presented one for 
many decades that includes 75 delegates. That is not a small 
group of people in dark rooms.
    That is close to the same numbers of members that we have 
in the legislative assembly, but they will be elected 
specifically according to the status preferences as long as 
they are non-colonial, non-territorial, and in that sense they 
will have an equal opportunity to talk to the people of Puerto 
Rico about why their preferred option is the one that the 
people should elect.
    And at the end of the day, the people will have the final 
decision, as it should be.
    Ms. Velazquez. Thank you.
    And thank you to Ms. Porter for yielding time to me.
    I yield back.
    The Chairman. The gentlelady yields. Ms. Porter yields 
back.
    Let me now recognize Mr. Gosar for 5 minutes.
    Dr. Gosar. Thank you, Mr. Chairman.
    I would like to yield my time to the gentlelady from Puerto 
Rico, Miss Gonzalez.
    Miss Gonzalez-Colon. Thank you, Mr. Gosar, for yielding and 
always in helping Puerto Rico in many of the issues and tasks, 
and I really appreciate that.
    I will continue with my line of questioning.
    One of the issues that has been brought to this Committee 
is about definitions, and I would love to have Professor Ponsa, 
who is a constitutionalist professor and who led a letter with 
more than 45 constitutional professors across the nation from 
very prestigious universities, including universities in Puerto 
Rico, to support H.R. 1522 and establish the constitutionality 
of the other bill.
    And I will make this question to you. H.R. 2070 establishes 
a commission of Members of Congress who will make 
recommendations to the status convention of Puerto Rico culture 
and language under its self-determination options, which we 
know must include statehood and nationhood.
    On what aspects of Puerto Rican culture may the commission 
make recommendations? Are they in music or religious freedom? 
Will it be in our traditions and history, or will it be in the 
definitions of how we mix rice and beans, or any other issue. 
Can you answer that question for me?
    Dr. Ponsa-Kraus. Well, as far as I can tell from H.R. 2070, 
there is no limit to what those recommendations could be. I 
don't consider that a good idea.
    I think that if one is going to respect the people of 
Puerto Rico, then one should let them live their culture as 
they do and enjoy it as they will, which I believe is 
consistent with the constitutional options that are available 
to it.
    I am not a fan of having a bilateral commission involving 
Congress advising Puerto Rico on its culture and language. I do 
think they have gotten plenty of advice. Thank you very much.
    What we need is a response to the referendum and that kind 
of clarity from Congress that it is willing to offer the people 
of Puerto Rico statehood once they voted for it.
    Miss Gonzalez-Colon. Do you think that bill will be 
xenophobic?
    Dr. Ponsa-Kraus. Which bill?
    Miss Gonzalez-Colon. H.R. 2070.
    Dr. Ponsa-Kraus. I would not describe H.R. 2070 as 
xenophobic, no.
    Miss Gonzalez-Colon. OK. Do you think that it will be a 
precedent if there is an exclusion of most of the members of 
this Committee of the House that has direct jurisdiction over 
the issues of the territories, and specifically Puerto Rico, 
and the Senate from being able to serve on a congressional 
committee because that bill would allow a bilateral advice 
commission to negotiate with the territory of Puerto Rico, as 
we were an independent nation?
    Do you think that that bill established that Puerto Rico is 
an independent nation?
    And if doing so, that means that in order to get free 
associated state status like the Micronesia Island, like some 
of the witnesses are supporting here are establishing, should 
be negotiating without any Federal laws applying to Puerto 
Rico?
    Dr. Ponsa-Kraus. If I have understood your question, I 
believe that the bilateral commission created by H.R. 2070 is 
expected by that bill to negotiate in ways that don't make any 
sense within the structure of Puerto Rico's relationship to the 
United States.
    If Puerto Rico is going to debate the options that are 
available to it, it should be able to debate those without 
being nudged, guided, or advised.
    Clarity from the Federal side is a good thing, but to call 
it a negotiation when you have the Federal Government on one 
side and a territory on the other side that is being steered in 
a self-determination process, to me it is a misnomer.
    That is not a negotiation. That is the Federal Government 
guiding a process by advising Puerto Rico on issues in which 
Puerto Rico should make its own decisions instead of offering 
the kind of clarity that it is Congress' responsibility to 
provide.
    Miss Gonzalez-Colon. Thank you.
    I have 30 seconds, and, Mr. Governor of Puerto Rico, you 
have had a lot of experience in Congress. You were for 8 years 
a member of this Committee in the House.
    Do you think establishing a constitutional convention where 
people are elected like delegates will be the right option to 
be expressed?
    Governor Pierluisi. The fact of the matter is that it has 
never been legislated in Puerto Rico itself, and people here, 
some were blaming the Statehood Party. Well, we have not been 
in control of the House and the Senate and the Governorship 
always.
    There have been many occasions in which the House and the 
Senate of Puerto Rico and the Governorship have been controlled 
by the other major party in Puerto Rico.
    And this concept of a status convention was never 
legislated, and the problem I have with it right now is that we 
just had a vote, a majority vote. We had not had a majority 
vote, a clear-cut majority vote in a long time in dealing with 
the status of Puerto Rico.
    In 2012, we had another one, 54 percent clearly rejected 
the current status, and now 53 percent approved of statehood.
    The Chairman. Your time is up, sir. Thank you.
    Miss Gonzalez-Colon. Thank you, Governor.
    I yield back.
    Dr. Gosar. I yield back.
    The Chairman. Keeping track of overtime, too.
    Thank you.
    Mr. Webster, you are recognized, sir.
    Mr. Webster. Thank you, Chair.
    I would like to yield my time to the Resident Commissioner 
from Puerto Rico.
    Miss Gonzalez-Colon. Thank you, Congressman Webster, for 
yielding and for always being supportive of many of the issues 
regarding the island.
    I will continue my line of questions.
    I will go now with the Governor of Puerto Rico, Mr. 
Pierluisi, who, as I said, was a member of this Committee of 
the House for 8 years and now is the one representing the 
island as the elected official to carry out the results of the 
last election.
    Governor, there have been many things that have been said 
today here regarding how Congress is willing or not to grant 
statehood for Puerto Rico.
    You are a lawyer as well. You were a former prosecutor and 
served justice locally on the island. You know the movement 
that gained the vote, the right to vote for women and African 
Americans.
    Do you think statehood and equality is an issue of civil 
rights?
    Governor Pierluisi. Definitely. That is what we are talking 
about mostly. It has economic development implications, quality 
of life implications, but at its heart this is a civil rights 
issue.
    Somebody said it before, and I will repeat it. Nine out of 
ten American citizens living in Puerto Rico are proud American 
citizens. I am talking about Puerto Ricans.
    I know a lot of Puerto Ricans, unfortunately, left the 
island, and now they are pursuing their dreams in the states, 
but the ones remaining in Puerto Rico, they are proud American 
citizens and proud Puerto Ricans, and that is not inconsistent.
    You can be a proud Puerto Rican American, like you have so 
many in the states, or we could add to this nation. This nation 
is diverse, and of course, we're Hispanic. This would be the 
first truly Hispanic state, and, of course, we would continue 
speaking Spanish, but we all aspire to be bilingual, and we 
will always treasure our heritage, and that's good for America.
    It's good that we have this history, that we have these 
customs. That's why people come to Puerto Rico and visit. 
That's why people come to Puerto Rico and invest in Puerto Rico 
and retire in Puerto Rico. It's not inconsistent. What we're 
talking about here is finding a way forward, and the people of 
Puerto Rico express their will, and the ones here talking about 
that there was no debate, where are they? Where were they? Were 
they on the Moon? On Mars? We know how to debate these issues. 
We have been debating them for too long.
    Everybody in Puerto Rico knows what independence is all 
about. Everybody in Puerto Rico knows what free association is 
all about. Everybody in Puerto Rico knows what the current 
status means. We suffer through it every day, and everybody I 
meet knows as well what statehood means. Enough of this debate. 
The ball is in Congress' court. It is time for Congress to 
address this issue, and I have no doubt if Congress offers 
statehood to Puerto Rico, you will get an overwhelming vote 
from the people of Puerto Rico accepting it. That's why I'm not 
hesitating. That's why our Resident Commissioner is not 
hesitating, and you will have a diverse Puerto Rico, with 
Republicans such as Jennifer Gonzalez, and Democrats like me, 
and we will enrich this nation when the time comes, and we 
become the 51st state of the Union.
    Miss Gonzalez-Colon. Governor, one of the questions that 
was made a few minutes ago, and Congressman Case from Hawaii 
was saying about the percentage, and how Hawaii voted for 
statehood, and a percentage of that.
    Do you have an expectation that once there is a bill 
approved in Congress like the one we are supporting today, and 
that becomes a law, that the statehood support will grow on the 
island once Congress makes a formal offer to the island?
    Governor Pierluisi. I have no doubt. Some of the ones 
participating in this hearing, they don't miss a step saying 
that Congress will never offer statehood to Puerto Rico. They 
have been encouraging the people of Puerto Rico to doubt 
Congress, to doubt this nation. They have been saying we don't 
deserve it. They are not going to give it to us.
    Well, I know. I know the time will come when this offer 
will be made, and the people of Puerto Rico will see that it is 
for real, and they'll go out, and they'll vote overwhelmingly 
for statehood. Whatever requirement that is imposed on us that 
is reasonable, we will meet, because we want to become the 51st 
state.
    Miss Gonzalez-Colon. Thank you, Governor, and I yield back.
    The Chairman. The Gentlelady yields. Let me now recognize 
the Gentleman from New York, Mr. Torres, who is recognized for 
5 minutes.
    Mr. Torres. Thank you, Mr. Chair. Puerto Ricans on the 
island are citizens of the United States, and we are here today 
to debate whether those citizens should be equal, and the mere 
fact that we are even debating the legal equality of Puerto 
Ricans as American citizens is a tragedy for both democracy and 
decolonization, and history will not judge us kindly for the 
great harm that we have done and continue to do to the people 
of Puerto Rico.
    If Puerto Ricans are American citizens, why not make them 
equal under the law? If Puerto Ricans have long been and 
largely wish to remain citizens, which has been borne out 
repeatedly, there are only two options that preserve 
citizenship. There's the status quo, which means colonialism, 
and then there's statehood, which means legal equality. The 
single most egregious example of colonialism is the financial 
control board, which represents a cardinal sin against the 
sovereignty and self-determination of Puerto Rico.
    The fact is if Puerto Rico were a state, there would be no 
financial control board. Unlike colonies, states have rights 
under the United States Constitution. The absence of statehood 
has left Puerto Rico wide open to colonization at the hands of 
the financial control board. The U.S. Congress that gave us the 
financial control board is the same Congress that now wishes to 
deny Puerto Rico the right to exercise self-determination 
through a plebiscite.
    And I imagine there are powerful interests that have a 
stake in the status quo of colonialism, but if you're a 
corporation that exploits Puerto Rico as a tax haven, you have 
a powerful incentive to sabotage statehood, but if you're an 
everyday Puerto Rican who seeks to become an equal citizen of 
the United States, who seeks to have the right to vote in 
presidential or congressional elections, who seeks to have your 
voice heard, to have a seat at the table, and to get your fair 
share of Federal resources and representation, then you have 
every reason to support statehood, and that is precisely what a 
majority of the Puerto Rican electorate voted to do in November 
2020, and instead of respecting the will of the people, the 
U.S. Congress has chosen to ignore it, and not only has 
Congress chosen to ignore the results of the plebiscite, 
Members of Congress are proposing to micro-manage the process 
by which Puerto Ricans make decisions about their own status. 
The patronizing paternalism of Congress should never be 
mistaken for self-determination. True self-determination means 
that the people on the island have a right to decide not only 
what to decide, but how to decide.
    This Congress should practice the Hippocratic Oath, and do 
no harm. When the people speak, the proper role of Congress is 
to listen. The people of Puerto Rico have spoken through a 
democratic process. Congress ought to listen to the people. 
Congress ought to legislate what the people voted for, and 
Congress ought to abolish the financial control board, which is 
an abomination. That, to me, is true decolonization. Everything 
else is a red herring; a distraction masquerading as 
decolonization.
    I have a question for the Governor. I've never met the 
Governor, it is good to meet you.
    Governor Pierluisi. Nice to meet you.
    Mr. Torres. Governor, statehood would likely yield two U.S. 
Senators and five Members of Congress. Regardless of where one 
stands on the question of status, we all have a vested interest 
in securing more resources for Puerto Rico. Is it fair to say 
that two U.S. Senators and five Members of Congress would 
likely mean more resources for Puerto Rico, which is an outcome 
that all of us share?
    Governor Pierluisi. Of course. They would be our 
gladiators. They would be fighting for us whenever we face a 
natural disaster, whenever the nation as a whole is facing a 
pandemic like the one we are dealing with at the moment, we 
have no voice, no vote in the Senate. We have friends, 
colleagues in the Senate that come to assist us, but it is not 
the same, and we only have a great Resident Commissioner, but 
only one, without a vote in the House. We would have at least 
four, perhaps five. You don't need to know much about politics 
to realize that that would make a big difference, and voting 
for the president--presidents don't visit Puerto Rico--rarely 
so. Why? They don't need our vote.
    I have no doubt presidents would be visiting, candidates 
for president would be visiting. To make commitments to the 
American citizens of Puerto Rico when they are aspiring to the 
highest office in this nation. That makes a difference. That's 
going to make a difference. That would be democratic. Our 
status is not democratic.
    The Chairman. Time is up. The gentleman yields back. Let me 
now recognize Representative Herrell from New Mexico. You are 
recognized.
    Ms. Herrell. Thank you, Mr. Chair. I would like to yield my 
time to Representative Gonzalez-Colon.
    Miss Gonzalez-Colon. Thank you, Congresswoman Herrell for 
yielding, and I appreciate you being here the whole afternoon. 
That means a lot for the people of Puerto Rico knowing that 
Members of Congress, even when there are votes being called, 
are participating in this hearing. That is an answer for the 
November elections, so I want to say thank you.
    I want to make a question to Professor Ponsa, and this is 
not that I'm fixated with your statement, it is that you are 
the Constitutionalist here, the professor, who can clarify many 
of the words that are being put in some bills trying to be 
Constitutional. You have said many times today, and I know that 
in the past you have argued that statehood is not just about 
equality, but it is also about empowerment.
    Could you elaborate this idea, and how, saying here in 
Congress, having the leverage, and I do know about that, 
because I cannot vote on the Floor. I mean, I can vote on 
amendments, but not on the Floor on regular bills. We had that 
situation during the last 4 years. How do you think Puerto Rico 
can achieve more economic progress by having statehood?
    Dr. Ponsa-Kraus. Well, I frankly can't put it better than 
you and the Governor have, but I can add this. It isn't only 
that Puerto Rico would have two Senators and four or five 
Representatives and a Presidential vote. It is also that 
statehood itself as a status would guarantee equality in 
legislation that the Federal Government passes to aid and 
address issues in the states. As a territory, Puerto Rico is 
subject either to exclusion from certain programs, such as SSI, 
or to caps in benefit programs.
    So, there's no comparison between the current situation in 
which Puerto Rico has no voting representation whatsoever in 
the Federal Government. It has you, thank goodness, but it does 
not have voting representation through the Federal Government, 
and a situation in which it is empowered based proportionately 
to its population, like any other jurisdiction under the United 
States with equality on the vote.
    So, that difference is profound, and it is also a 
constitutionally protected difference because states are 
treated equivalently under the Constitution. So, it is both the 
presence of voting representatives, and the status of statehood 
that would guarantee equality for Puerto Ricans.
    Miss Gonzalez-Colon. You said it well, and I'm really 
fighting for the inclusion of Puerto Rico in many Federal 
programs as Governor Pierluisi did while he was in Congress. 
However, some people talk about parity without statehood, and 
that means leaving Puerto Rico at the mercy of the decisions in 
Congress, not having their elected officials there to take part 
in that decision process, and as a territory will always run 
the risk that as Congress, or the administrations, should 
simply decide whether or not we are treated equally or not. 
Even President Bush established an executive order that Puerto 
Rico should be treated equally in all Federal quorums as a 
state, but yet, the administration changed, and that executive 
order has been interpreted in many different ways. My question 
will be to you. What options of status will guarantee the U.S. 
citizenship for Puerto Rico?
    Dr. Ponsa-Kraus. Specifically as to the question of 
citizenship, only statehood guarantees citizenship for current 
U.S. citizens in Puerto Rico, and going forward under the 14th 
Amendment Citizenship Clause, Puerto Rico becomes a state, and 
birthright citizenship will exist in Puerto Rico now, and going 
forward. Other options, the United States has the power to 
grant citizenship anywhere in the world that it wants.
    So, advocates of free association argue that free 
association should come with U.S. citizenship. The truth is 
that I understand the difference that Governor Acevedo-Vila 
pointed to, that the other free associated states with 
relations to the United States weren't citizens beforehand, but 
it is really important to understand that the Commonwealth of 
the Northern Marianas had a choice to become a free associated 
state, or to enter into a different kind of arrangement with 
the United States, which ended up being territorial, and they 
made that choice in order to pursue citizenship. The United 
States could grant it that citizenship, but it didn't want to 
to a free associated state, and even if it didn't, this is what 
the people have to understand when they consider the options. 
The United States could always stop granting birthright 
citizenship going forward in a free associated state. So, even 
if it was preserved for some time, it could always be taken 
away. Only statehood guarantees it now and going forward.
    Miss Gonzalez-Colon. Thank you, professor. I yield back to 
the Chairman.
    The Chairman. Thank you. Mr. Graves, you are recognized for 
5 minutes. Mr. Graves? Let me ask the Ranking Member, is Mr. 
Graves available?
    Mr. Graves. Yes, he is. I'm sorry, sir.
    The Chairman. Thank you. You are recognized, sir.
    Mr. Graves. Mr. Chairman, I apologize. I've been in and out 
of the hearing today, and I'm trying to listen as best as I 
can. I want to thank all the witnesses for being here. I have a 
couple of questions. One, I heard one of the previous Members 
talking about treating Puerto Rico as a colony, and 
disrespecting the citizens.
    Look, I want to remind everybody here today that in the 
aftermath of the just awful, awful hurricanes that the island 
experienced that we provided billions and billions of dollars 
for the island, for restoration and disaster recovery efforts 
that Congresswoman Gonzalez-Colon fought for to make sure that 
the citizens of Puerto Rico would be treated properly. Let's be 
clear that these dollars were well beyond the capability of the 
Puerto Rican government, and we were there, and no one was 
disrespecting that fact, and I think if you were to go through 
and do an analysis of the cost per capita, it is probably one 
of the highest allocations in history in terms of dollars per 
person that was provided, and that's a direct result of Puerto 
Rico's delegates' hard efforts up in Congress. Governor, it is 
nice to see you again. I hope you are doing well.
    I want to ask you a very quick question, because I have 
some other ones. Can you just briefly respond, how will the 
Puerto Rican citizens respond to Federal taxation that they 
would be open to, and just being the Governor, could you kind 
of maybe just briefly explain, you have control over that now. 
You have the ability to tax at whatever rate you want 
effectively, and if now the Federal Government is going to come 
in and tax as well, is that a benefit? How would the citizens 
respond? Could you just briefly respond to that?
    Governor Pierluisi. Yes. Because of our income levels, a 
considerable number of our residents wouldn't pay Federal 
income taxes. Actually on the mainland, about 46 percent of the 
population does not pay Federal income taxes. So, Puerto Rico 
would be higher than that. At the corporate level, we would 
have to transition. We would have to transition this issue, and 
obviously Congress would have to step in the way.
    It makes no sense to admit a territory into the Union and 
to affect the territory. You would be assisting the territory 
in joining the Union. As an incorporated territory, we do not 
pay Federal income taxes on income we earn in Puerto Rico. We 
pay payroll taxes, and a lot of the American corporations doing 
in Puerto Rico actually pay Federal income taxes because they 
operate through divisions in Puerto Rico.
    On the manufacturing side, they're basically treated as 
foreign, and they are treated like investing in Puerto Rico is 
like investing in Ireland, or in Singapore. That's an area in 
which we would have to transition, but the tax uniformity 
clause of the U.S. Constitution shouldn't be viewed as static. 
In a circumstance like Puerto Rico is facing for a transition, 
and that's what I envision happening here.
    Mr. Graves. Sure. Thank you, Governor. I appreciate that 
answer. I also was just trying to listen, I hope that I caught 
all this accurately, but Governor Acevedo-Vila, you campaigned 
against statehood, and you had run an election, and didn't win 
that election, but it seems as though----
    Mr. Acevedo-Vila. Sorry, can you repeat, because I lost the 
audio for a bit. I'm hearing you now, but I lost you in the 
middle of questions.
    Mr. Graves. OK, I'm sorry about that. I was saying that you 
campaigned against statehood, and didn't win on that platform, 
and I'm trying to understand the official representative of the 
Popular Democratic Party, as I understand, Jose Dalmau is 
actually on record against H.R. 2070, yet I think you may be 
advocating differently, and I'm just trying to understand kind 
of the political complexities there.
    Mr. Acevedo-Vila. No, the Popular Democratic Party is 
against H.R. 1522. H.R. 2070, I'm not here on behalf of the 
Popular Democratic Party. I guess he was going to be invited, 
but I just want to make a clarification. Yes, I ran on the last 
election. I lost the election. I have heard here a lot of 
people say that statehood got more votes than any of the 
elected officials. But you know what? The vote against 
statehood--the no vote got more votes than any of the elected 
officials. People voted more against statehood than they voted 
for Resident Commissioner Gonzalez and Governor Pierluisi. That 
only shows that we are divided on this issue, and that the 
process of November 2020 was not really a balanced and fair 
process.
    Mr. Graves. Mr. Chairman, thank you. I know I'm over time, 
but I just want to make for the record, it is my understanding 
that the new Chairman of the Popular Democratic Party, Jose 
Dalmau, was actually on record against H.R. 2070. I yield back.
    The Chairman. Thank you, Mr. Graves. The gentleman yields. 
Anyone else to be recognized? I will take my opportunity now to 
ask a couple of quick questions, and then in some of the 
overtime, maybe indulge the Members with a couple of points.
    First of all, it was brought up once, and it was brought up 
in the communication from Ms. Gonzalez-Colon, and from the 
Ranking Member, Mr. Westerman, about doing in-person meetings 
insofar as those become important. And that that's the way to 
go, and that we could be much more productive, etcetera. Well, 
I don't disagree. The first thing that I would love to do is to 
have in-person meetings so that these discussions could occur. 
The issue for all the Members to know is that despite the 
deployment of vaccines, COVID cases continue to rise. In some 
parts of the country, cases are surging. In the last 7 days, 
the CDC has reported over 450,000 new COVID cases, and the 
Office of the Attending Physician continues to adamantly 
recommend that we maximize the utilization of remote work. We 
don't know the vaccine status of our Members and staff, and 
that's another reason.
    So, as this horrific situation that we all find ourselves 
in--not just Congress--we will begin to accelerate and put in 
the protocols necessary to have more in-person meetings. I am 
not enjoying the process that we have now, but this is the 
process we have, and the issue of Puerto Rico's status was 
something that--there was criticism that we were delaying this, 
or that it wasn't getting done. Well, it was getting done.
    So, the reason we did it, and we did it remotely, is that 
we need to expedite this and have this discussion, and begin 
the deliberations that I think are critical to dealing with 
this question. The other part that's critical in dealing with 
this question, my friends, is that there's a division. Not only 
a division in Puerto Rico in terms of opinion about statehood 
or another status, but also a difference of opinion within 
Congress, and a difference of opinion in the U.S. Senate, a 
difference of opinion in the House of Representatives. So, 
going forward, these kinds of discussions and deliberations are 
critical. Like it or not--and sometimes I like it less--
Congress has a critical role in this decision, and how it is 
going to be made.
    And I recognize the difficulty for some Members, but I also 
recognize that there's going to come a point where we're going 
to have to move forward on it, and I find it interesting that, 
just hypothetically, whichever one of these bills the House 
passes, that there will be a significant difference of opinion 
in the U.S. Senate. We've been communicating with the Biden 
White House through their Insular Affairs, and the Domestic 
Counsel, and other leadership in the White House, and asking 
for the Justice Department to issue an opinion on both pieces 
of legislation, and those will be forthcoming, and some of the 
constitutional issues that were brought up by the professor are 
part of the log of questions that we asked, including the 
binding nature in terms of us moving forward in terms of the 
vote that happened in November in terms of pro-statehood by the 
percentage that Mr. Graves pointed out. Nevertheless, that's 
where we're at, and that information will be shared with 
everybody.
    I have two quick questions. Mr. Natal, let me ask you a 
question. As we were going through this discussion, I heard a 
couple of things today, and many of the other questions that I 
would have asked that were on my list, other Members took care 
of. H.R. 2070, the public process, the stakeholder involvement, 
the community-based process. In support of that process, we 
heard today from primarily other panelists, and some of my 
colleagues up here on the dais that if you support this 
process, you are not acknowledging the clear cut decision that 
was made in November in that election. That it is an excuse to 
delay, and for Congress to be--I think the Governor put it to 
not to be courageous and make a decision. And that there's 
unconstitutionalities associated with one, and that a 
definitive answer has been made.
    So, my question to you, which is a question that is 
directly and indirectly posed to you through most of this 
hearing is, why not just let us have an up-or-down referendum 
on the question, and go forward from there? Why is this process 
of public engagement so critical? And let me put it to you for 
whatever answer, and then I have one more question, and I'm 
done.
    Mr. Natal-Albelo. Yes. Thank you, Chairman. The quick 
answer is this is not the first time that a referendum like 
this has taken place. Just to give you an idea, in the last 16 
years, 10 different bills have been presented regarding the 
statehood issue in the United States. We have had at least 
three referendums, and regardless whether the statehood 
supposedly got 97 percent or 55 percent, a process that's borne 
out of the lack of participation, out of exclusion, out of the 
imposition by one of the political parties, is a process whose 
outcome lacks democratic legitimacy, and that's why it doesn't 
matter if statehood got 97 percent 3 years ago, or it got 51 
percent this time around.
    It is a process that was borne out of the exclusion, and 
that's why it is so necessary that this Congress allows the 
people of Puerto Rico to put forward a participative and 
inclusive process of all non-colonial options, and I would just 
use this analogy, Chairman. Most individuals, and I respect 
that members of this Committee have yielded their time, either 
to Congresswoman Velazquez, or Congresswoman Gonzalez, because 
they understand that as Puerto Ricans, they know more about 
this than maybe they do.
    The Chairman. Yes.
    Mr. Natal-Albelo. And that's what they should do with this 
vote, and our support of H.R. 2070 yields the decision to the 
people of Puerto Rico, and let Puerto Ricans decide.
    The Chairman. The other question--and if I may, Mr. 
Fuentes, given your extensive experience, the work that you've 
done in Puerto Rico, the work that you did with the previous 
administration on issues related to Puerto Rico, the 
hypothetical I asked earlier in my comments, the last time 
around--the last 4 years, there was nothing definitive coming 
from the previous administration. We hope to get opinions soon, 
and there was no movement at all in the Senate with the 
previous leadership at that point.
    In fact, part of the Senate leadership at that point said, 
over my dead body, or we're going to do it with discretion of 
statehood or status for Puerto Rico. And then you have, like I 
said, the differences of opinion both in the House and in the 
Senate.
    How do you respond to the fact that we need to come to some 
closure, and how do we do that, given the dynamics, given the 
history, and given the fact that this issue is not an issue 
that can readily be dealt with in one vote, that it is going to 
require, I think, some level of deliberation, and consensus, 
but I leave that question to you. How do you see the progress 
going forward?
    Mr. Fuentes. Well, Chairman Grijalva, thank you very much 
for this hearing, which is very important. The way I see it, 
politics are playing a role in this process that is really 
unacceptable. As we've discussed previously, political 
forecasting is even worse than weather forecasting, but as we 
see Puerto Ricans leaving the island, and moving to the 
mainland to get better quality of life, what we now have is 3 
million Puerto Ricans living on the island, 6 million living in 
the mainland in one of the 50 states.
    So, that starts to create political power, and as that 
political power starts to be recognized, I believe that other 
voices are going to start understanding it and changing, and I 
would point out that Senator Scott and Senator Rubio in the 
U.S. Senate, both of whom recognize the importance of the 
Puerto Rican vote in central Florida, and both of whom have 
expressed themselves in favor of statehood, but need to create 
the basis for them to launch the effort in the Senate. It will 
happen.
    The Chairman. So, it still comes down to that--regardless 
of the discussions about what the Senate or the House can do, I 
think that Congress can pass legislation whether it is H.R. 
1522 or H.R. 2070, and that becomes the law, and we could 
project and talk about estimating what the constitutionality or 
non-constitutionality of it is, but once the decision is made 
by this body, and the other body, hopefully that question then 
becomes moot. All right. I want to thank all of the witnesses. 
I'd appreciate it if there are written questions that Members 
did not get to, that they would be forwarded to you. I 
appreciate it, Governor, thank you, Mr. Velez. And the meeting 
is adjourned. Thank you very much.
    Miss Gonzalez-Colon. Mr. Chairman----
    The Chairman. We are done with the meeting.
    Miss Gonzalez-Colon. No, I was just introducing 12 letters 
for the record, Mr. Chairman. That was all I had.
    The Chairman. Without objection, ma'am.
    Miss Gonzalez-Colon. Thank you, sir.

    The Chairman. The meeting is adjourned.

    [Whereupon, at 4:40 p.m., the Committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Submissions for the Record by Resident Commissioner Gonzalez-Colon

        Senado Estado Libre Asociado De Puerto Rico

Hon. Raul Grijalva, Chairman,
Hon. Bruce Westerman, Ranking Member,
House Committee on Natural Resources

    Dear Chairman Grijalva, Ranking Member Westerman:

    In the last couple of years media have made well known the 
situation of the island of Puerto Rico and its relationship with the 
United States. Puerto Rico was acquired from the Kingdom of Spain after 
the United States won the Spanish-American War in 1898. Since then, 
it's been treated as a possession with no intentions from the three 
branches of government to giving statehood to the island. In 1898, U.S. 
Army General Nelson Miles entered to the southern part of the island 
promising all Puerto Ricans not only to liberate them from Spanish 
tyranny, but also to give them the freedom from which the United States 
once were founded. A hundred and twenty-three years later Puerto 
Ricans, American Citizens from the island, are still waiting for that 
promise to be fulfilled.
    Today President Joe Biden and the Democratic Party are defending 
minority values. Their campaign was all about Black Lives Matters, 
minorities rights, anti-nationalism and fascism and the situation of 
Puerto Rico is not different for what Americans are living in the 
mainland. The federal government systematically discriminate against 
American Citizens, not only on the island, but in all the five 
populated territories. As other fellow statehood supporters from the 
island and the mainland, we don't want to talk more about the 
referendum results were statehood won by a significate majority, but 
for what we want to underline is about credibility and the future of 
the Democratic Party itself.
    In half of the 20th Century, the United States used Puerto Rico as 
a democracy showcase to Latin America and the Soviet world to 
demonstrate that American values, American living and dreams were the 
right direction for the world. We were on that road and we still 
believe in those values. Let's take the sword as once the young 
American Republic started to lead the free world, as General Nelson 
Miles once did to overcome tyranny in this strange times we are living 
and make example of how democracy works in times were the People's 
Republic of China, the Russian Federation and other autocratic states 
are taking advantage of that world that we once knew.

                               Hon. Keren Riquelme Cabrera,
                                      Senator at Large, Puerto Rico

                                 ______
                                 
                        Statement for the Record
                Puerto Rico Young Republican Federation

    On Wednesday, April 14, 2021, the Committee on Natural Resources 
Office on Insular Affairs held a remote Full Committee Legislative 
Hearing on the following bills:

    <bullet> H.R. 1522--To provide for the admission of the State of 
            Puerto Rico into the Union. Puerto Rico Statehood Admission 
            Act. This bill was introduced earlier this year by 
            Congresswoman Jenniffer Gonzalez-Colon (R-PR-AL) and 
            Congressman Darren Soto (D-FL-9) following the overwhelming 
            results of the latest political status plebiscite held in 
            Puerto Rico.

    <bullet> H.R. 2070--To recognize the people of Puerto Rico's right 
            to call a status convention through which the people would 
            exercise their natural right to self-determination and 
            establish a mechanism for congressional consideration of 
            such decision for other purposes. Puerto Rico Self-
            Determination Act of 2021. This bill was introduced after 
            H.R. 1522 by Congresswoman Nydia Velazquez (D-NY-7) in 
            clear opposition of H.R. 1522 and the Puerto Rican people's 
            electoral mandate to become the 51st state of the Union.

    Through this statement the Puerto Rico Young Republican Federation 
would like to unequivocally express its support for bill H.R. 1522 and 
its repudiation of bill H.R. 2070.
    Achieving statehood for the islands has been a top priority for the 
Puerto Rico Young Republican Federation since the day of its emergence. 
Puerto Rico became a U.S. territory as a result of the Spanish-American 
War of 1898, and its people have been American citizens for nearly as 
long. Puerto Ricans have significantly contributed to the well-being of 
the United States. Thousands of Puerto Ricans have served in the U.S. 
Armed Forces and fought in every major war since World War I. Tens of 
thousands currently serve. Puerto Rico statehood is simply the only 
right and moral political status option. It is long overdue for Puerto 
Ricans to attain the equality they deserve.
    Furthermore, the people of Puerto Rico have reiterated their 
rejection of the island's current territorial status by supporting 
statehood at the ballot box, not once, not twice, but three times in 
the last ten years. Nonetheless, H.R. 2070 seems to ignore fair and 
clean election results by disguising its opposition to Puerto Rico 
statehood and its furtherance of the colonial status using an obscure 
definition of ``self-determination''. H.R. 2070's call for ``self-
determination'' is a fallacy since it does not consider the choice of 
Puerto Rican voters and relies on a so-called ``status convention'' 
through which the people would exercise their natural right to ``self-
determination''. More so, that won't be enough to change Puerto Rico's 
political status. H.R. 2070 calls for congressional consideration of 
the decision.
    How is congressional power over the political status a form of 
``self-determination''? To make matters worse, H.R. 2070 was introduced 
by elected representatives who represent citizens of other 
jurisdictions outside of Puerto Rico and in an electoral process in 
which Puerto Ricans are not allowed to participate because of the 
current territorial status.
    Let us be clear, Puerto Rico held fair and clean elections on 
November 3, 2020, where the latest political status plebiscite took 
place. Statehood won fair and square. Therefore, it is clear that 
Puerto Ricans have exercised their right to self-determination, and it 
is time for the U.S. Congress to honor their will.
    We commend Congresswoman Gonzalez-Colon's efforts that have led to 
the introduction of H.R. 1522 and resulted in attaining bipartisan 
support for this crucial piece of legislation.
    We firmly believe that providing the people in Puerto Rico with the 
equal treatment they seek and deserve as proud citizens of the United 
States of America is long overdue, and we urge every single Member of 
Congress, both Republicans and Democrats, to acknowledge this most 
pressing matter by joining representatives Gonzalez-Colon and Soto in 
supporting H.R. 1522.

                                 ______
                                 
                            GOVERNOR OF PUERTO RICO
                                         Pedro R. Pierluisi

                                                      April 8, 2021

        Hon. Nancy Pelosi             Hon. Charles Schumer
        Speaker                       Majority Leader
        U.S. House of 
        Representatives               U.S. Senate
        Washington, DC                Washington, DC

        Hon. Mitch McConnell          Hon. Kevin McCarthy
        Republican Leader             Republican Leader
        U.S. Senate                   U.S. House of Representatives
        Washington, DC                Washington, DC

    Dear Speaker Pelosi, Majority Leader Schumer, Republican Leader 
McConnell, and Republican Leader McCarthy:

    As the Governor of the 3.2 million American citizens living in 
Puerto Rico, I write to urge you to respect my constituents' right to 
self-determination, which has been exercised three times during the 
last decade. On November 3, 2020, in a straightforward Yes or No vote, 
a clear majority of voters expressed--in no uncertain terms--that 
statehood is their preferred option to end over 100 years of 
colonialism. The November 3rd vote reconfirmed what my constituents had 
already expressed in the November 2012 plebiscite, in which a clear 
majority rejected the current political status and chose statehood as 
their preferred political status option.
    I therefore ask that you respond to the will of the United States 
citizens of Puerto Rico with legislation that will initiate the 
admission of Puerto Rico as a state. Any proposal that would prolong a 
territorial status that has been flatly rejected by the voters in the 
guise of promoting a complicated and superfluous process of self-
determination that ignores our people's vote must be rejected.
    The territorial relationship between Puerto Rico and the United 
States has been the subject of extensive study and debate. It is time 
for Congress to begin the admission process that Puerto Rico's voters 
clearly favor.
    The appropriate response to the American citizens of Puerto Rico is 
the enactment of H.R. 1522, ``The Puerto Rico Statehood Admission Act'' 
sponsored by Representative Darren Soto and Resident Commissioner 
Gonzalez-Colon, and S. 780 in the Senate sponsored by Senator Martin 
Heinrich. Under this legislation Congress would set forth the terms and 
conditions under which Puerto Rico would be admitted as a state of the 
Union, and the voters of Puerto Rico would be given the opportunity to 
accept or reject such admission in a final referendum before it is 
proclaimed.
    When you consider H.R. 1522, I ask you to think about how your own 
constituents would feel if their full rights as Americans were still in 
question after being citizens of the United States for well over a 
century and after voting for statehood. How would they feel if the 
response from Congress was to set aside their expressions of self-
determination with legislation that would delay the end of their 
territorial status?
    Your support for H.R. 1522 and S. 780 will reaffirm the most sacred 
principles upon which our system of government was founded and will 
strengthen our democracy.

            Sincerely,

                                         Pedro R. Pierluisi

                                 ______
                                 
                                                     April 12, 2021

        Hon. Nancy Pelosi             Hon. Charles Schumer
        Speaker of the House          Senate Majority Leader
        U.S. House of 
        Representatives               U.S. Senate
        Washington, DC                Washington, DC

        Hon. Mitch McConnell          Hon. Kevin McCarthy
        Senate Republican Leader      House Republican Leader
        U.S. Senate                   U.S. House of Representatives
        Washington, DC                Washington, DC

    Dear Speaker Pelosi, Majority Leader Schumer, and Leaders McCarthy 
and McConnell:

    We, the undersigned legal and constitutional scholars, write to 
express our strong opposition to the Puerto Rico Self-Determination 
Act, H.R. 2070, and its Senate companion bill, S. 865, and to register 
our equally strong support for the Puerto Rico Statehood Admission Act, 
H.R. 1522, and its Senate companion bill, S. 780.
    Like all Americans, we support self-determination. But unlike the 
supporters of the Puerto Rico Self-Determination Act, we believe that 
genuine self-determination requires the United States to offer Puerto 
Ricans a real choice. By ``real,'' we mean constitutional and non-
territorial. Puerto Rico's self- determination options must be 
constitutional, for the obvious reason that neither Congress nor Puerto 
Rico has the power to implement an unconstitutional option. And they 
must be non-territorial, because a territorial option is not self-
determination.
    There are two, and only two, real self-determination options for 
Puerto Rico: statehood and independence. Yet the Puerto Rico Self-
Determination Act defies constitutional reality by calling upon Puerto 
Ricans to define other non-territorial options. There are no other non-
territorial options. For many decades, advocates of ``commonwealth'' 
status argued that it was non-territorial. They argued that when Puerto 
Rico made the transition to commonwealth status in 1952, it ceased to 
be a U.S. territory, became a separate sovereign, and entered into a 
mutually binding compact with the United States. But they were wrong. 
Quite simply, Congress does not have the power to create a permanent 
union between Puerto Rico and the United States except by admitting 
Puerto Rico into statehood. Lest there be any doubt, the U.S. Supreme 
Court has repeatedly and recently refuted the controversial ``compact 
theory.'' In Puerto Rico v. Sanchez Valle (2016), the Court ended seven 
decades of debilitating debate over the question of whether Puerto 
Rico's commonwealth status created a permanent union between two 
separate sovereigns with an unequivocal ``no'': as the Court made 
clear, Puerto Rico is, and always has been, a U.S. territory, and 
Congress retains plenary power to govern the island under the Territory 
Clause of the Constitution (Art. IV, Sec. 3, cl.2). And in Financial 
Oversight and Management Board of Puerto Rico v. Aurelius Investment 
LLC. (2020), the Court went on to explain that Congress's creation of a 
federal board with substantial powers over Puerto Rico's local 
government was a permissible exercise of Congress's plenary power over 
a U.S. territory. In short, as long as Puerto Rico is neither a state 
of the Union nor an independent nation, it will remain a territory. By 
inviting Puerto Ricans to define non-territorial options other than 
statehood or independence, the inaptly named Puerto Rico Self-
Determination Act disserves its purported goal by perpetuating the 
pernicious myth that such options exist. They do not.
    Despite longstanding political division within Puerto Rico, Puerto 
Ricans have long shared an overwhelming consensus on two key points: 
They reject territorial status and they wish to remain U.S. citizens. 
But while both statehood and independence would fulfill the goal of 
self-determination, only one of those options would guarantee U.S. 
citizenship: statehood. Last November, in an unmistakable effort to 
determine their political future, a clear majority of Puerto Ricans 
voted ``yes'' in their own referendum on statehood. Now that Puerto 
Ricans have publicly and officially asked for statehood, it is time for 
the United States officially to offer it. The Puerto Rico Statehood 
Admission Act does just that.
    Proceeding respectfully, cautiously, and pragmatically, the Puerto 
Rico Statehood Admission Act responds to the November referendum with 
an offer of statehood and sets the terms for admission, but it makes 
admission contingent on a second referendum in which Puerto Ricans 
would ratify their choice. Were they to do so, the President would 
issue a proclamation admitting Puerto Rico as a state within one year 
of the vote. If they were to reject statehood, then the island would 
remain a territory with the option to pursue sovereignty at any time in 
the future--so the Act does not force statehood on Puerto Rico in any 
way. In other words, the Puerto Rico Statehood Admission Act respects 
the result of Puerto Rico's referendum by responding with concrete 
action, while ensuring that Puerto Ricans have the first and last word 
on their future.
    In the 123 years since the United States annexed Puerto Rico, 
Congress has never offered Puerto Ricans the choice to become a state. 
Instead, the United States has allowed Puerto Rico to languish 
indefinitely as a U.S. territory, subjecting its residents to U.S. laws 
while denying them voting representation in the government that makes 
those laws. We strongly support a congressional offer of statehood to 
Puerto Rico, and we urge Congress to pass the Puerto Rico Statehood 
Admission Act immediately.

            Signed,*
            *University affiliations listed for identification purposes 
            only.

        Jack M. Balkin                Christopher P. Banks
        Knight Prof. of Const. Law    Professor, Political Science
        Yale Law School               Kent State University

        Evelyn Benvenutti Toro        Jessica Bulman-Pozen
        Professor of Law              Betts Professor of Law
        InterAmerican Univ. of 
        Puerto Rico School of Law     Columbia Law School

        Kathleen Burch                Guy-Uriel E. Charles
        Professor of Law              Professor of Law
        Atlanta's John Marshall Law 
        School                        Duke Law School

        Erwin Chemerinsky             Cornell W. Clayton
        Dean and Jesse H. Choper 
        Distinguished Prof. of Law    C.O. Johnson Distinguished Prof. 
                                      of Political Science
        U.C. Berkeley School of Law   Washington State University

        David S. Cohen                Andres L. Cordova
        Professor of Law              Professor of Law
        Thomas R. Kline School of 
        Law, Drexel University        InterAmerican Univ. of Puerto 
                                      Rico School of Law

        Erin F. Delaney               Walter Dellinger
        Professor of Law              Douglas Maggs Emer. Prof. of Law
        Northwestern Pritzker 
        School of Law                 Duke University

        Carlos Dias Olivo             Michael C. Dorf
        Professor of Law              Robert S. Stevens Professor of 
                                      Law
        Univ. of Puerto Rico School 
        of Law                        Cornell Law School

        Stephen M. Feldman            Martin S. Flaherty
        Distinguishe Prof. of Law     Leitner Family Prof. of Intl. Law
        University of Wyoming         Fordham Law School

        Barry Friedman                Luis Fuentes-Rohwer
        Jacob D. Fuchsberg Prof. of 
        Law                           Professor of Law
        New York Univ. School of 
        Law                           Maurer School of Law, Indiana 
                                      Univ.

        Lauren Gilbert                Leslie F. Goldstein
        Professor of Law              Judge Hugh M. Morris Prof. 
                                      Emerita
        St. Thomas Univ. College of 
        Law                           University of Delaware

        David Golove                  Mark A. Graber
        Hiller Family Foundation 
        Prof. of Law                  Univ. System of Maryland Regents 
                                      Professor
        New York University School 
        of Law                        Univ. of Maryland, Francis King 
                                      Carey School of Law
        Jonathan Hafetz               Helen Hershkoff
        Professor of Law              Professor of Constitutional Law
        Seton Hall Univ. School of 
        Law                           New York Univ. School of Law

        Gary J. Jacobsohn             Randall L. Kennedy
        H. Malcolm Macdonald Prof.    Michael R. Klein Prof. of Law
        University of Texas at 
        Austin                        Harvard Law School

        J. Andrew Kent                Mark R. Killenbeck
        Prof. of Law & John D. 
        Feerick Research Chair        Wylie H. Davis Distinguished 
                                      Prof. of Law
        Fordham Law School            University of Arkansas

        Stephen R. Lazarus            Lawrence Lessig
        Associate Professor of Law    Roy L. Furman Prof. of Law
        Cleveland-Marshall College 
        of Law                        Harvard Law School

        Sanford V. Levinson           Ira C. Lupu
        Professor of Government       Prof. of Law Emeritus
        University of Texas at 
        Austin                        George Washington Univ. Law 
                                      School

        Martha Minow                  Samuel Moyn
        300th Anniversary Univ. 
        Professor                     Henry R. Luce Prof. of 
                                      Jurisprudence
        Harvard University            Yale Law School

        Christina D. Ponsa-Kraus      David Pozen
        George Welwood Murray Prof. 
        of Legal History              Charles Keller Beekman Prof. of 
                                      Law
        Columbia Law School           Columbia Law School

        Richard Primus                Kermit Roosevelt
        Theodore J. St. Antoine 
        Coll. Prof.                   Professor of Law
        Univ. of Michigan Law 
        School                        Univ. of Pennsylvania Law School

        Lawrence Sager                Rogers M. Smith
        Alice Jane Drysdell 
        Sheffield Regents Chair       Christopher H. Browne 
                                      Distinguished Profesor
        University of Texas at 
        Austin                        University of Pennsylvania

        Girardeau A. Spann            Kate Stith
        Professor of Law              Lafayette S. Foster Prof. of Law
        Georgetown University Law 
        Center                        Yale Law School

        Geoffrey R. Stone             Nelson Tebbe
        Edward H. Levi Dist. Prof. 
        of Law                        Jane M.G. Foster Prof. of Law
        University of Chicago         Cornell Law School

        Laurence H. Tribe             Stephen I. Vladeck
        Carol M. Loeb University 
        Professor and Prof. of 
        Const. Law                    Charles Alan Wright Chair in 
                                      Federal Courts
        Harvard Law School            Univ. of Texas School of Law

        Kenji Yoshino
        Chief Justice Earl Warren 
        Prof. of Constitutional Law
         New York University School 
        of Law

                                 ______
                                 
                                                     March 18, 2021

        Hon. Raul Grijalva            Hon. Bruce Westerman
        Chairman                      Ranking Member
        House Committee on Natural 
        Resources                     House Committee on Natural 
                                      Resources

        Hon. Joe Manchin              Hon. John Barrasso
        Chairman                      Ranking Member
        Senate Committee on Energy 
        & Natural Resources           Senate Committee on Energy & 
                                      Natural Resources

    Dear Chairman Grijalva, Ranking Member Westerman, Chairman Manchin, 
Ranking Member Barrasso:

    For over one-hundred years, the U.S. citizens of Puerto Rico have 
been disenfranchised in federal elections and subjected to unequal 
treatment across federal programs. Last November, voters stood up to 
change that when an absolute majority of 53% demanded statehood in a 
locally sponsored referendum. The Puerto Rico Statehood Admission Act, 
H.R. 1522 and S. 780, directly respond to that mandate, and we urge you 
to support it and help get it approved as soon as possible.
    Puerto Rico's referendum was historic because it is the first time 
that statehood received unquestionable majority support on the island 
with a simple ``YES'' or ``NO'' vote. The 117th Congress is therefore 
presented with a unique opportunity to make history and put an end to 
America's inherently colonial rule over Puerto Rico, which runs counter 
to America's values of democracy, equal justice under the law, and 
government by the consent of the governed.
    We recognize there are some in Congress, such as Rep. Nydia 
Velazquez (NY) and Sen. Robert Menendez (NJ), who oppose statehood for 
Puerto Rico and have completely ignored the results of the referendum 
held last November. Today, they will be submitting a counter-proposal, 
the Puerto Rico Self-Determination Act (PRSDA), which has faced 
criticism from representatives of all status options.
    The most significant concern, across party lines, is that the PRSDA 
is ultimately non-binding. Under the bill, Congress would be under no 
obligation to implement whichever status option is chosen by the 
convention and later voted on by the electorate. This would represent a 
huge setback for voters in Puerto Rico who have engaged in multiple 
acts of self-determination over the last decade and have shown, with 
increasing clarity, that Puerto Rico's voters reject the current 
territory status and favor statehood above all non-territory options.
    Beyond the will of the people on the island, however, Puerto Ricans 
stateside also favor statehood by wide margins. For example, recent 
polls show 81% of Puerto Rican residents in Florida and 69% of those in 
New York favor the admission of the island as a state. A majority of 
Americans have also supported the idea for decades according to Gallup. 
This is a settled issue on the island as well as across the Nation, and 
Congress has a moral obligation to act.
    The only legislative option that respects the will of the people of 
Puerto Rico, and ensures a binding process of self-determination is 
H.R. 1522 & S. 780, the Puerto Rico Statehood Admission Act. By 
offering statehood, stipulating the terms of admission, and requiring a 
ratification vote, Congress would finally open the door to full 
equality and democracy for the U.S. citizens of Puerto Rico while 
leaving the ultimate choice in their hands. If a majority opposes 
statehood at that point, then the island would remain a territory with 
the capacity to pursue independence or free association through the 
procedural mechanism of their choice, including a status convention. 
Congress has a moral obligation to let the people of Puerto Rico decide 
their own self-determination process.
    Our organizations represent the majority of voters in Puerto Rico, 
as well as their allies stateside. We believe it's time to put an end 
to the dysfunctional, outdated, and undemocratic territory status to 
which Puerto Rico has been subjected. We call on Congress to open the 
door to full enfranchisement and equality for our fellow U.S. citizens 
in Puerto Rico by supporting and passing the Puerto Rico Statehood 
Admission Act. America can and must do better.

            Sincerely,

        George H. Laws Garcia         Annabel Guillen
        Executive Director            President
        Puerto Rico Statehood 
        Council                       Igualdad, Futuro Seguro

        Irma R. Rodriguez             Kathianie Banchs
        President                     President
        Puerto Rico Escogio 
        Estadidad                     Young Professionals for Puerto 
                                      Rico Statehood

        Jose Cabrera                  Hon. Cesar Mendez-Otero
        Chair                         President
        Puerto Rico Star Project      Coalicion Pro Derechos E Igualdad

        Dr. Zayira Jordan             Jesus Perez
        Founder                       Executive Director
        Frente Estadista              52 States of America

        Dr. Jose Vicente              Hon. Ivan D. Hernandez
        President                     Chairman
        Alianza Pastoral por Puerto 
        Rico                          Consejo de Ex Alcaldes de Puerto 
                                      Rico

        Harry Marquez Rodriguez       Hon. Kenneth McClintock
        President                     President
        Organizacion de Pensionados 
        Estadistas                    Puerto Rico Equality Forum

        Hon. Jose Aponte-Hernandez    Brig. Gen. Victor Perez (Ret.)
        Executive Director            Director
        Instituto Mision Estadista    Organizacion de Veteranos 
                                      Progresistas

        Luis Davila Pernas            Ricardo Aponte
        National Committeeman         Executive Director
        Democratic Party of Puerto 
        Rico                          Republican Party of Puerto Rico

        Gabriela M. Medina Marrero    Josue Rivera
        President                     Chairman
        Young Democrats of Puerto 
        Rico                          Puerto Rico Young Republican 
                                      Federation

        Hon. Luis Berrios-Amadeo      Frankie Martinez-Blanco
        Former Shadow U.S. 
        Representative                Former Associate Member
        Puerto Rico Statehood 
        Commission                    President's Task Force on Puerto 
                                      Rico's Status

        Hon. Milagros Lopez           Ken Oliver
        President                     Director
        Votar es Poder                U.S. Council for Puerto Rico 
                                      Statehood

        Elvin Mendez Rosa             Luis Matos
        President                     President
        Movimiento Revolucion 
        Estadista                     Renacer Ideologico Estadista
        Jorge I. Rodriguez 
        Feliciano                     Wilfredo Rivera
        President                     President
        Puertorriqueno Pro Union 
        Permanente                    Impulso 51/Estado Igualdad

        Joel Salgado                  Ricardo Marrero Passapera
        Administrator                 President
        La Suprema Definicion         Ahora Si Puerto Rico

        Gerardo Ramirez               Javier de la Luz
        Director                      Founder
        Movimineto Estadista 
        Puertorriqueno                Boricuas con Kamala

        Ruth Marrero                  Jose A. Correa Alvarado
        President                     Outreach Coordinator
        Senior 51                     We The People

        Alexander Acevedo             Hon. Roberto Lefranc Fortuno
        Spokesperson                  President
        Democratas Activaos           Juventud Estadista de Guaynabo

        Emilio Ruiz                   Kemuel Delgado
        Lead Organizer                Founder & Lead Organizer
        Puerto Rico Statehood 
        Supporters of Florida & USA   Junte Estadista de Puerto Rico

        Dess Soto                     Margarita Vives
        Coordinator                   President
        Coalicion Pro Derechos E 
        Igualdad PR51 Florida 
        Chapter                       Coalicion Pro Derechos E Igualdad 
                                      PR51 Guaynabo City Chapter

        Elizabeth Reyes               Eric Cardona
        Spokesperson                  Spokesperson
        Puerto Rico Equality 
        Coalition, Massachusetts 
        Chapter                       Puerto Rico Equality Coalition, 
                                      Florida Chapter

        Doralice Matta                Pedro Luis Hernandez Gomez
        Founder & President           Lead Orgnizer
        Las Avispas Azules            Bateador Estadista

        Edgardo Vargas Moya           Ivan G. Gonzalez
        Spokesperson                  Editor & Chief
        Isabelinos por la Igualdad    Inside The Colony

        Reina Davis Perez             Nilka Marrero Garcia, M.Div
        President                     President
        Statehood Educational Group   Mision Solidaria de Amor

        Kevin Romero                  Benny Ortiz
        President                     President & CEO
        Instituto de Politica 
        Publica y Estadidad           Los Latigos Azules

        Francisco ``Pompy'' 
        Gonzalez                      Cristobal Berrios
        Presidente                    President
        Estado PRUSA                  Accion Civil Para El Status

        Samuel Rodriguez
        CEO
        Borinqueneers Congressional 
        Gold Medal Ceremony Natl. 
        Committee
                                 ______
                                 
                        Statement for the Record
                        Jose F. Aponte-Hernandez
               Former Speaker and Representative at Large
                  Puerto Rico House of Representatives
                              on H.R. 1522

    Thank you to the Committee leadership for convening this hearing 
and allowing me to speak in support of H.R. 1522.
    I am a former Speaker and current member of the Puerto Rico House 
of Representatives. More importantly, I am an American citizen since 
birth who has been denied his most fundamental democratic rights by 
virtue of living in a U.S. territory. My statement before this 
honorable body supporting H.R. 1522 pertains to both of these 
inseparable aspects of my reality. It is also backed by the freely 
expressed will of a majority of Puerto Rico residents and supported by 
more than two hundred and fifty (250) years of philosophical and legal 
precedent that serve as the foundation for this Nation.
    My fellow citizens on the Island have defended these values with 
their blood, sweat, and tears. Even our veterans are deprived of equal 
and dignified treatment after fulfilling their obligations abroad, 
after fighting elsewhere for the fundamental rights they lack. I have 
first-hand knowledge of these challenges and inequalities. My father 
and brother are veterans, the former of the Second World War and the 
latter from the Vietnam War.
    This information is not novel. One hundred twenty years have 
created a formidable record on which this Congress should feel obliged. 
We have endured over a century of self-serving discriminatory and 
contradictory legal interpretations and constant rule changes contrary 
to basic democratic principles and the very concept of civil rights.
    I respectfully must point out that this Congress and this Committee 
are not oblivious to the injuries perpetrated but have been one of its 
leading promoters, either by action or omission. Hundreds of public 
hearings such as this one have been held. The same arguments and facts 
are rehashed every couple of years without concrete steps. This inertia 
is the best available evidence of the inherent disadvantages of our 
political condition.
    Political discourse is only transcendent when it is accompanied by 
action. When principles are treated as a catchphrase, we must not 
forget that they lose their value and become mere propaganda. Thus, in 
its analysis, this political body must also face its obligations and 
decide its current and prospective roles in upholding this Nation's 
ideals. It must choose between the usual comforts of ``neutrality'' and 
the tensions associated with fulfilling a demand for justice.
    As the public record reflects, on election day, November 3, 2020, 
the American citizens of Puerto Rico were presented with a question 
identical to that used by former territories admitted as a state: 
Should Puerto Rico be immediately admitted into the union as a state? 
The result reiterated the public expression on multiple previous 
electoral events (See Appendixes A-1/A-3). A majority of the people of 
Puerto Rico supported statehood. Specifically, and as certified by the 
Puerto Rico State Elections Commission: The YES option received 655,505 
votes which amount to 52.52%, and the NO alternative received 592,671 
or 47.48% of the votes.
    Democracy and the political process have clear and specific rules 
of engagement and interpretation. These are the cornerstones of the 
social contract. Under our voting system, the votes duly emitted are 
the ones that are counted. The majority of those is recognized as the 
people's will. Otherwise, legitimacy and stability are impossible to 
achieve. That is democracy; that is the rule of law. This exercise is 
much simpler in a case like the plebiscite held on Tuesday with a well-
crafted question and simple (yes/no) alternatives.
    Of course, there is always a segment of the political opposition 
who resort to after-the-fact interpretations, rule changes, and 
political spin in a way that discredits the people's will. Demagoguery 
under the guise of objectivity is nothing new.
    Some have succumbed to an easy out in their analysis of our 
aspirations. Some feel that financial stability is a precondition to a 
change in political status. Their position fails to recognize the very 
nature of the problem. The total disenfranchisement and unequal 
treatment of the people of Puerto Rico are the cause and not the effect 
of our current socioeconomic condition. The impact of a territorial 
system, which deprives American citizens of their fundamental civil 
rights, permeates all aspects of our lives. We hear every day the 
public cry for equal treatment as American citizens, but what does that 
mean? It is impossible to address the individual rights issue without 
simultaneously addressing the collective structural issue.
    Ignoring the impact of political subordination and unequal 
treatment devalues civil rights and democratic principles to the point 
that it renders them subsidiary to financial or fiscal constraints. 
This argument is reminiscent of poll taxes, where financial solvency 
was a prerequisite to the exercise of voting rights. It seems as if 
some Members of Congress keep blurring and moving the ``finish line'' 
to avoid its obligations toward the American citizens of Puerto Rico.
    Others have resorted to encumbering the process so that their 
positions prevail regardless of the people's will.
    A false equivalence has been created between two legislative 
projects (H.R. 1522 and H.R. 2070) dealing with the Puerto Rico status 
issue that must be questioned and challenged. Let there be no doubt, 
these two projects that differ in intent, philosophy, and legitimacy. 
However, their joint discussion pretends to give the impression that 
both positions are equally situated. That there is no majority 
expression. This action is akin to a legislative poison pill whose 
victims are the people of Puerto Rico and only benefits a minority 
expressly rejected by the people of Puerto Rico. Congress cannot make 
feasible a process that reinforces colonial theories and 
recriminations.
    At the helm of this legislative strategy are Congresswomen Nydia 
Velazquez and Alexandra Ocasio-Cortez of New York, who historically 
have been affiliated to the parties who promoted the losing proposition 
in the plebiscite. We respect them and are aware of all Congressmen and 
women's authority to file bills that transcend their districts' limits. 
However, we reject using their authority as a subterfuge to impose 
their will against a clear, direct, and forceful expression of the 
people. Regardless of their ancestry, they do not represent the 
American citizens of Puerto Rico; they represent districts in New York. 
Unlike Jennifer Gonzalez-Colon (proponent of H.R. 1522), who was 
elected by the majority of the voters in Puerto Rico (512,697 votes), 
the distinguished Congresswomen from New York have never received a 
single vote in Puerto Rico. Let there be no doubt, the weight of their 
opinions stems from the Territorial Clause and not from the freely and 
democratically stated will of the people on the Island. Their opinions 
are not representative of the views of a majority of my fellow citizens 
in the Islands but rather an imposition from New York. That is 
precisely the very definition of colonialism.
    Besides the vote's outcome, it is essential to recognize that this 
majority resulted from an open process. As seen from the official 
filings before the Puerto Rico State Elections Commission (See 
Appendixes B-1/B-3), all major political parties in the Island 
expressed an official position regarding the proposed alternatives. One 
of the groups that actively campaigned in favor of the NO option was an 
organization named ``Boricuas Unidos en la Diaspora.''
    One of its leaders was former governor Anibal Acevedo-Vila, who was 
also the resident commissioner candidate for the main opposition party 
(Popular Democratic Party) and whose candidacy was decisively rejected 
by people of Puerto Rico in these past elections. Attached you will 
find a copy of his plebiscite campaign ad for that group (See 
Appendixes C-1/C-4, more information available at https://
m.facebook.com/watch/?v=730377810883381&_rdr). Who were among the other 
active participants in this group? Not surprisingly, Congresswoman 
Nydia Velazquez and Alexandria Ocasio-Cortez, and former Congressman 
Luis Gutierrez. Precisely, the architects and promoters of H.R. 2070.
    Similarly, and as expected, newly created ``citizen'' organizations 
pretend to flood the legislative record with alternative and 
discredited theories. Some of these ``new groups'' serve as the alter 
egos of politicians who the people of Puerto Rico expressly rejected. 
Precisely those who actively campaigned in favor of the NO option in 
the plebiscite.
    H.R. 1522's legitimacy was not manufactured politically, behind 
closed doors, but is the product of democracy itself, by the voice of 
our people. It represents the aspirations of the majority, those who 
have to suffer from its implications.
    It is a contradiction to proclaim the virtues of democracy and then 
work hard to hinder it. Consistency and credibility are intertwined. No 
amount of political spin can discredit democracy and the fact that the 
American citizens of Puerto Rico demand statehood. The status issue is 
not a matter of personal loyalties but legitimacy. We, the people of 
Puerto Rico, have spoken.
    You have a historic opportunity to help rectify the state of 
structural disadvantage that has placed millions of American citizens 
in a subordinate position. The United States is a nation founded on 
principles of justice and the dignity of all. Statehood would not only 
be consistent with these principles, and thus, in the best interests of 
the Nation, but the recognition of our will.
    Congress has a moral, political, and legal obligation to resolve 
Puerto Rico's political status. Our Island has voted and opted for 
Statehood three times in the last decade. Accordingly, I strongly 
support H.R. 1522 and urge all members of this Committee to recommend 
its approval.

                                 *****
                                 
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                  


                                 
   CIVIL RIGHTS COALITION FOR PUERTO RICO STATEHOOD

                                                     April 13, 2021

        Hon. Raul Grijalva            Hon. Bruce Westerman
        Chairman                      Ranking Member
        House Committee on Natural 
        Resources                     House Committee on Natural 
                                      Resources

        Hon. Joe Manchin              Hon. John Barrasso
        Chairman                      Ranking Member
        Senate Committee on Energy 
        & Natural Resources           Senate Committee on Energy & 
                                      Natural Resources

    Dear Chairman Grijalva, Ranking Member Westerman, Chairman Manchin, 
Ranking Member Barrasso:

    For over one hundred years the U.S. Citizens of Puerto Rico have 
been disenfranchised and treated unequally while most fellow citizens 
were unaware of this civil rights violation. Hurricane Maria opened the 
eyes of our great nation to the poverty, lack of representation and 
rights of those of us living in the oldest colony in the world. Last 
November voters in the island once more stood up to change the 
discriminatory treatment that we have been summited to. With an 
absolute majority, 53%, our people demanded statehood for Puerto Rico. 
There is nowhere to hide anymore, this Congress has the responsibility 
to act, and act now.
    The United States, the beacon of democracy for the rest of the 
world, has a blind spot to justice in that it has more than 3.1 million 
of its own citizens living in a colony, denied of their civil rights 
and treated as less than equal.
    We respectfully must insist that this hearing and all urgent 
congressional proceedings in 2021 meant to eradicate this civil rights 
inequality should be about accelerating the necessary steps to admit 
Puerto Rico to the Union. Any other dilation of duty, distraction, 
inertia or barrier to the democratic will of those of us living the 
second-class citizenship of colonial rule, is not in line with 
democracy and the better interests of the Republic. There are some 
simple truths that the honorable members of this Congress are duty 
bound to confront. The status quo is dead and the democratic will of 
the people of Puerto Rico is undeniable. If this hearing is to do 
nothing yet again and kick the can to another generation, I 
respectfully must warn that you would be telling the 3.1 million 
citizens of Puerto Rico that democracy does not apply to us by virtue 
of our location, ethnicity, and lack of power at this time.
    The fact that some powerful politicians and business leaders keep 
opposing our civil and inalienable right to equality, vote, and 
representation despite the expressed democratic will of our fellow 
islanders, is outright un-American. Democracy will not be denied. 
Democracy will be served either by a George Washington-inspired 
understanding of what is fair and just by the honorable members of this 
committee or it shall be sought by the cries of our demands for our 
civil rights to be respected and our standing as equal to be honored. 
We will accept no less and you should aspire to no less. After all, 
isn't the American Experience about freedom and equality? 123 years is 
a long time to wait for it and the consequences have been devastating.
    The Supreme Court Justices in the Insular Cases of 1901 denied our 
right to equality and statehood because we were, quoting their own 
words, ``savages''. If you choose to perpetuate this inequality, what 
do you tell your children? What shall be inscribed in the Congressional 
record? How will history judge members who in the face of a thrice-
expressed democratic vote, deny the most Americans of rights? We are 
watching. The world is watching to see if our civil rights will 
continue to be violated and by whom. There are no two sides of equal 
merit or validity anymore. Members must choose to either be for 
democracy and support statehood now or for Jim Crow colonialism and 
either do nothing or support a decades long convoluted effort to have a 
few chosen people decide the fate of those who believed in the one 
wo(man), one vote pillar of American Democracy. Inertia can't be an 
alternative anymore. It's over and the time is now, today, AHORA, to do 
what is right or forever be a civil rights denier. The status quo died 
with the last plebiscite.
    The perpetuation of the colony is a Jim Crow era legacy that 
subjugates US residents of the island and robs us of the civil rights 
you enjoy. At this moment of great expectations, I can't describe in 
any other way than outright shameful that some fellow US citizens (and 
particularly Latinos and Puerto Rican-Americans that enjoy the equality 
of living the prosperity of statehood but know our reality and advocate 
to keep us poor and under anti-democratic submission without vote or 
voice), lend their names and voices to sustaining an anti-American and 
anti-democratic structure for perpetuation of the poverty of rights and 
means that is colonial rule. The idea of more study, further delay of 
democracy, and outright denial of what just happened is not in line 
with the ideals of the Federalist Papers or the Constitution. To those 
who oppose granting our civil rights and delaying justice via a 
subterfuge of no action or acting to put further hurdles in front of 
the democratic will of our people must hear our voices now. Make no 
mistake, Puerto Rico is watching carefully.
    I ask your indulgence to provide frightening statistics that 
cruelly paint the civil rights deficit as experience in the daily lives 
of the US citizens of Puerto Rico. Facts tell the truth and give us a 
stark reminder that this blind spot of democracy under the US flag 
creates suffering every day.

    Facts about Puerto Rico that tell the story of inequality:

    <bullet> Over 5 million Puerto Ricans have moved stateside over the 
            decades and 3.1 million are left on the island. Are you 
            waiting for the island to be empty to finally grant 
            statehood? Why? Why empty paradise? Why so few come back to 
            the island?

    <bullet> In 2019, 66,021 island residents ``voted'' by buying a 
            one-way ticket to statehood with their suitcases in tow, 
            and left Puerto Rico (that is 180 good-byes per day, every 
            single day). Insensitive delay tactics are breaking our 
            families apart every single day. It is shameful and un-
            American.

    <bullet> An average family in Puerto Rico makes $25,338 per year 
            which is 39% of the US average of $65,712. We are 
            relatively worse off as compared to the national average 
            than we were in 1952, when what was ironically called Free 
            Associated State in Spanish in Puerto Rico and the 
            gentrified ``Commonwealth'' sold to Congress and the United 
            Nations, was established as the perpetuation of the oldest 
            colony in the world (continuous civil rights deficit since 
            1492).

    <bullet> Over 45% of our residents are living under the poverty 
            level (1 in 2!)

    <bullet> We have a very high dependency on welfare.

    <bullet> Puerto Rico suffers the worst inequality under the US flag 
            with a GINI rate (where 1 is equal) of 0.5509.

    <bullet> In addition to low wages, we endure a high cost of living 
            including government sponsored regressive taxation of our 
            poorest people that should put to shame liberals and 
            conservatives alike.

    No wonder, again today, another airplane full of our smart and 
hardworking people hugged their mom's good-bye and left our island for 
good. Delaying the democratic cry for statehood of our island would 
accelerate this. Is anyone in your committees wishing to sentence 
another generation of Puerto Ricans to broken families and certain 
poverty? Do you want another plane to leave tomorrow? May it weigh on 
your conscience, as it does on my heart every day, and may you please 
see that decisions to act or delay have consequences and these affect 
real and decent citizens of these United States. Delay and anti-
democratic practices create more suffering. Those of you enjoying your 
civil rights stateside don't seem to understand that you are playing 
with our lives and our rights as if this was 1901 and we were the 
``savages'' still written in the rulings used to this day to deny us 
equal rights. The time for patient study, delay tactics, committees, 
and task forces is over. Democracy has spoken. Let her live! Our 
veterans and their sacrifices should remind all that if we are equal in 
battle, we must be equal in voting and civil rights.
    For 69 years, the argument to do nothing is that we can't agree on 
a solution. The scaffolding to that argument has been carefully crafted 
by those who benefit at the local and stateside level from colonial 
rule and the funds that arrive for this purpose. Great resources have 
been spent to maintain the status quo. This has given the colonial 
elite carte blanche to keep the oligarchic power base intact and have 
motivated anti-democratic forces from the region, historical enemies of 
the United States, to invest and promote instability in our democracy 
in Puerto Rico. The combination of extremists on the Left and Right 
have denied what our veterans so valiantly fought for: democracy.
    The November 2020 vote, with similar language to Hawaii's and 
Alaska's vote, was a victory for statehood despite tactics that 
included scaring older voters saying that a vote for statehood would 
mean they would lose their homes to taxes, false advertising saying 
that if Congress did not legislate, the plebiscite was useless, and a 
strong campaign to say that even if you favored statehood, not to vote 
to punish the statehood party in power. The fact that 40% more voters 
said yes to statehood than the accumulated votes of any gubernatorial 
candidate, means that this is not a political issue and rather a civil 
rights issue that goes beyond politics. The democratic exercise of one 
wo(man) one vote chose statehood even when all these tactics were used 
to derail the will of the people. And yet, these same forces keep 
seeking to delay statehood. What are the motivations if not economic 
and the pursuit of power for power's sake?
    The project sponsored by the Honorable Congresswoman Velazquez 
intends to keep the colony afloat and running for decades to come and 
to perpetuate the civil rights deficit that exists. It is an endless 
loop that intends to stop majority rule and democracy from happening 
finally. There is no other goal but to perpetuate the oligarchic rule 
on the island and it will lead to another plane tomorrow leaving with 
our best and brightest, and the next day and so forth. Where is the 
democratic will of the people in that? Hurricane Maria showed the 
Nation that we are an island of great people with a civil rights 
deficit. It also taught our citizens that we must claim our rights as 
equals and not have to beg for every right, program or law. We are the 
largest group of Americans without representation in Congress or 
presidential vote in the history of the Nation. There is no answer to 
the question of why that does not include discrimination and a civil 
rights issue.
    There are no two sides to democracy. Either you are for it or 
against it. The time to be for democracy and voting rights is now. 
Which side will you be on? Puerto Rico has earned in over 123 years 
contribution, the right to be equal among many as a state of our great 
Union. We shall join our fellow disenfranchised Americans of the 
District of Columbia in asserting our rights to equality, voting 
rights, and democracy.
    The only legislative option that respects the will of the people of 
Puerto Rico, and ensures a binding process of self-determination is 
H.R. 1522 & S. 780, the Puerto Rico Statehood Admission Act. You have 
the perfect opportunity to be on the right side of history now, to do 
the right thing. We will accept no less, for doing so would be un-
American and unfair. The time is now. Our civil rights battle will be 
won here or elsewhere but it will be won. George Washington would have 
been on our side and so should you.

            Respectfully,

        Dr. Evelyn Abreu,             Jaime Fortuno,
        Co-Founder/Secretary 
        Treasurer                     Co-Founder/President

                                 ______
                                 
            PUERTO RICO ESTADIDAD                  

        Hon. Raul Grijalva            Hon. Bruce Westerman
        Chairman                      Ranking Member
        House Committee on Natural 
        Resources                     House Committee on Natural 
                                      Resources

        Hon. Joe Manchin              Hon. John Barrasso
        Chairman                      Ranking Member
        Senate Committee on Energy 
        & Natural Resources           Senate Committee on Energy & 
                                      Natural Resources

    Dear Chairman Grijalva, Ranking Member Westerman, Chairman Manchin, 
Ranking Member Barrasso:

    As U.S. citizens from Puerto Rico, we are coming together to 
express our support for the Puerto Rico Statehood Admission Act, H.R. 
1522 and S. 780, and to call on Congress to pass this legislation as 
quickly as possible.
    Puerto Ricans have been part of the U.S. for over one hundred and 
twenty years and we have made countless contributions to the betterment 
of American society. During that time the population of Puerto Ricans 
stateside has grown to close to six million. Yet for the three million 
U.S. citizens that remain on the island, we remain disenfranchised in 
federal elections and subjected to unequal treatment in federal laws 
and programs. This reduces economic development has robbed our poor and 
elderly of lifesaving healthcare, and every day breaks up our families 
and communities as people feel forced to move stateside to seek out 
better opportunities and quality of life for themselves and their 
children.
    Congress must immediately end its inherently colonial territorial 
rule over Puerto Rico, because it violates America's values of 
democracy, equal justice under the law, and government by the consent 
of the governed. Beyond that, it doesn't serve either America or Puerto 
Rico to prolong an outdated, dysfunctional and morally corrupt form of 
government which its own citizens have now rejected on multiple 
occasions.
    On November 3, 2020, an undisputable majority of 53% of Puerto 
Rico's voters demanded change in a locally sponsored referendum calling 
for full democracy and equality through statehood. While some bills in 
Congress, like H.R. 2070 & S. 865, seek to delay, confuse and distract 
from this electoral majority mandate in the name of ``self-
determination,'' only the Puerto Rico Statehood Admission Act 
acknowledges and responds to the freely expressed will of the people.
    A majority of voters in Puerto Rico have requested statehood, now 
Congress must respond by officially offering it and allowing voters on 
the island to ratify their choice in a binding vote. To turn around and 
tell voters to go back to the drawing board and re-define multiple 
other options which the majority has rejected three times in the last 
eight years in favor of statehood, would not only be insulting to us, 
but effectively serve as a form of voter suppression. That is simply 
unacceptable and un-American.
    We are natural born U.S. citizens and want an equal seat at the 
table in the federal government that writes and implements the laws 
that we live under. We want our full voting rights as American 
citizens, and would challenge any voting Member of Congress that would 
deny that to us to answer if their constituents would accept the 
second-class citizenship that we are subjected to under territory 
status.
    We are proud to be Puerto Ricans, and also proud to be U.S. 
citizens, and know that there is no law that limits us from being both. 
So, don't let anyone tell you that statehood will somehow diminish our 
cultural pride and heritage. If anything, the economic progress that 
statehood would unleash will allow Puerto Rico to flourish in ways that 
will mutually benefit the Island and the States.
    If you really believe in democracy, justice, government by the 
consent of the governed, you must not hesitate any further or give any 
more excuses. Congress must grant us the equal rights and equal 
responsibilities that we have earned with the blood of our veterans and 
the tears of their mothers, wives, children and families. Pass the 
Puerto Rico Statehood Admission Act as soon as possible and together we 
can help make America a more perfect Union.

            Sincerely,


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            

                                
                                 
                        Statement for the Record
                     Hon. Milagros G. Lopez Campos
             Municipal Legislator of Carolina, Puerto Rico

    Blessing to you, and Member of Congress. I am writing to you as a 
Legislator of the municipality of Carolina, where I represent over 
186,000 persons and 104,378 voters.
    For over one-hundred years, the U.S. citizens of Puerto Rico have 
been dismissed from federal elections and subjected to unequal 
treatment across federal programs and civil Rights that make Last 
November, move thousands of voters and stood up the change to obtain an 
absolute majority of 53% demanding statehood for Puerto Rico in a 
locally sponsored referendum. The Puerto Rico Statehood Admission Act, 
H.R. 1522 and S. 780, directly respond to that mandate, and we urge you 
to support it and help get it approved as soon as possible.
    Puerto Rico's referendum was historic, because it is the first time 
that we request as a US Territory a statehood unquestionable mandate 
with the majority support of the people on the island with a simple 
``YES'' or ``NO'' vote. The 117th Congress have therefore a unique 
opportunity to make history to end America's inherently colonial rule 
over Puerto Rico, which is the most respected American values of 
democracy, equality, justice and civil right under the law.
    We recognize that are some Congresswoman such as Rep. Nydia 
Velazquez (NY) and Sen. Robert Menendez (NJ), who oppose statehood for 
Puerto Rico and have completely ignored the voice of the people's in 
the results of the referendum last November. Therefore, they will be 
submitting a counter-proposal, the Puerto Rico Self-Determination Act 
(PRSDA), which has faced criticism from representatives of all status 
options.
    The most significant concern, across party lines, is that the PRSDA 
is ultimately non-binding. Under the bill, Congress would be under no 
obligation to implement whichever status option is chosen by the 
convention and later voted by the electors of PR. This would represent 
a huge setback for voters in Puerto Rico who have engaged in multiple 
acts of self-determination over the last decade and have shown, an 
increasing clarity, that Puerto Rican' s voters reject the current 
territory status and have favor statehood over all non-territory 
options.
    Beyond the will of the people on the island, Puerto Rican's 
stateside also favor statehood for PR by wide margins. For example, 
recently polls show 81% of Puerto Rican residents in Florida and 69% of 
those in New York favor the admission of Puerto Rico as a state. Also, 
the majority of Americans have also supported the idea for decades 
according to Gallup.
    This is a issue on the island as well as across the Nation, and 
Congress has a moral obligation to act promptly.
    For that reason we only recommend the legislative option that 
respects the will of the people of Puerto Rico, and ensures a binding 
which is a process of self-determination and that is H.R. 1522 & S. 
780, the Puerto Rico Statehood Admission Act. By offering statehood, 
stipulating the terms of admission, and requiring a ratification vote. 
Congress would finally open the door to full equality and democracy for 
the U.S. citizens of Puerto Rico while leaving the ultimate choice in 
their hands. If a majority opposes statehood at that point, then the 
island would remain a territory with the capacity to pursue 
independence or free association through the procedural mechanism of 
their choice, including a status convention. Congress has a moral 
obligation to let the people of Puerto Rico decide their own self-
determination process for admission.
    I request Congress to open the door to a full emancipation and 
equality for our fellow Americans in Puerto Rico by supporting and 
passing the Puerto Rico Statehood Admission Act. The United States 
should understand they can and must do better for our fellow Americans.

                                 ______
                                 
                        Statement for the Record
                            Gregorio Igartua
              Domestic and International Legal Advice, LLC
                  on Puerto Rico's Territorial Status

    Dear Congressman Grijalva:

    I was born in Puerto Rico, U.S.A., and, I am an American citizen 
resident of Puerto Rico. I am sending this written testimony in 
opposition to the proposed ``Self Determination Act,'' which is not 
constitutionally viable, and to support the Puerto Rico Statehood 
Admission Act. It is the only political alternative that fits in the 
U.S. Constitutional Framework, and it is 122 years overdue.
    As you know, Puerto Rico has been a part of the United States since 
1898. For 122 years we have been under the U.S. Government 
discriminatory practice of being denied the right to vote in Federal 
Elections, and of government without the consent of the governed. (3.4 
million American Citizens by birth). We are also subject to unequal 
treatment in economic policies implemented by Congress for the states, 
which have moved Puerto Rico into bankruptcy. Moreover, for some cases 
the Federal Courts apply the U.S. Constitution, and not for others. 
Ironically, we pay more than $3 billion dollars a year in federal 
taxes, more than some states and many state regions. (IRS Highlights 
2020).
    The Committee of Natural Resources you preside, has expressed 
interest in pursuing Congressional action in the issue of the political 
status of Puerto Rico. I suggest that you consider as the most viable 
alternative that Puerto Rico be certified as an incorporated territory 
first, which de facto it is. Notwithstanding incorporation is not 
permanent, therefore Congress should simultaneously resolved to move 
Puerto Rico in transit to statehood at a definite date. Certification 
of Incorporation would make the U.S. Constitution fully applicable, and 
would give us parity with federal funds as if Puerto Rico were a state. 
We qualify for incorporation by having been assimilated more than any 
other U.S. Territory before becoming a state. Although there may be 
conflicting views of what is the political relation of Puerto Rico to 
the United States, due to the reality that we are still not a state, 
Congress has assimilated us gradually since 1898 into a federalist 
relation to be like a de facto incorporated territory. (See: G. 
Igartua, The ``de facto'' Incorporated Territory U.S. of Puerto Rico. A 
copy of the Book was mailed to you a few months ago, and one is being 
mailed to the Committee with this letter).
    I respectfully suggest that you consider proposing to Congress to 
declare Puerto Rico officially an Incorporated Territory of the United 
States in transit to statehood. (See Petition enclosed--Annex A). It is 
the only political alternative that fits into the U.S. Constitutional 
framework, it is 122 years overdue. Rather than holding more hearings 
on what we could hypothetically be, which is discriminatory, our 
political and civil rights must be recognized by Congress based on what 
we are, 3.4 American citizens by birth residents of a de facto 
incorporated territory. Incorporation was recently supported 
unanimously by the National Association of U.S. Mayors. (Annex B). (See 
also, Consejo de Salud Playa de Ponce v Rullan, 586 FS 2nd 22 (2008)).
    No one in Puerto Rico wants independence , nor continue to be 
confused with political status alternatives which do not fit within the 
U.S. constitutional framework. No one in Puerto Rico wants to renounce 
their American Citizenship. A Republic of American citizens would be a 
matter of national security concern. (3.3 million residing in Puerto 
Rico, 5 million residing in states). Many are confused by the daily 
practice of uncertainty brought by the questioning about what our 
rights are as American citizens, or could be. Consider within this 
context the ``Puerto Rico Self Determination Act'' proposed for 
American citizens after 122 years under our American flag. Were 
African-Americans subjected, or should be subjected, to hearings on 
whether they would like to be slaves again, or be moved to a Country in 
Africa? Should Mexican-Americans be asked whether they would like to 
renounce their American Citizenship to Mexican and be moved back to 
Mexico, or should their American citizenship status be questioned, as 
your Committee is doing with us in Puerto Rico in 2021?
    Consider as constitutionally viable only to start holding hearings 
on how the American Citizens residents of Puerto Rico can have equal 
rights and government by the consent of the governed. (U.S. 
Constitution Amendments XIV and XV). Congressman Grijalva, statehood 
for you, for Congresswomen Velazquez and Ocasio, for all the members of 
your Committee, for all Congressmen, and statehood for us the American 
citizens residents of Puerto Rico. Time is of the essence.
    I respectfully request to be allowed to participate in the April 
15, 2021, hearing your Committee has scheduled on this subject, and in 
support of our American Citizenship rights.

                                 *****
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
                                 

Hon. Raul Grijalva, Chairman,
Hon. Bruce Westerman, Ranking Member,
House Committee on Natural Resources

    Dear Chairman Grijalva, Ranking Member Westerman:

    Puerto Rico has been a territory for more than 500 years, first of 
Spain and now of the United States. Therefore, it should not be foreign 
to our will that the status is an issue that moves Puerto Ricans. As a 
result of the discussion on the status, five (5) plebiscites have been 
held to decide between the options of Statehood (annexation), 
Independence (separation) or Commonwealth (current status), as well as 
the approval of evaluation committees on the status of Puerto Rico.

    Puerto Rico became a possession of the United States as a result of 
the Spanish-American War, which culminated in the Treaty of Paris of 
December 10, 1898 between Spain and the United States. The Treaty of 
Paris set a precedent, as it was the first time that the United States 
acquired territories without the intention of making them states. The 
expansionist policy of the United States in the 19th century, before 
the Spanish-American War, reflected a theory: that of incorporation as 
a territory in preparation for statehood. All territories acquired 
multiplied their original population and dissipated borders with a view 
to integrating them as members of the American nation. The Treaty of 
Paris provided that the political conditions and civil rights to be 
conferred on the territories acquired under the treaty would be 
determined by Congress. This idea practiced by the United States in the 
colonization of Puerto Rico was contrary to the value it preached as a 
Nation, since it was precisely on those principles that it based its 
independence.

    The Foraker Act of 1900 formally represented the non-incorporation 
of the territory as a state, thus granting greater powers to Congress 
and the President to administer the territory. This unequal treatment 
over the other states of the nation led to the argument that Puerto 
Rico was treated as territory and not as part of the union. Under this 
premise and through the insular cases of Downes v. Bidwell (1901) and 
De Lima v. Bidwell (1901), and later in the case of Balzac v. People of 
Puerto Rico (1922), the legal creature of the U.S. Congress, the so-
called ``unincorporated territory'' was established and validated, 
maintaining as a foundation that we belong to, but are not part of the 
United States. This doctrine was validated by Associate Justice Edward 
Douglass White in his opinion offered in the case of Downes v. Bidwell, 
for the controversy that asserted whether it was constitutional for 
Congress to impose through the Foraker Act a tariff on trade between 
Puerto Rico and the continental United States, in light of the 
Uniformity Clause. Justice White's opinion held as follows:

        ``The result of what has been said is that in an international 
        sense Porto Rico was not a foreign country, since it was 
        subject to the sovereignty of was owned by the United States, 
        it was foreign to the United States in a domestic sense, 
        because the island has not been incorporated into the United 
        States but was merely appurtenant thereto as a possession.''

    The great changes resulting from the military conflicts between the 
countries of Western Europe, and the intervention of the United States 
in these conflicts, led to changes in the civil and political order in 
Puerto Rico. President William Howard Taft took the initiative to 
propose the granting of American citizenship for Puerto Rico, which 
culminated in the filing of the Jones-Shaforth bill, which was finally 
approved in the House of Representatives on May 23, 1916. It then 
passed the Senate on February 20, 1917 and was finally signed by 
President Woodrow Wilson on March 2, 1917. This bill was the product of 
great controversy, due to the conditions that were imposed, since it 
would grant citizenship without the character of admitting Puerto Rico 
as a state.
    This act leads us to argue about the violation of the value of 
equal treatment of American citizens. The first violation we must 
recognize is not having the right to vote for those members of Congress 
who pass federal laws that apply to Puerto Rico, not having fair 
representation in Congress, and not being able to vote for the 
President of the United States. Recognizing what is expressed in 
Articles 1 and 2 of the U.S. Constitution, we must recognize that in 
interpreting the articles there is a clear basis for political 
discrimination against U.S. citizens residing in Puerto Rico. Articles 
1 and 2 of the U.S. Constitution provide that:

     Article 1. Section 2. ``The House of Representatives shall consist 
            of members elected every two years by the inhabitants of 
            the several States, and the electors shall possess in each 
            State the qualifications requisite for electors of the most 
            numerous branches of the local legislature.''

     Article 1, Section 3. ``The Senate of the United States shall 
            consist of two Senators.from each State, elected for six 
            years by the legislature thereof, and each Senator shall 
            have one vote.''

     [ . . . ]

     Article 2, Section 1: ``The executive power is hereby vested in a 
            President of the United States. He shall hold office for a 
            term of four years, and shall, together with the Vice 
            President appointed for the same term, be chosen as 
            follows:

     Each State shall appoint; in such manner as its legislature may 
            direct, a number of electors equal to the whole number of 
            Senators and Representatives to which the State may be 
            entitled in Congress, but no Senator, Representative, or 
            person holding an honorary or salaried office of the United 
            States, shall be appointed an elector.''

    Interpreting what is expressed in the Constitution of the United 
States, this closes the doors to the millions of Puerto Ricans residing 
on the island, to have full equality as the rest of their fellow 
citizens, by applying federal laws without the consent of the governed, 
with the argument that the right to vote will be recognized only to the 
residents of the states.
    As a result of this issue, legal analyses have emerged that result 
in the deprivation of the right to equality for American citizens 
residing on the island. Under the colonial condition imposed on us and 
not being a state, Puerto Rico does not have the right to the electoral 
college because the territories do not meet the requirements 
established by Amendment XIV, which establishes that: ``All persons 
born or naturalized in the United States and subject to the 
jurisdiction thereof are citizens of the United States and of the 
States in which they reside. [ . . . ]'', so the territories are not 
part of the United States for constitutional purposes.

    Under this premise presented by the Congress, we allude to 
international law on the establishment of the ``International Covenant 
on Civil and Political Rights'' ratified by the General Assembly in its 
resolution 2200 A (XXI) of December 16, 1966, which in its Article 3 
mentions: ``The States Parties to the present Covenant undertake to 
ensure the equal right of men and women to the enjoyment of all civil 
and political rights set forth in the present Covenant'', as well as in 
its Article 25, which states:

        All citizens shall enjoy, without any of the distinctions 
        mentioned in Article 2, and without undue restrictions, the 
        following rights and opportunities:

        (a) To take part in the conduct of public affairs, directly or 
        through freely chosen representatives.

        (b) To vote and lo be elected at genuine periodic elections 
        which shall be by universal and equal suffrage and shall be 
        held by secret ballot, guaranteeing the free expression of the 
        will of the electors;

        (c) To have access, an general terms of equality, to public 
        service in their country.

    Under the Treaty of Paris, the Congress of the United States is 
granted plenary powers over the territory, and it was provided that it 
would have the responsibility not only to determine the civil rights, 
but also the political status of its inhabitants. In this matter we 
must mention that Congress has not taken forceful action to define 
Puerto Rico's status under the regimes of international law and the 
U.S. Constitution.
    These rights began to be discussed after the approval of the 
Universal Declaration of Human Rights on December 10, 1948, adopted by 
the United Nations (UN). This declaration emphasizes the equality of 
rights that all human beings should enjoy. Article 2 states: ``No 
distinction shall be made on the basis of the political, jurisdictional 
or international status of the country or territory to which a person 
belongs, whether it be an independent country, a territory under 
trusteeship, non-self-governing or under any other limitation of 
sovereignty. By this declaration Puerto Ricans residing on the island 
should have equal rights and duties as citizens residing in one of the 
fifty (50) states.
    This statement has been used as an argument to establish that 
Puerto Rico is already fully defined after the approval of Act 600, 
which gave way to the creation of the Commonwealth on July 25, 1952. We 
must mention that the precedents set in cases subsequent to the 
creation of the Commonwealth create ambiguity in the fact that Congress 
continues to have plenary powers over and above the sovereignty that 
was recognized to Puerto Rico in 1952. The final determination made by 
the Supreme Court in the case of Puerto Rico v. Sanchez-Valle, and the 
establishment of the PROMESA Act, which creates the Fiscal Oversight 
Board, demonstrate the permanence of Puerto Rico as a territory subject 
to the plenary powers of Congress, which violates international 
agreements on the self-determination of peoples and the value of equal 
rights.
    One of the flaws that we can identify about our civil and political 
order is the lack of recognition of the vote for the President of the 
United States, and equal representation in Congress therefore we don't 
have equal justice under the law. The articulated premise, has been in 
other jurisdictions, as in the case of Washington DC, the product of 
legal actions to grant equal right of representation and presidential 
vote for its citizens. In the case of Washington DC, the decision of 
the Human Rights Commission was forceful when it concluded that the 
fundamental rights of American citizens are above any law that limits 
them.
    To address the status issue, regarding the feasibility of 
integrating presidential voting rights into the current political 
relationship between the United States and Puerto Rico, studies have 
been conducted and status review committees have been presented. On 
July 25, 1962, the then President of the United States, John F. 
Kennedy, in his response to a letter from then Governor Luis Munoz 
Marin, affirmed the need to consult the people of Puerto Rico on their 
preference regarding their political status formula.
    As a result of this exchange, the Government of Puerto Rico 
submitted to the Legislative Assembly a bill ordering the holding of a 
referendum. Public hearings were held for six weeks in which 
approximately 80 people testified. The discussion of the bill concluded 
in the need to clarify the definition of the Commonwealth before 
holding a referendum and the need to obtain a declaration from Congress 
on the formula it is willing to approve in order to hold a meaningful 
and binding referendum.
    Pursuant thereto, H.R. 5945 is approved, with the purpose of 
establishing a Commission to study the Agreement between the United 
States and Puerto Rico. The Commission would be composed of twelve (12) 
members, four appointed by the President of the United States, four by 
the Governor of Puerto Rico, two by the President of the U.S. Senate, 
and two by the Speaker of the House of Representatives. Bill H.R. 5945, 
when passed, became Public Law 88-271. Among its considerations, the 
committee contemplated the issue of equal rights and conditions for 
Puerto Rico to have the right to vote for the President of the United 
States, which gave it political power and greater importance in the 
national affairs of the island.
    Finally, we would like to allude to the Constitution of the United 
States, where in its preamble establishes the expression ``We the 
People of the United States, in Order to form a more perfect Union, 
establish Justice, ensure domestic Tranquility, provide for the common 
defense, promote the general Welfare, and secure the Blessings of 
Liberty to ourselves and our Posterity, do ordain and establish this 
Constitution for the United States of America''.
    This declaration marks the core value of the nation's constitution 
and the intent by which it is created. The cases brought to abolish 
slavery in the nation, as well as other movements such as the 
suffragettes petitioning for women's right to vote, used this consensus 
to argue that the term ``We the people'' refers to the inclusion of all 
American citizens in the rights outlined in the U.S. Constitution.
    Therefore, we believe it is meritorious to take action on what this 
resolution proposes, to promote equal rights and social justice for 
U.S. citizens residing in Puerto Rico, so that they may enjoy the right 
to vote for the President of the United States. It is important that 
the U.S. Congress take action on the referred case and enforce the 
rights of the Constitution for all U.S. citizens equally.
    The bills before the House Committee on Natural Resources, chaired 
by Congressman Grijalva, allude to taking action in favor of the 
freedom of determination of the people of Puerto Rico on the future of 
their relationship with the United States. Certainly, the guarantee of 
the right to self-determination of the people of Puerto Rico has been 
guaranteed in all the processes of expression of the people through the 
various plebiscites held since 1967, until the last one held on 
November 3, 2020. But in order for the value of the people's right to 
self-determination to be realized, Congress has the duty to take action 
in favor of the democratic expression of Puerto Ricans residing on the 
island.
    H.R. 1522, introduced by our only congressional representative, 
Jenniffer Gonzalez, and Congressman Darren Soto, for consideration by 
the U.S. Senate and the U.S. House of Representatives, sets precedents 
in the history of the admission of territories as a state of the union. 
It also ensures concrete action on the mandate sent by the people of 
Puerto Rico last November 3 favoring statehood, with the ratification 
of the results and the approval of the President of the United States.
    In contrast to H.R. 2070, presented by Congresswomen Nydia 
Velazquez and Alexandria Ocasio, who present a bill that seeks the 
creation of a status convention that is unprecedented in the processes 
of admission of territories to the nation, and historically only the 
colonies that have wished to betray themselves toward the formation of 
an independent Republic, have accepted it.
    With much respect to this Congress and members of the House 
Committee on Natural Resources, I submit that H.R. 2070 does not 
represent the will of the people and I request that it not be taken 
into consideration. The only piece of legislation that provides the 
tools for the advancement of the Puerto Rican people and that 
represents the will of the majority of the Puerto Rican people is H.R. 
1522.

            Sincerely,

                                 Ricardo Marrero-Passapera,
                    Candidate, Puerto Rico Congressional Delegation

                                 ______
                                 
                    DEMOCRATIC PARTY OF PUERTO RICO

                                                      April 6, 2021

The Honorable Joaquin Castro
U.S. House of Representatives
Washington, DC 20515

    Dear Representative Castro:

    We 'Write to you as leaders of the Democratic Party of Puerto Rico 
to respectfully request that you not further support H.R. 2070--a bill 
that disrespects the people of Puerto Rico and their self-
determination, including their choice of equality as Americans. We 
assume you supported this bill in good faith. We join our new 
Democratic Governor, Pedro Pierluisi, who previously served eight years 
in the U.S. House in opposing this undemocratic bill.

    Last year, Puerto Rico's elected representatives approved a law for 
a plebiscite on statehood, a vote conducted by many territories that 
became States. Held along with November's 2020 general elections, 
virtually as many people voted in the plebiscite as voted for any local 
public office. The participation percentage was greater than similar 
votes in many territories. A solid majority voted for statehood after 
vigorous campaigns for and against it. The plebiscite followed two 
other status votes held in 2012 and 2017 that included all of the 
status options Congress' committees and successive administrations have 
said are possible. Majorities chose statehood in those votes as well. 
There can be no purer self-determination process than the people voting 
on questions posed by their elected representatives.

    <bullet> H.R. 2070 would ignore the free and fair votes of Puerto 
            Ricans, upheld by the Federal court as well as the insular 
            Supreme Court. It attempts to pressure the territory into 
            conducting a status process that the Government of Puerto 
            Rico has declined to adopt for decades. Democrats respect 
            democratic election results and should respect Puerto 
            Rico's self-determination as well.

    <bullet> The bill's process can include status proposals that are 
            not possible, prolonging the territory status the people 
            specifically voted against in 2012 and that H.R. 2070 
            purportedly wants to replace. Impossible proposals have 
            confused the issue, preventing resolution. The bill's House 
            author has written that the options can include 
            independence, free association (nationhood in an 
            association with the U.S. that either nation can end), 
            ``and any other non-territorial status''. The committees of 
            jurisdiction of both houses of Congress and successive 
            administrations have repeatedly determined that there can 
            be no other option than statehood, independence and free 
            association.

    <bullet> The bill proposes a congressional commission to make 
            recommendations to Puerto Rico on its culture, language, 
            and other matters as a State or a nation that are not 
            within the jurisdiction of the U.S. Government under the 
            Constitution and international law. This would be anti-
            Latinx, offensive, colonial, xenophobic, and cultural 
            imperialism: all of which are unthinkable for Democrats.

    <bullet> The bill would amend many Federal laws as unilaterally 
            drafted by a convention in Puerto Rico without the 
            committees of jurisdiction of either house in Congress 
            being able consider the changes or Congress being able to 
            amend the legislation. Both houses would effectively be 
            forced by the bill's rules changes to vote up or down on 
            the Puerto Rico-drafted changes in Federal laws.

    <bullet> The bill could change Puerto Rico's status to one that is 
            not the first choice of a majority of the territory's 
            voters and one with even less votes than a plurality 
            choice. The territory's status should be a majority first 
            choice.

    <bullet> The bill's status convention could be called by Puerto 
            Rico's legislature without the enactment of a law in the 
            territory, ignoring the Governor in this process. It would 
            be disrespectful and undemocratic for Congress to disregard 
            the elected Governor of the territory.

    <bullet> The members of the bill's convention would serve 
            indefinitely without having to face re-election no matter 
            how long the bill's process takes. Elected officials 
            serving indefinite terms is undemocratic.

    These are just some of the deficiencies. Most important, the bill 
would set aside the absolute majority choice of Puerto Ricans--
Americans by birth--for equality within our Nation. It attempts to 
thwart our self-determination and impose a choice process on Puerto 
Ricans, suppressing the majority vote. It would allow for an outcome 
that would perpetuate a colonial status under which Puerto Rico is 
treated worse than a State, precluded from having votes in the 
government that makes its local laws when that government so wishes as 
well as votes in making the laws to which the whole Nation is bound.

    Please do not further support the mockery of self-determination 
reflected in H.R. 2070.

    By contrast, we and the Governor of Puerto Rico support H.R. 1522 
by Representative Darren Soto and 57 others. We ask you to support this 
bill that respects Puerto Ricans, democracy, and self-determination.

    With deepest thanks for your consideration of the request of the 
majority of the people of Puerto Rico, we are,

            Sincerely,

        Charles A. Rodriguez, Chair   Johanne Velez, Vice Chair
        Democratic Party of Puerto 
        Rico                          Democratic Party of Puerto Rico

        Maria ``Mayita'' Melendez, 
        Committeewoman                Luis Davila-Pernas,   
                                      Committeeman
        Puerto Rico Democratic 
        National Committee            Puerto Rico Democratic National 
                                      Committee


                                 ______
                                 

Submissions for the Record by Rep. Soto

                        Statement for the Record
                             Steny H. Hoyer
                         House Majority Leader

    Chairman Grijalva and Ranking Member Westerman, thank you for this 
opportunity to share my thoughts with the Committee regarding the 
political status of Puerto Rico, which has been a very important 
priority for me throughout my time in Congress.
    For generations, Puerto Ricans have been an integral part of the 
American family, and millions of people born in Puerto Rico or of 
Puerto Rican heritage. The 3.2 million people living on the island are 
our fellow American citizens, and they contribute mightily to our 
common defense, and the social and cultural life of our nation. Puerto 
Rico's fragile economy, still in the midst of restructuring 
unsustainable levels of debt, has been hit hard by recent hurricanes, 
earthquakes, and the COVID-19 pandemic, and the prior Administration 
did not live up to its responsibility to extend help to our brothers 
and sisters on the island during their time of hardship and recovery. 
That was unfortunate, because it does not reflect what I believe is a 
deeply genuine sense of common purpose and common destiny that binds 
Puerto Rico to the rest of the United States. We take care of one 
another.
    While Puerto Rico is served ably in Congress by my dear friend, the 
Resident Commissioner Jenniffer Gonzalez-Colon, can any of us truly say 
Puerto Rico would have been treated this poorly in the wake of these 
disasters had it been a state and afforded full representation in 
Washington? The answer is self-evident.
    I believe that the best path forward to resolve questions of Puerto 
Rico's political status is statehood, but that is a decision that must 
be left to Puerto Ricans themselves. I have long supported statehood 
for the people of Puerto Rico, but more importantly I believe in their 
right to self-determination. The people of Puerto Rico deserve the 
opportunity to chart their own future, and in my view, the people of 
Puerto Rico have told us time and time again, through multiple 
plebiscites in recent years, that they choose statehood. As recently as 
this past November, the people of Puerto Rico chose statehood in a 
simple up or down vote. I think that we in Congress would be wise to 
listen to what the people of Puerto Rico are telling us.
    Statehood would afford the people living on the island all the 
rights, privileges, responsibilities, and equal treatment under federal 
programs that the current fifty states enjoy--everything from 
application of the federal minimum wage to access to Medicaid, 
supplemental nutrition assistance, and countless other federal 
programs. Most importantly, the people of Puerto Rico would have a 
greater say in determining the course of our nation's future, with 
equal representation in the Congress, including two senators, and a 
role in choosing our national leaders.
    With a population greater than 20 of the U.S. states, there ought 
to be no impediment to admitting Puerto Rico as a state if they choose 
that course. To my friends on the other side of the aisle, who might 
presume from the outset what political party the people of Puerto Rico 
might favor in electing their representatives to the Congress, I would 
remind them that we were certain with the admission of Hawaii and 
Alaska to the Union that Hawaii would reliably elect Republicans and 
Alaska would be a stronghold for Democrats. Only the people of Puerto 
Rico will know the answer to that question. As my friend Rep. Don Young 
can attest, we ought to be careful about making decisions about the 
merits of the legislation before the Committee today with those 
presumptions in mind.
    Our history with the people of Puerto Rico is complex, with over a 
century of their mistreatment as second-class citizens. It is time to 
right that wrong.
    I thank the Committee for holding this hearing today and for 
considering bills introduced by my dear friends Reps. Velazquez and 
Soto. I hope the Committee will give a full and fair hearing to their 
respective pieces of legislation on the future of Puerto Rico's 
political status, and I appreciate the many efforts they have taken to 
craft their bills with care. I apologize that a prior commitment 
prevented me from being with you today in person, and I look forward to 
reading the statements of testimony and transcripts from this hearing--
in addition to looking forward to continuing our work together in the 
Congress to ensure that Puerto Ricans have their voices heard loudly 
and clearly in this House as we address matters important to our common 
future.

                                 ______
                                 

Submissions for the Record by Rep. Velazquez

                  Status, Our People and Right to Vote
           by Victoria Munoz Mendoza and Hector Luis Acevedo

   ``The political status is to serve the quality of life that the 
  Puerto Rican people want to create for themselves. The political 
status, we should repeat it a hundred times over and over again, is 
   to serve those human ideals, not to deviate our people from the 
                                             paths to fulfill them.

                                                       Luis Munoz Marin

    The people of Puerto Rico agonized for decades with the dilemma 
between statehood and independence. Our energies were diluted in these 
struggles and the problems of our people took a back seat. From this 
crisis emerged a creative agenda that recognized that our people are 
the top priority and not status. For decades we grew inside and out.
    The Commonwealth was created without sacrificing our culture. 
Harmonizing the values of affirmation of our own culture and 
personality with American citizenship and its freedom of movement, 
promoting economic, educational and social development never seen or 
repeated in our history.
    Today our people face great challenges that diminish their quality 
of life and their options for the future. These challenges must be 
overcome. The pandemic, closed schools, lack of jobs, debt, fictitious 
budgets and our government's inability to combat corruption. 
Interposing the status debate on the road to recovery does not seem 
prudent or correct at this point. The day will come, but it is not here 
yet. It will come when we overcome the pandemic crisis, the Fiscal 
Control Board and resume our economy of hope.
    This month, two bills were filed with the U.S. Congress on status. 
One pretends to impose statehood despite our people being divided in 
half, to impose a status of assimilation as a federal state that has no 
going back. In 1995 the status struggles led the government of Puerto 
Rico to request, contrary to its electoral program, the elimination of 
Section 936, which led to the loss of more than 100,000 jobs. A good 
part of our current economic problems is due to this action product of 
status fanaticism.
    Another bill, based in good faith, seeks to impose a statehood or 
independence dilemma, removing Commonwealth from the ballot. It's like 
going back to the 1930s and the struggles faced at that time when 
nationalists and pro-US forces fought violently against each other. It 
is not possible to speak of inclusion by excluding one of the two main 
options in our country. It is not possible to speak of self-
determination and not respect the freedom of the people of Puerto Rico 
to choose their preferences through their constitutional right vote. 
One cannot speak of democracy if the rights of the Puerto Rican people 
are not respected. Taking away the right to vote from the Puerto Ricans 
that believe in the Commonwealth is an error of principle and of the 
practical realities of liberty.
    It is our belief that Puerto Rico's priorities should be directed 
toward creating consensus and a common ground that allows us to address 
the health, education and work crisis in which we are immersed.
    We need to start a dialogue so that, in due course, all options are 
included, respecting differences, not trying to define an adversary's 
preference, much less take them off the ballot. Puerto Ricans must be 
able to decide, without a conflict between our quality of life and its 
democracy. We must forge understandings to be able to dedicate our best 
energies to our people.

    March 25, 2021 El Nuevo Dia, page 35.

                                 ______
                                 

 [LIST OF DOCUMENTS SUBMITTED FOR THE RECORD POST-HEARING AND RETAINED 
                   IN THE COMMITTEE'S OFFICIAL FILES]

Submissions for the Record by Hon. Acevedo-Vila

  --  Frente Puertorriquenista (Puerto Rican Front) (signed by 
            115 stakeholders)--Manifesto and Letter of Support

  --  Views on Political Status Among Puerto Rican Voters, Hart 
            Research Associates--Results of 2020 Telephone 
            Survey

Submissions for the Record by Jose Fuentes

  --  Republican National Committee, Zoraida Fonalledas, 
            National Committeewoman for Puerto Rico--Letter of 
            Support for H.R. 1522, dated April 21, 2021

Submissions for the Record by Dr. Ponsa-Kraus

  --  Collection of three letters: Letter signed by 47 Legal 
            and Constitutional Scholars supporting the Puerto 
            Rico Admission Act of 2021 and opposing the Puerto 
            Rico Self-Determination Act, submitted by Rep. 
            Gonzalez-Colon; a response to this letter from 
            Constitutional Law Professors based in Puerto Rico; 
            and Dr. Ponsa-Kraus's reply

  --  ``Political Wine in a Judicial Bottle: Justice 
            Sotomayor's Surprising Concurrence in Aurelius,'' 
            by Christina D. Ponsa-Kraus, September 21, 2020, 
            Yale Law Journal Forum

  --  ``The Battle Over Puerto Rico's Future,'' by Christina D. 
            Ponsa-Kraus, April 21, 2021, Constitutional Law 
            Blog--Balkinization

Submissions for the Record from People's Hearing on Puerto Rico Self-
        Determination

  --  Maria de Lourdes Guzma: Letter

  --  Marina Aleman: Letter of Support (H.R. 2070)

Submissions for the Record by VAMOS Puerto Rico

  --  Alejandro Torres Rivera: Informational Brief

  --  Alliance for Free Association (ALAS), Jose Ortiz Daliot: 
            Letter of Support (H.R. 2070)

  --  Antonio J. Fas Alzamora, former President of the Senate 
            of Puerto Rico: Letter of Support (H.R. 2070)

  --  Democratic Socialists of America, Austin Gonzalez: Letter 
            of Support (H.R. 2070)

  --  Eduardo Villanueva Munoz: Letter to the Committee

  --  Gladys Franco, Co-Founder of the Boricua Solidarity 
            Movement: Letter of Support (H.R. 2070)

  --  Javier Smith Torres: Letter to the Committee & Chairman 
            Grijalva

  --  Justin Maldonado: Letter of Support (H.R. 2070)

  --  La Mesa Boricua of Florida, Maria Revelles: Letter of 
            Support (H.R. 2070)

  --  Maria J. Torres-Lopez: Letter of Support (H.R. 2070)

  --  Organizacion Puertorriquena de la Mujer Trabajadora 
            (OPMT), Alice Colon Warren: Letter of Support (H.R. 
            2070)

  --  Our Revolution Puerto Rico (ORPR), Maruxa Cardenas: 
            Letter of Support (H.R. 2070)

  --  Paul Figueroa: Letter of Support (H.R. 2070)

  --  Raquel M. Gonzalez-Sparks: Letter of Support (H.R. 2070)

Miscellaneous Letters/Statements in Support of H.R. 1522

    Individuals

  --  Alba Calderon

  --  Andres L. Cordova, Commissioner in Puerto Rico's Civil 
            Rights Commission

  --  Dennis O. Freytes, U.S. Army (Ret.)

  --  Derick Leon

  --  Enid Acevedo

  --  Eugenio Matias Perez

  --  Francisco Ortiz Berlingeri

  --  Gene Roman: Collection of News Stories, Pro-Statehood

  --  Joaquin A. Marquez

  --  Jose Aviles

  --  Jose Vicente, Filadelfia IDDPMI Santiago Iglesias

  --  Luis Matos

  --  Manuel De Jesus Lopez Alamo

  --  Maria C Robles-Torres

  --  Norika Rodriguez Carmona

  --  Sara Munoz Melendez

  --  Virgilio Sanchez Figueroa

    Groups

  --  National Puerto Rican Equality Coalition

  --  Puerto Rico Escogio Estadidad, Inc.

  --  Puerto Rico-USA Foundation

  --  Young Professionals for Puerto Rico Statehood (YPPRS)

Miscellaneous Letters/Statements in Support of H.R. 2070

  --  ELA de Puerto Rico-Defensores Inc.

  --  Puerto Rican Action Movement (MAP)--Informational Brief

Miscellaneous Letters to the Committee

  --  John Ward Llambias

  --  Jose Luis Dalmau, President of the Senate of Puerto Rico 
            and of the Popular Democratic Party

  --  Melissa Richardson

  --  Zayira Jordan Conde

Other Submissions for the Record

  --  Professors of Constitutional Law at ABA approved law 
            schools in Puerto Rico

  --  H. Con. Res. 1, House of Representatives of Puerto Rico, 
            19th Legislative Assembly

  --  Emilio Pantojas Garcia--Metro.pr, Opinion: El mito de una 
            mayoria estadista

  --  Puertorriquenos Unidos en Accion (PUA), Manuel Rivera, 
            Letter to Chair Grijalva and the Committee

  --  Dialogo Por Puerto Rico

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
